Audit Report




OIG-11-051
Audit of the Alcohol and Tobacco Tax & Trade Bureau’s
Fiscal Year 2010 Financial Statements and Fiscal Year 2009
Balance Sheet


December 17, 2010




Office of
Inspector General
Department of the Treasury
The Alcohol and Tobacco Tax and Trade Bureau (TTB) is committed to making its Web
 Site accessible to all citizens and ensuring that it meets or exceeds the requirements
   of Section 508 of the Rehabilitation Act. TTB has made every effort to make its
  FY 2010 Annual Report accessible; however, for problems with accessibility of the
 Financial Statements, Accompanying Notes and Supplemental Information (contained
               in Part III), please contact TTB at TTBWebmaster@ttb.gov. 

                                      Also see:

                         About TTB -Accessibility Policy Page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 17, 2010


            MEMORANDUM FOR JOHN J. MANFREDA, ADMINISTRATOR
                           ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
                                    Fiscal Year 2010 Financial Statements and Fiscal Year 2009
                                    Balance Sheet


            I am pleased to transmit the attached audited Alcohol and Tobacco Tax and Trade
            Bureau (TTB) financial statements for fiscal year 2010 and balance sheet for fiscal
            year 2009. Under a contract monitored by the Office of Inspector General,
            KPMG LLP, an independent certified public accounting firm, performed an audit of
            TTB’s balance sheets as of September 30, 2010 and 2009 and the related
            statements of net cost, changes in net position, budgetary resources, and custodial
            activity for the year ended September 30, 2010. The contract required that the
            audit be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget Bulletin No.
            07-04, Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified a significant deficiency related to
            controls over the review of purchase requisitions, which was considered a material
            weakness. Further, KPMG LLP found no instances of reportable noncompliance
            with laws and regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TTB’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations.
KPMG LLP is responsible for the attached auditors’ reports dated December 14,
2010 and the conclusions expressed in the reports. However, our review disclosed
no instances where KPMG LLP did not comply, in all material respects, with
generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Alcohol and Tobacco Tax and Trade Bureau



Annual Report
FY 2010
Table of Contents
Introduction ............................................................................................................................................. i

Message from the Administrator ............................................................................................... ii

Vision, Mission, and Values ......................................................................................................... v

TTB Strategic Goals and Objectives ...................................................................................... vi

Part I: Management’s Discussion and Analysis

Profile of a Bureau .................................................................................................................................. 1

Performance Summary ...................................................................................................................... 21

Financial Summary.............................................................................................................................. 28

FY 2010 Bureau Budget..................................................................................................................... 30

Bureau Challenges ............................................................................................................................... 31

Part II: Program Performance Results

Performance Overview ...................................................................................................................... 32

Summary of Collect the Revenue Performance ........................................................................ 33

Summary of Protect the Public Performance ............................................................................ 36

Summary of Management and Organizational Excellence Performance ....................... 39




                                                                             a
                                                        TTB 2010 Annual Report


Message from the Chief Financial Officer ........................................................................ 48

Part III: Financial Results, Position, Condition and Auditors’ Reports

Budget Highlights by Fund Account ............................................................................................. 50

Linking Budget and Program Spending ...................................................................................... 52

Systems and Controls ......................................................................................................................... 56

Financial Statements, Accompanying Notes and Supplemental Information .............. 60

       Independent Auditors’ Reports ............................................................................................. 61

       Financial Statements .................................................................................................................................. 70

       Notes to the Financial Statements ........................................................................................................ 76

       Required Supplementary Information (Unaudited) ..................................................................... 96

       Other Accompanying Information (Unaudited) .............................................................................. 98


Part IV: Appendices

Principal Officers of TTB ................................................................................................................. 102

TTB Organization Chart................................................................................................................... 103

Connecting the Treasury and TTB Strategic Plans ............................................................... 104




                                                                               b
                                    TTB 2010 Annual Report



Introduction
In these economic times, when every dollar counts, the U.S. Government owes it to the American
taxpayers to demonstrate the value of the programs and services it provides. Within the Annual
Report for fiscal year (FY) 2010, TTB combines program performance and financial data to
account for how effectively the Bureau translates its program dollars into quality service,
responsible management practices, consumer protection, and increased tax revenue.
TTB elects to present this data annually in an effort to communicate relevant performance and
financial information. As part of the performance and budget cycle, this report grants the Bureau
an opportunity to inform stakeholders of its successes and explain any shortfalls.
The report defines the Bureau’s mission, strategic goals, and major programs, and summarizes its
progress in meeting its objectives, as stated in TTB’s five-year strategic plan. Also included is
valuable financial information that discusses how TTB expended its budget on its major
programs, and accounted for tax collections from the alcohol, tobacco, firearms, and ammunition
industries.
This information is presented in four parts:
       Part I – Management’s Discussion and Analysis. This section provides an overview of
        the Bureau including its mission and programs, highlights of program and financial
        operations, and a summary of TTB’s program performance.
       Part II – Program Performance Results. In this section, the report provides a summary of
        results achieved for each performance measure related to the Collect the Revenue and
        Protect the Public strategic goals and an overview of the Bureau’s accomplishments
        under its Management and Organizational Excellence goal.
       Part III – Financial Results, Position, Condition and Auditors’ Reports. The transactions
        and records that comprise TTB’s financial statements are part of the consolidated
        financial data for the Department of the Treasury, which are annually audited at the
        Departmental level. For the purposes of TTB’s Annual Report, the Bureau includes an
        audited balance sheet, statements of net cost, changes in net position, budgetary
        resources, and custodial activity for the year ending September 30, 2010. Also included
        is a report on the Bureau’s internal controls over financial reporting and a report on
        TTB’s compliance with laws and regulations. This report section also includes a message
        from the TTB Chief Financial Officer, a discussion of budget activities for each of the
        Bureau’s seven major programs, and supplemental information, such as a history of
        Federal excise tax collections for the past decade.

       Part IV – Appendices. This section includes a listing of TTB principal officers, an
        organization chart, and strategic planning information that demonstrates the relationship
        between TTB’s plan and the overall Department of the Treasury’s mission and goals.



                                                i
                                   TTB 2010 Annual Report



Message from the Administrator
                                The Alcohol and Tobacco Tax and Trade Bureau (TTB) has a broad
                                mission that involves both tax collection and consumer
                                protection. Our responsibilities under this mission ensure a fair
                                marketplace and a level playing field in the industries we
                                regulate. In carrying out our mission, we believe in producing
                                results that are germane and add value to the lives of Americans
                                in the most efficient and cost effective way. This mindset has
                                been at the core of TTB’s culture since our formation in 2003.
                                The current fiscal crisis simply makes our business approach all
                                the more compelling, and reinforces our commitment to
                                administer our jurisdiction in a way that matters to Americans
                                and reassures them that their investment in us is well spent.
Borrowing from the private sector, TTB holds itself accountable by tracking its return on
investment for its revenue collection operations. In fiscal year 2010, we exceeded our
performance goal, and returned $478 to the public coffers for every $1 we expended on tax
collection activities.
Like a successful business, this Bureau has a proven record of adapting and responding to
changes in our operating environment. When Congress enacted the Children’s Health Insurance
Program Reauthorization Act of 2009 (CHIPRA), TTB employees quickly adjusted operating plans
and priorities to implement the statute and enforce the new tax and regulatory requirements for
those operating in the tobacco industry within the short timeframes provided. In addition to
permit requirements, tax increases, and other changes imposed upon the tobacco industry,
CHIPRA provided for a one-time tax upon tobacco products already in the market pending sale to
the consumer. This provision introduced approximately 400,000 new and unidentified taxpayers
to TTB’s enforcement responsibilities. Using innovative enforcement strategies, and with no
increase to our resources, we far exceeded expectations in our collection efforts, collecting $1.3
billion in FST receipts to date.
Strategic deployment of our resources, and ever more sophisticated targeting techniques in our
tax verification program, ensured that we could meet these new demands without detracting
from our core mission work of ensuring alcohol and tobacco taxpayers comply with Federal
regulations and timely pay their taxes. In FY 2010, our ongoing education and enforcement
efforts helped sustain a 94 percent compliance rate from alcohol, tobacco, firearms, and
ammunition taxpayers.
Our efforts to maintain compliance from TTB taxpayers are focused on ensuring that the tax that
is due in our industries is collected and available to fund Americans’ priorities; fair and lawful
trade in these industries is integral to that objective. This objective is undermined when the
criminal element infiltrates the legitimate alcohol and tobacco products trade. Tax evasion in


                                                 ii
                                     TTB 2010 Annual Report


these industries, which we call “diversion,” not only thwarts revenue collection that is intended
to fund important American priorities but it also threatens public safety, both since the profits
from these activities have been found to fund organized crime and terrorist organizations and
since the products illegally introduced to the public evade regulatory controls.
As a means to assess the revenue lost from illegal diversion in tobacco, a provision of CHIPRA
required the Department of the Treasury to study the illicit tobacco trade and quantify its impact
upon Federal tax receipts. TTB partnered with the Department in conducting this study, which
was submitted to Congress in February 2010. Using current tax rates, the study determined that
the diversion of cigarettes costs the Federal government an estimated $4.5 billion annually.
Recognizing the significant drain on the Federal revenue, and the public health risk posed by
alcohol and tobacco products illegally produced and sold to consumers, Congress earmarked $3
million in funding in FY 2010 to be spent over two years to support the hiring of TTB special
agents to address this threat.
In effectuating this mandate, TTB entered into an agreement with the Internal Revenue Service
(IRS) Criminal Investigation office to contract criminal enforcement agents to serve as TTB special
agents. Under this agreement, TTB will reimburse the IRS for both the special agents and the
entire infrastructure associated with supporting the special agents. This approach is consistent
with TTB's longstanding business model of leveraging available resources to maximize our reach
and effectiveness in meeting our broad mission with the least possible cost. In the year ahead,
we will work with the IRS to evaluate this approach and determine if it can be a mutually feasible
and cost effective way to enforce our criminal jurisdiction.
The Bureau also continued its civil enforcement efforts in bringing individuals and businesses
illegally importing tobacco products without a Federal permit into compliance. For example, for
the third year, TTB examined U.S. Customs and Border Protection’s international trade database
to identify and address the illegal importation of tobacco products, and found that 15 percent of
tobacco product importers did not have a permit to operate. As a known point of diversion,
addressing importer permit violations is crucial to deterring criminal activity. In this respect, this
measure has proven to be a valuable enforcement tool to address the revenue and safety threat
presented by this activity.
TTB’s public protection mission also requires that we timely process applications to operate in
the industries we regulate, which ensures that those who are qualified to operate receive their
permits without undue delay. At the National Revenue Center (NRC), our tax and permit
processing hub, we implemented improved management tools and a new triaging procedure for
handling applications to reduce processing times. These efforts helped TTB keep application
processing times at 65 days during a period when submissions increased by 4 percent. To ensure
that our processing activities continue to facilitate industry requirements in the long-term, TTB is
preparing to deploy an electronic filing system for permit applications—Permits Online. We
expect this system to produce tangible benefits for both TTB and the industries we regulate, thus
facilitating free and unobstructed commerce in these industries, and revenue collected for the
American public.

                                                  iii
                                   TTB 2010 Annual Report


Other electronic filing solutions already in place at TTB continue to gain wider use. The COLAs
Online system, which enables industry to file their application for alcohol beverage label
approval, has eased the burden of compliance for industry and supported the Department’s goal
of eliminating paper transactions with the public. At the close of FY 2010, alcohol beverage
manufacturers and importers submitted 79 percent of label applications electronically, a rate
that is unparalleled in government and speaks to the value of the system.
The filing solutions online today, as wells as those slated for release in FY 2011, should lead to
increased customer satisfaction for those we regulate. In our minds, if our customers are
satisfied, then we have done our job to facilitate lawful commerce. A survey of those customers
who filed for an original or amended permit or who submitted a refund claim reported an 89
percent satisfaction rate. We believe that the investment we have made in automating our
business processes will pay dividends in terms of customer satisfaction in the years ahead.
Meeting our performance goals, as well as responding to the demands placed on the Bureau by
the CHIPRA legislation, did not come without a price. The satisfaction of our employees declined
as a result of increased workloads and stagnant or reduced staffing levels. Restoring the Bureau’s
previous place among the top rated agencies in Government will require the concerted attention
of the TTB leadership team. As we have proven time and again in times of adversity, we will
come together as a Bureau to find solutions that work in concert to meet the needs of our people
and our customers.
In the year ahead, we will continue to pursue greater accountability and transparency in all areas
of our operations. We will leverage our resources through effective partnerships and technology
enhancements to accomplish our mission and improve service to those we regulate. Our efforts
will focus on assuring our workforce is satisfied and engaged in the mission, and that the
American taxpayer is satisfied with the return that they see on their investment in this agency.
The Bureau has validated the accuracy, completeness, and reliability of the performance data
contained in this report.

                                          /s/

                                         John J. Manfreda
                                          Administrator




                                                iv
                                   TTB 2010 Annual Report



Vision, Mission, and Values
Vision
Our vision is to maintain an organization of people who value each other and who treat each
other and their customers with the respect that they deserve. We intend to uphold the laws, for
which we are responsible, in a fair, equitable, and appropriate manner, affording all an
opportunity to have their opinions heard without prejudice. We intend to carry out our mission
without imposing inappropriate or undue burden on those from which TTB collects taxes and
those TTB regulates.

Mission
Collect the Federal excise taxes on alcohol, tobacco, firearms, and ammunition, and assure
compliance with Federal tobacco permitting and alcohol permitting, labeling, and marketing
requirements to protect consumers.

Values
We value each other and those we serve. This Bureau:

  Upholds the highest standards of excellence and integrity;

  Provides quality service and promotes strong external partnerships;

  Develops a diverse, innovative, and well-trained workforce in order to achieve our goals; and

  Embraces learning and change in order to meet the challenges of the future.




                                                v
                                   TTB 2010 Annual Report



TTB Strategic Goals and Objectives
Collect the Revenue
Industry remits the proper Federal tax on alcohol, tobacco, firearms, and ammunition
products

Tax Verification and Validation. Assure voluntary compliance in the timely and accurate
remittance of tax payments

Civil and Criminal Enforcement. Detect and address noncompliance, excise tax evasion, and
other criminal violations of the Internal Revenue Code in the industries TTB regulates

Goals for Protect the Public
Alcohol and tobacco industry operators meet permit qualifications, and alcohol
beverage products comply with Federal production, labeling, and marketing
requirements
Business Integrity. Assure that only qualified persons and business entities operate within the
industries TTB regulates

Product Integrity. Assure that alcohol beverage products comply with Federal production,
labeling, and advertising requirements

Market Integrity. Assure fair trade practices throughout the alcohol beverage marketplace

Goal for Management and Organizational Excellence
Effectively managed resources and human capital for maximum performance,
efficiency, and program results

Human Capital Management. Maintain a qualified, engaged, and satisfied workforce

Technology Solutions. Deliver effective, streamlined, and flexible IT solutions that add value and
support program performance

Finance and Performance Results. Facilitate strategic management and financial accountability
through the delivery of timely and reliable financial and performance information




                                                vi
                                           TTB 2010 Annual Report



PART I
Management’s Discussion and Analysis
Profile of a Bureau
The mission of the Alcohol and Tobacco Tax and Trade Bureau (TTB) is to collect alcohol,
tobacco, firearms, and ammunition excises taxes that are rightfully due the Federal government
and to protect the consumer of alcohol beverages from unsafe or improperly labeled products
and from unfair competitive practices in the trade of alcohol.

The Bureau was formed in January 2003, under the Homeland Security Act of 2002, but its
history began more than 200 years ago as one of the earliest Federal tax collection agencies.
Today, TTB operates under the authorities of the Internal Revenue Code of 1986 (IRC)1 and the
Federal Alcohol Administration Act (FAA Act),2 including the Alcoholic Beverage Labeling Act of
1988 (ABLA)3 and the Webb-Kenyon Act. 4 These laws put in place strict requirements and
controls related to alcohol and tobacco products and regulate who can and cannot make, sell,
and distribute these commodities.

TTB is the Federal agency that authorizes trade in the alcohol and tobacco industries, since it
issues permits that are required to operate in these industries and is authorized to revoke those
permits based upon violations of law. TTB’s work reaches industry activities from initial
qualification, production, and distribution, through taxation and, in dire cases, revocation of a
permit.

Because of its broad jurisdiction, and its position as a bureau of the Department of the Treasury,
TTB takes quite seriously its role to administer the law in a way that protects the public and the
revenue while at the same time facilitating a healthy economy in the alcohol and tobacco
trades.



a115

1
 Chapters 51 and 52 of the IRC provide for excise taxation and authorize operations of alcohol and tobacco producers
and related industries, and IRC sections 4181 and 4182 provide for excise taxes for firearms and ammunition.
2
 The FAA Act provides for regulation of those engaged in the alcohol beverage industry and for protection of
consumers through certain requirements regarding the labeling and advertising of alcohol beverages. The FAA Act
also includes provisions to preclude unfair trade practices that serve as barriers to competition and trade in the U.S.
marketplace.
3
 The ABLA mandates that a Government warning statement appear on all alcohol beverages offered for sale or
distribution in the United States.
4
  The Webb-Kenyon Act prohibits the shipment of alcohol beverages into a State in violation of the receiving State’s
laws.

                                                           1
                                  TTB 2010 Annual Report


In this regard, TTB consistently coordinates with other agencies whose jurisdictions impact the
alcohol and tobacco industries to ensure a coherent, logical, and non-redundant application of
Federal law insofar as these industries are concerned. For example, TTB facilitates other Federal
and State agencies in the enforcement of their respective jurisdictions, whether the matter
involves the authorized use of pesticides as administered by the U.S. Environmental Protection
Agency (EPA), the Food and Drug Administration (FDA), and U.S. Department of Agriculture
(USDA); the safe use of ingredients or depiction of alcohol products in menus as administered by
FDA; the enforcement of the Master Settlement Agreement between the respective State
Attorneys General and tobacco manufacturers; the Tobacco Buyout Program as administered by
the USDA; the labeling of organic claims on food products as administered by the USDA; trade
policy as negotiated through the Office of the United States Trade Representative (USTR); or
State tax law as administered by the respective States, to name a few.

TTB operates like a business, ensuring that it delivers a relevant, important, and efficient
product to the taxpayer by administering its jurisdiction in a most logical and meaningful way
while presenting the least necessary cost upon the industry. In broad terms, TTB conducts its
mission work in two areas—“Collect the Revenue” and “Protect the Public”—to produce
identifiable outcomes in terms of the nation’s financial and economic interests.

Collect the Revenue

TTB is the third largest tax collection agency in the U.S. Government, behind the Internal
Revenue Service (IRS) and U.S. Customs and Border Protection (CBP). TTB’s effective
administration of its collections duties supports the Department of the Treasury’s strategic
objective to ensure that the Federal Government has the cash resources needed to operate.

The Bureau’s collection activities are administered under two primary programs—the Alcohol
and Tobacco Program and the Firearms and Ammunition Excise Tax (FAET) Program. TTB directs
a majority share of its Collect the Revenue budget resources to the Alcohol and Tobacco
Program, as these industries constitute more than 98 percent of the Bureau’s revenue
collections.

In effecting its revenue mission, TTB uses a coordinated enforcement approach to verify that
industry members remit the excise taxes due on the alcohol, tobacco, firearms, and ammunition
products sold to U.S. consumers. The Bureau’s auditors, investigators, chemists, and tax and
regulatory specialists work in concert to verify and validate that industry members pay the
proper amount of tax on these strictly regulated commodities.

The National Revenue Center (NRC) is responsible for collecting and accounting for the excise
taxes due to TTB. At the NRC, tax specialists reconcile the tax returns against the industry
members’ operational reports to verify that proper payment was made on the products
removed for sale. The NRC also processes claims, computes penalties and interest, and issues


                                                2
                                   TTB 2010 Annual Report


notice and demand letters to taxpayers who missed or are late in filing payments. In certain
cases where an industry member fails to comply with various laws and regulations, TTB may
determine that the best course of action to take to recover lost tax revenue, plus interest and
penalties, is to negotiate of an Offer-in-Compromise.

TTB intelligence analysts collect and analyze data to develop leads for further investigation or
audit and to identify potential diversion cases. Using referrals, government databases, and
other external sources, TTB is able to identify trends and schemes used to facilitate tax fraud
and diversion so that the Bureau’s auditors and investigators can address unlawful activity as
early as possible.

The risk model that drives the Bureau’s enforcement strategy is designed to maximize the reach
and effectiveness of its resources. TTB field personnel conduct targeted compliance audits and
investigations based on risk and random factors. Working on taxpayer premises, TTB auditors
and investigators review the production records and tax returns of industry members to ensure
compliance with Federal tax and regulatory requirements. Field personnel also develop
intelligence and pursue leads suggesting unlawful operations in violation of the tax, permit, and
other requirements enforced by TTB.

In FY 2010, TTB’s enforcement profile was enhanced by a Congressional directive to add special
agents to its field operations in order to address illicit activity in the alcohol and tobacco
industries. Pursuant to the FY 2010 Consolidated Appropriations Act, TTB was authorized $3
million, expendable over two years, to hire, train, and equip special agents to enforce its
criminal jurisdiction. TTB completed that directive in October 2010, and has deployed those
agents to pursue criminal enforcement cases on its highest priority cases, in anticipation of
reporting measurable results in FY 2011.

Civil Tax Enforcement

Prior to FY 2008, tax receipts for TTB and its predecessor agency, the Bureau of Alcohol,
Tobacco, and Firearms (ATF), totaled between $14 billion and $15 billion annually. In FY 2010,
for the second consecutive year, TTB collected more than $20 billion in alcohol, tobacco,
firearms, and ammunition excise taxes. Total collections for FY 2010 were $23.8 billion—an
increase of 15 percent over FY 2009 collections.

The year-to-year revenue increase of $3.2 billion is mostly attributable to increased receipts
from the tobacco industry. With the passage of the Children’s Health Insurance Program
Reauthorization Act (CHIPRA) in February 2009, Congress imposed significantly increased tax
rates on cigarettes and other tobacco products. The Federal excise tax on cigarettes increased
from $0.39 per pack to $1.01 per pack, an increase of more than 150 percent. CHIPRA also
introduced requirements for permits and taxes on products that had not previously been taxed
or regulated.


                                                 3
                                    TTB 2010 Annual Report


One such statutory provision included a new permit
requirement for those engaged in the business of
manufacturing and importing processed tobacco. No associated
                                                                       TTB Enters Agreement with
tax upon processed tobacco was imposed. In FY 2010, TTB
granted more than 200 permits to manufacturers and importers
                                                                       IRS for Special Agents
of processed tobacco, with additional applications for such
permits pending. TTB also required, pursuant to regulation, that
manufacturers and importers of processed tobacco notify TTB
of any sales of processed tobacco to non-permittees so that the
Bureau can detect persons who operate outside of the legal
requirements. The submitted reports are critical to ensuring
that unauthorized individuals are prevented from operating or
that their illicit activity is stopped.

CHIPRA also levied a floor stocks tax (FST), a one-time excise tax     In FY 2010, TTB completed work on a
placed on a commodity undergoing a tax increase, on all                reimbursable agreement with the
tobacco products held for sale as of April 1, 2009. The FST is         Internal Revenue Service Criminal
equal to the difference between the new tax rate and the               Investigation (IRS CI) unit to provide
                                                                       agents and the infrastructural support
previous rate. The FST added approximately 400,000 new
                                                                       necessary to conduct law enforcement
taxpayers to TTB’s enforcement responsibility. In FY 2010, TTB
                                                                       operations. TTB agents reported on
continued its FST enforcement efforts based, in part, on findings      October 1, 2010, and in the fiscal year
that many wholesalers failed to report or underreported their          ahead will pursue criminal cases
tobacco inventory and associated tax payments in the prior             involving the illegal manufacture and
fiscal year.                                                           distribution of alcohol and tobacco
                                                                       products.
In enforcing the FST, TTB combined technology, outreach to
Federal and State agency stakeholders, and sophisticated
targeting techniques to not only discover the identities of these
new taxpayers but also to develop an audit plan consisting of
those entities that intelligence data indicated had likely not filed
or under-filed FST payments. By employing a short field
examination program, TTB auditors and investigators completed
more than 250 visits to the premises of manufacturers,
wholesalers, importers, and retailers to verify FST payment. On
                                                                       In October 2010, TTB completed its initial
these visits, TTB identified an average underpayment of                training for its special agents regarding
$40,000. In the second year of collections, TTB’s field work           TTB’s criminal jurisdiction. TTB auditors,
resulted in the identification and collection of approximately         investigators, attorneys, and regulatory
$10 million and $7.2 million in additional FST, respectively.          specialists provided to the TTB agents
Total FST collections to date are $1.3 billion.                        the comprehensive instruction necessary
                                                                       to carry out enforcement activities in FY
The strategic risk-based approach used to deploy limited staff         2011.
resources enabled TTB to leverage its field presence to cover a
wide universe of potential FST taxpayers without adversely

                                                  4
                                   TTB 2010 Annual Report


impacting TTB’s other audit and investigation priorities. In FY 2010, in addition to the FST
examinations, the Bureau assured overall tax compliance by completing targeted audits for 145
industry members. This work resulted in the identification and collection of $7.4 million and
$1.7 million, respectively, in additional tax, penalties, and interest. TTB collected another $6.6
million related to open audit issues from prior years. Going forward in FY 2011, TTB will
continue to audit non-filers and high risk under-filers of FST.

Before the Bureau can determine tax liability, a tax class must be assigned to alcohol and
tobacco products based on regulatory standards. For alcohol beverages, classification requires
that the Bureau review the formula of certain products before they enter the market. For
example, if an examination of the formula were to disclose that an imported sake, which is
made from fermented rice and is classified and taxed as wine, contains added spirits, then the
product is then classified and taxed as a distilled spirit. This type of formula review, known as a
pre-import approval, can have significant tax implications, as wine is subject to a lower tax rate
than spirits products. In FY 2010, TTB processed nearly 6,700 formulas, lab analysis reports, and
pre-import evaluations to ensure Federal production standards were met and that producers
and importers paid the appropriate amount of excise tax.

TTB also conducts post-market product evaluations to check for proper tax classification. As an
example, TTB receives numerous samples of cigar products from manufacturers and importers
seeking verification that the product is a cigar rather than a cigarette. In classifying such a
product under the IRC, TTB evaluates the product’s wrapper, the type of tobacco used in the
filler, the product’s appearance, and the product’s packaging and labeling to verify that the
represented tax class meets the statutory criteria.

In FY 2010, TTB performed post-market product evaluations on a broadening range of non-
traditional products, such as products commonly referred to as “electronic” cigars, cigarettes, or
pipes, and products marketed as “tobacco free” tobacco product alternatives. One important
initial factor for evaluating these products is verifying that the products contain tobacco, which
subjects them to taxation. To do so, the TTB Tobacco Laboratory developed a method to
confirm the presence of tobacco in these unconventional products. Misclassification of such
products would have a significant consequence on excise tax collection. Further, the tobacco
verification determinations are also relevant to States, which defer to TTB for such
determinations, and other Federal agencies, such as FDA.

Prior to the enactment of CHIPRA, TTB faced a challenge in distinguishing between cigars and
cigarettes, particularly between small cigars and small cigarettes. Due to the tax rate
differential on these tobacco products, assigning an appropriate tax class had significant
revenue implications. The tax on small cigars was just under $1.83 per 1,000 sticks, while the tax
on small cigarettes was $19.50 per 1,000 sticks. At that time, TTB was evaluating analytical
methods to establish an objective standard to distinguish between the two products for tax
purposes and to minimize potential revenue losses from misclassification.



                                                 5
                                                                    TTB 2010 Annual Report


                                                               As a result of CHIPRA, the tax on small cigars and small cigarettes
                                                               was made equivalent, at $50.33 per 1,000 sticks. While the tax
Effect of CHIPRA on Taxable                                    issue was resolved by this parity, the need for appropriate
                                                               classification of these products remains, since other laws make a
Removals of Tobacco Products
                                                               distinction between cigars and cigarettes, and impose more
Payment of excise tax is due from tobacco
                                                               stringent regulatory restrictions over cigarettes but not cigars. For
manufacturers at the time the product is                       example, the Jenkins Act, recently amended by the Prevent All
removed for sale from the manufacturing                        Cigarette Trafficking (PACT) Act, applies restrictions on delivery
premises. Since the enactment of CHIPRA,                       and Internet sales of cigarettes and smokeless tobacco products
significant shifts in the tobacco products
                                                               and on mailing such products through the U.S. Postal Service
industry have surfaced.
                                                               (USPS), but these restrictions do not apply to cigars. In this case,
          Pre-CHIPRA Reported Removals of                      and in all instances where cigarettes are more restrictively
           Pipe and Roll-Your-Own Tobacco
                                                               regulated than cigars, the incentive for industry to misclassify
                              Pipe
                              13%                              these products remains.
                   RYO
                   87%
                                                               TTB recognizes this and, moving forward, the Bureau intends to
                                                               complete rulemaking to set forth objective, analytical standards
            Total Removals of 23.0 Million Pounds
                                                               for distinguishing between these products for Federal excise tax
                                                               purposes. In FY 2010, TTB continued its work on a final rule to
          Post-CHIPRA Reported Removals of                     address the concerns raised in response to a notice published In
           Pipe and Roll-Your-Own Tobacco
                                                               October 2006 in the Federal Register (71 FR 62506). This notice
                 RYO                                           proposed a set of standards to distinguish between cigars and
                 35%
                                  Pipe                         cigarettes for tax purposes based on, among other characteristics,
                                  65%
                                                               scientific analysis of the filler tobacco and physical features, such
                                                               as the presence of an integrated filter. Work on this regulatory
             Total Removals of 22.9 Million Pounds             project will continue into FY 2011.

          Pre-CHIPRA Reported Removals of                      Since the enactment of CHIPRA, a number of changes in the
               Small and Large Cigars
                                                               tobacco products industry have occurred, apparently in response
                  Large
                                                               to the new incentives created by the different tax rates imposed
                               Small
                  Cigars       Cigars                          on the tobacco product categories. For example, prior to CHIPRA,
                   48%          52%
                                                               the tax rates on pipe tobacco and roll-your-own (RYO) tobacco
                                                               were the same at just under $1.10 per pound. As a result of
                                                               CHIPRA, the tax on pipe tobacco was increased to just over $2.83
                                                               per pound, while the tax on RYO tobacco was increased to $24.78
          Pre-CHIPRA Reported Removals of
               Small and Large Cigars                          per pound. Because the tax rate on RYO increased so significantly,
                                                Small Cigars
                                                   11%         a dramatic shift has ensued in the volume of pipe tobacco and RYO
                   Large                                       tobacco reported as removed by domestic manufacturers from
                   Cigars
                    89%                                        their manufacturing premises for sale in the United States.

                                                               Under the IRC, pipe tobacco is any tobacco which, because of its
                                                               appearance, type, packaging, or labeling, is suitable for use and
                                                               likely to be offered to, or purchased by, consumers as tobacco to

                                                                                 6
                                    TTB 2010 Annual Report


be smoked in a pipe. RYO tobacco is defined as any tobacco which, because of its appearance,
type, packaging, or labeling, is suitable for use and likely to be offered to, or purchased by,
consumers as tobacco for making cigarettes or cigars, or for use as wrappers of cigars or
cigarettes.

Because of the lack of clear standards in the tax code to differentiate pipe tobacco from RYO
tobacco, and the consequent potential for misclassification and erroneous tax payment on these
products, TTB initiated a laboratory study to evaluate analytical methods and objective
standards that would provide a basis for differentiating between these two products for tax
purposes. In July 2010, TTB published a notice in the Federal Register (75 FR 42659) seeking
comment upon classification standards regarding these products.

Additionally, the TTB Tobacco Laboratory is participating in a collaborative study with 12 other
laboratories in 9 countries on the cut width of the tobacco in certain tobacco products. This
study will provide insight into inter-laboratory variations in the measurement of tobacco cut
width, and will offer valuable experience to TTB’s Tobacco Laboratory for tobacco product
classification. TTB submitted its analytical results to the principal investigator of the study in
Germany and the results of this international collaboration will be submitted to the
International Organization of Standardization (ISO) committee for review and approval as an
official ISO method for the measurement of the cut width of RYO and pipe tobacco products.

TTB also has seen a notable shift in the cigar market since the passage of CHIPRA. There may be
a number of reasons for this shift and, in FY 2011, TTB will continue to study these shifts to
determine the role played by tax rate and product classification to ensure against inappropriate
tax engineering by those permitted to operate in the tobacco industry.

Criminal Enforcement

Tax fraud in the alcohol and tobacco industries, whether through unlawful product diversion or
other means, poses a high risk to Federal revenue collection as well as a lucrative funding source
for criminal or terrorist organizations.

Diversion refers broadly to the movement of alcohol and tobacco products into domestic
commerce without the payment of taxes due. The trade of these products outside the legal
distribution system subverts Congressional intent in taxing these commodities, and threatens to
reduce the Federal revenue stream, which is $23.8 billion annually. Diversion activity also
undermines Federal and State tax interests in promoting fair competition within interstate
commerce.

Additionally, since 2000, organized criminal groups have become increasingly active in the
diversion of tobacco products, particularly cigarettes, and are running larger scale and more
complicated diversion schemes. The schemes have included the use of counterfeit tax stamps,
counterfeit cigarettes, shell companies, and money laundering. Federal investigations also have
revealed that some criminal organizations are using the proceeds from tobacco diversion to

                                                 7
                                     TTB 2010 Annual Report


fund other criminal activities, including drugs, weapons, identity theft, and various types of
fraud. For example, Federal investigations have uncovered criminals engaged in diversion
activities to fund the Hezbollah terrorist organization and its activities.5

Diversion activity also undermines public health by allowing the introduction of illegally
manufactured or distributed products into the marketplace at reduced prices, thereby opening
up access to these products that tax schemes seek to limit. Consequently, non-taxpaid alcohol
and tobacco products offer a cheap alternative to price-sensitive consumers who might
otherwise abstain.

CHIPRA directed the Secretary of the Treasury to conduct a study concerning the magnitude of
illicit tobacco trade in the United States and to submit to Congress recommendations for the
most effective steps that the Department of the Treasury can take to reduce such illicit tobacco
trade. The Department of the Treasury issued its Report to Congress on Federal Tax Receipts
Lost Due to Illicit Trade and Recommendations for Increased Enforcement on February 4, 2010.

In this report, the Treasury Department estimated the Federal tax loss on cigarettes due to
diversion for 2007 to be in the range of $500 million to $1.5 billion. Applying the new tax rate,
Federal losses range between $1.5 billion and $4.5 billion. TTB will continue to conduct this
study to determine the post-CHIPRA revenue loss once cigarette consumption rates for 2009
and 2010 become available.

As directed, the Report set forth several recommendations for reducing Federal revenue loss as
a result of diversion and suggested additional areas for consideration after post-CHIPRA revenue
figures become available, to determine whether these figures justify the additional controls that
are offered. In particular, the Report recommended enhancing the traceability of tobacco
products; evaluating existing criminal and civil penalty provisions applicable to tobacco diversion
to determine whether they should be increased; and allowing enforcement officials to pay
investigative expenses with proceeds gained through undercover operations.

Certain of the recommendations contained in the Report have been substantially recognized in
recently passed or pending legislation. The PACT Act, enacted in March 2010, imposed
additional controls that addressed concerns regarding consumer purchases of tobacco products
over the Internet or through other means of delivery sales as these products, delivered directly
to the consumer, may not be appropriately taxpaid. In addition, the Smuggled Tobacco
Prevention Act of 2010 (STOP Act), if enacted, would substantially address the majority of the
Report’s remaining recommendations and issues. That is, the STOP Act authorizes a track and
trace system, increases penalties for smuggling related offenses, and substantially closes the
tobacco distribution system through the imposition of permit and records requirements.

h115
5
  Department of Justice, Office of the Inspector General Report Number I-2009-005, “The Bureau of
Alcohol, Tobacco, Firearms and Explosives’ Efforts to Prevent the Diversion of Tobacco,” September 2009.


                                                   8
                                   TTB 2010 Annual Report


To date, addressing criminal activity in the industries TTB regulates has required coordination
with other law enforcement agencies to effect the Bureau’s criminal jurisdiction. TTB has
criminal enforcement authority over the commodities it taxes and regulates, but has had to rely
on the availability of other agencies to supply law enforcement resources to pursue criminal tax
cases. During FY 2010, to address the threat that diversion activity poses to the Federal revenue
stream, TTB carried out 36 joint investigations with various Federal, State, and local law
enforcement agencies. These investigations resulted in the seizure of more than 3,000 cases of
alcohol beverage products and nearly 100,000 cartons of cigarettes having an estimated Federal
and State tax liability of approximately $30 million. As a result of these activities, TTB assessed
or collected roughly $1.9 million in taxes owed.

Congress recognized the need to address this revenue issue in FY 2010 in its earmark of $3
million in two-year appropriations for TTB to hire, train, and equip special agents to effect the
Bureau’s criminal jurisdiction. In December 2010, following the enactment of the FY 2010
omnibus spending bill, TTB engaged a Criminal Enforcement Task Force to implement the
Congressional directive to establish an agent cadre at the Bureau. The task force completed a
thorough analysis of the resource needs and policy decisions that would be required for TTB to
create its own criminal enforcement division. After intense study, TTB determined that the
most effective way to establish a criminal enforcement arm would be to enter into a
reimbursable agreement to use the resources of an existing law enforcement agency for the
immediate future. This decision and subsequent interagency coordination resulted in a
reimbursable agreement with IRS Criminal Investigation (IRS CI) as the best option to expend the
two-year appropriation. The agreement, signed September 30, 2010, provides for both
infrastructural support, such as training, vehicles, weapons, and medical testing, and for the
provision of special agents themselves.

The Bureau is currently involved in multiple ongoing criminal investigations of illegal activity in
the alcohol and tobacco industries. In developing additional criminal case leads, TTB has
incorporated into its audit plan selected target audits of industry segments and specific industry
members that are at high risk for the diversion of taxable alcohol and tobacco commodities.
These include alcohol and tobacco importers and export warehouse proprietors, and other
entities referred from the TTB Intelligence Division based on suspected illegal activity. The
results of this criminal enforcement initiative will be released in the fiscal year ahead.

Protect the Public

The TTB Protect the Public strategic goal has broad meaning and is inclusive of activities that
directly impact American consumers, such as product safety testing and the verification of
labeling claims, as well as work that indirectly benefits the American taxpayer by ensuring
vitality and fair competition in the alcohol beverage trade. In essence, TTB’s public protection
responsibilities align with two principal outcomes for the American people: economic growth
and consumer protection.


                                                 9
                                   TTB 2010 Annual Report


The work in this mission area aligns under four programs: 1) Permits and Business Assurance; 2)
Trade Facilitation; 3) Advertising, Labeling, and Product Safety; and 4) Outreach and Voluntary
Compliance. Taken together, these programs ensure the integrity of the businesses that
produce and distribute alcohol and tobacco products, the integrity of the products themselves,
and the integrity of the market in which these businesses operate.
TTB operates these programs under the authority of the IRC and the FAA Act. The FAA Act grew
out of Prohibition, and provides for regulation of those engaged in the alcohol beverage industry
and for protection of U.S. consumers. The FAA Act includes provisions to require a permit for
those who engage in the business as a producer, importer, or wholesaler of alcohol beverages.
The IRC includes similar permitting requirements for tobacco manufacturers, importers, and
export warehouses. To ensure the integrity of the industry, TTB permit specialists screen
applicants to prevent persons who are not likely to operate in accordance with the law from
entering the trade. Based on risk factors, certain applications are referred to TTB investigators
for a field inspection. TTB investigators also perform field investigations on a statistical sample
of applicants who received a permit to ensure that the proprietor is eligible to operate within
the TTB regulated industries and to verify that the business’ operations comply with Federal law.
If TTB determines that a business is violating the conditions of its Federal permit, TTB may
suspend or revoke its permit to operate.
Further, to protect consumers, TTB carries out provisions of the FAA Act to ensure that labeling
and advertising of alcohol beverages provide adequate information to the consumer concerning
the identity and quality of the product and to prevent misleading labeling or advertising that
may result in consumer deception regarding the product. TTB also reviews alcohol beverage
label applications to fulfill the statutory requirement that bottlers and importers of alcohol
beverages have an approved Certificate of Label Approval (COLA) or an exemption certificate
before the product may be sold in the United States.
TTB investigators also enforce the FAA Act provisions which preclude unfair trade practices.
These provisions regulate the marketing and promotional practices concerning the sale of
alcohol beverages, and regulate trade practices such as exclusive outlets, tied house
arrangements, commercial bribery, and consignment sales.




                                                10
                                                  TTB 2010 Annual Report


                                             Business Integrity

Trade Practices Prohibited                   TTB facilitates growth in the U.S. economy by enabling qualified
by the FAA Act                               applicants to enter business as an alcohol producer, wholesaler or
                                             importer, or as a tobacco products manufacturer, importer or
Federal law defines the alcohol              exporter. The number of applicants filing for an original permit or
beverage marketing practices that are        registration with TTB has grown 30 percent between FY 2004 and
allowed and those that are prohibited
                                             FY 2010. Today, the Bureau regulates 52,670 industry members,
for alcohol beverage manufacturers,
importers, wholesalers, and retailers.
                                             an increase of 37 percent over the 38,563 permit holders in FY
The objective of these trade practice        2004.
standards is to promote fair competition
in the alcohol beverage industry.            Under its FAA Act authority, TTB conducts a multi-tiered
Following are the trade practices            background evaluation prior to issuing a permit to ensure that
prohibited under Federal law:                only qualified persons obtain a permit to operate within the
                                             regulated industries. Through this process, and other activities
Exclusive outlet - An exclusive outlet is    under its Permits and Business Assurance Program, TTB prevents
a practice by which an industry member
                                             prohibited persons from commencing operations and potentially
requires a retailer to purchase its
alcohol beverages.
                                             diverting products from legitimate commercial channels in order
                                             to fund illicit activity. Given the substantial tax involved in the
                                             commodities TTB regulates, and the distribution controls
“Tied house'' - A “tied house” is a          associated with them, the incentive to operate under color of law
practice whereby an industry member          for illegal purpose and illegal profit is substantial and, therefore,
induces a retailer to purchase its alcohol
                                             an important area of the Bureau’s focus.
beverages.

                                             As part of these efforts to support the Bureau’s business integrity
                                             objectives, TTB monitors compliance with Federal permit
Commercial bribery - Commercial
bribery is a practice whereby an             requirements among tobacco product importers by comparing the
industry member induces a wholesaler         import records in CBP’s International Trade Data System to the
or retailer to purchase its alcohol          permit records on file in the TTB Integrated Revenue Information
beverages.
                                             System (IRIS)—the Bureau’s integrated tax and permit database.
                                             TTB intelligence analysts were able to identify 190 entities (15
Consignment sales - Consignment              percent of active tobacco importers in FY 2010) importing product
Sales is a practice whereby an industry      illegally through this comparison, and responded by issuing cease
member sells, offers for sale, or            and desist letters to the culpable individuals. These efforts to
contracts to sell to any trade buyer         address compliance violations have proven effective, as all of the
(wholesaler or retailer) or for such trade
                                             importer entities notified by TTB have come into compliance or
buyer to purchase, offer to purchase or
contract to purchase any such alcohol        ceased operations. CBP is the Federal agency responsible for
beverages on consignment, or with the        collecting taxes and duties due on these imported products. The
privilege of return or any other type of     tax value of these imports as declared to CBP is $500,000.
consignment sale noted in Section
105(d) of the FAA Act and 27 Code of         TTB performance data indicates that since the Bureau began this
Federal Regulations 11.21.
                                             enforcement strategy, the rate of non-permitted importers has
                                             declined. Since FY 2008, the level of illegal importers fell from 22

                                                               11
                                   TTB 2010 Annual Report


percent to 15 percent in fiscal years 2009 and 2010. As external factors, such as the increased
excise tax rate, significantly contribute to non-compliance, TTB is evaluating other methods of
measuring its effectiveness in this enforcement activity. In FY 2011, TTB will continue to
monitor imports of tobacco products by non-permitted entities, placing special emphasis on
enforcing the PACT Act. TTB will coordinate with the USPS and other common carriers to
provide enforcement assistance for the relevant provisions of the PACT Act. Finally, though TTB
has no way of discerning how much of the revenue loss from its tobacco diversion study is
attributable to imports, the Bureau has formed a task force with CBP to enhance its diversion
enforcement efforts with respect to imported products.

Efficiency in permit processing is equally critical to the Department of the Treasury’s goal of
improved economic opportunity. In addition to ensuring a lawful marketplace by preventing
diversion, improving turnaround time for permit application processing enables those who are
qualified to hold a permit in the alcohol and tobacco industries to begin operating businesses
sooner, facilitating U.S. economic growth in a fair marketplace. In FY 2010, as part of its long-
term management objective to automate the Bureau’s key business processes, TTB undertook a
major software development effort that will allow industry members to electronically submit
new and amended permit applications for approval. The Permits Online system will provide a
secure, Web-based system to support the online submission, routing, and processing of original
and amended permit applications.

The NRC, the Bureau’s tax and permit processing hub, currently processes application packets
for more than 20 types of permits or registrations for the alcohol, tobacco, firearms, and
ammunition industries. New or existing alcohol and tobacco industry members file these
packets to request permission to commence a new regulated industry operation, or to update
critical industry member information such as trade names on an existing business. Over the
past several years, the volume of paper applications has increased, making it difficult to
maintain current service levels. With the workload increasing at the same time the Bureau’s
workforce is shrinking, this IT initiative is critical to improving present turnaround times.

TTB made a strategic investment in FY 2009 in a commercial off-the-shelf system to automate
the submission and processing of permit applications. In FY 2010, TTB developed and
customized the software package, and has nearly completed the testing phase. Once testing is
completed, Permits Online will be a turning point in terms of how TTB interacts and provides
service to the industry.

The first phase of Permits Online is scheduled to be released in the second quarter of FY 2011,
and will reduce processing times for the largest applicant groups—alcohol importers, alcohol
wholesalers, and wineries. In phase two, TTB will add additional permit types to the system in
increments of one until all permit applicants can use the system to electronically file for an
original or amended permit. The testing for phase two will be completed in the fourth quarter
of FY 2011, and system updates will continue through FY 2012.



                                               12
                                   TTB 2010 Annual Report


Permits Online will substantially improve TTB specialists’ ability to timely screen and authorize
applicants to operate alcohol and tobacco businesses. TTB expects that the release of Permits
Online will result in improved customer satisfaction and significantly reduced turnaround times
on permit applications, since the application process will be easier and faster. In advance of
Permits Online, the NRC implemented a Balanced Scorecard initiative to ensure the processing
time for permit applications did not extend beyond the 72-day target for FY 2010. Going
forward, TTB has set a target of 70 days for the processing of original permit applications. TTB
will monitor its performance related to the cycle time for original permit applications as industry
members adapt to this new filing method and usage rates for the system increase.

Market Integrity

TTB is charged with assuring that the
alcohol marketplace is free from
practices that would stifle competition
and act as a barrier to trade.

As part of its Trade Facilitation
Program, TTB has reinvigorated FAA
Act trade practices activities to
investigate acts that violate Federal law
relating to alcohol beverage marketing
practices. Unlawful trade practices
threaten fair competition because such         TTB hosted the delegation of Chinese officials
practices undermine healthy small              on March 18 through March 23, 2010, and the
business activity and limit consumer           itinerary included a stop at the TTB Compliance
choices by allowing influential producers to   Laboratory in Walnut Creek, California.
unlawfully interfere with the supply chain.

In FY 2010, TTB continued its long-term nationwide investigation of some of the largest suppliers
in the United States that the Bureau has found to be committing slotting fee violations in order
to receive preferred shelf and warehouse space with a large casino chain. In this investigation,
TTB found that retailers expect suppliers to pay product support dollars in order to guarantee
product placement and thus exposure. Such payments, or “slotting fees,” place smaller industry
members that cannot afford to pay these fees at a competitive disadvantage. TTB expects to
conclude the investigation in FY 2011 through a settlement agreement and acceptance of
Offers-in-Compromise. Barring such an agreement, TTB will move forward with its investigation
and could pursue permit suspensions against these industry members.

Further, the TTB Trade Facilitation Program involves identifying and addressing barriers to trade
in the international marketplace. TTB is the principal advisor and technical expert for the USTR
and other Federal agencies in the administration of U.S. alcohol laws, regulations, and policies,
and coordinates with these agencies as appropriate in responding to alcohol beverage and


                                                13
                                   TTB 2010 Annual Report


tobacco trade issues. TTB provides expert reviews of foreign regulatory proposals impacting the
alcohol and tobacco trade to identify and assess the impact of potential trade barriers for U.S.
alcohol and tobacco exporters. The USTR estimates that 10 to 20 percent of new barriers to
trade relate to alcohol beverages, and TTB plays a crucial role in the early identification and
resolution of these issues.

As international trade in alcohol beverages increases, TTB must seek innovative and efficient
ways to achieve its consumer protection and revenue collection mission. Specifically, TTB’s
expansion of international agreements has fostered a global network of regulators in the alcohol
and tobacco industries that ensure markets remain open and illegal activity in the global trade is
addressed promptly.

In FY 2010, TTB made significant
progress on international agreements
with multiple counterpart agencies in
Brazil, Italy, the Republic of Georgia,
and France. Each of these agreements
facilitate trade by increasing mutual
understanding of each country's
alcohol and tobacco production,
labeling, and licensing requirements,
and by providing a process for the
exchange of regulatory information
                                                                                  TTB
that has the potential to impact trade,
                                                                                  Administrator
compliance, and product safety.
                                                                                  John
In FY 2010, TTB signed Memoranda of                                               Manfreda
Understanding (MOU) with two of its                                               with officials
counterpart regulators in Italy—the                                               from the
Guardia di Finanza (GdF) and Istituto                                             Guardia di
Agrario di San Michele all’Adige                                                  Finanza at the
(IASMA). The MOU with the GdF                                                     MOU signing
establishes a consistent channel of                                               in November
communication on issues of mutual                                                 2009.
concern, including product integrity,
smuggling, counterfeit, and diversion
issues. TTB has already cooperated
extensively with the GdF to prevent mislabeled Brunello di Montalcino wine from entering the
U.S. market. Additionally, the MOU with IASMA, a private agricultural research laboratory,
promotes product integrity by enhancing TTB’s development of methodologies to characterize
wine and grape varietals and detect pesticide residues in wine.




                                               14
                                   TTB 2010 Annual Report


TTB also furthered relationships with its ongoing MOU partners, China’s General Administration
of Quality Supervision, Inspection, and Quarantine (AQSIQ) and Georgia’s Department of Vine
and Wine of the Ministry of Agriculture (SAMTREST). In FY 2010, TTB met with AQSIQ officials
for technical exchanges on laws, regulations, standards, and functions of the import/export
system. In Georgia, TTB met with SAMTREST officials to discuss wine trade issues, including
Georgia’s becoming parties to the World Wine Trade Group, efforts to improve the technical
capabilities of the Georgian Wine Laboratory, and product integrity for Georgian wines in the
United States. Such information sharing supports compliant trade in alcohol beverages,
protecting the public and increasing revenue collection.

In addition, TTB continued its negotiations for an MOU with France’s General Directorate for
Competition Policy, Consumer Affairs and Fraud Control (DGCCRF), which is responsible for
market competition regulation, consumer economic protection, and consumer safety, with an
emphasis on wine. TTB has been collaborating with DGCCRF to prevent fraudulent pinot noir
from entering the U.S. market, by requiring that U.S. industry members obtain a declaration
from the Government of France certifying the wine. TTB expects to sign the MOU with DGCCRF
during FY 2011, furthering an open exchange of information to protect against consumer fraud.

TTB also works to address barriers in the international marketplace by participating with other
Federal agencies in the negotiation of international trade agreements related to alcohol and
tobacco products on behalf of the U.S. Government. In FY 2010, TTB commenced work on an
interagency project with the USTR, the USDA-Foreign Agricultural Service, the U.S. Department
of Commerce, and the U.S. Department of State to establish an Asia-Pacific Economic
Cooperation (APEC) Wine Regulatory Forum (WRF) in support of expanding markets for U.S.
exports.

APEC is the premier forum for facilitating economic growth, cooperation, trade, and investment
in the Asia-Pacific region. It is the only inter-governmental grouping in the world operating on
the basis of non-binding commitments and open dialogue. Unlike the World Trade Organization
or other multilateral trade bodies, APEC has no treaty obligations required of its participants.
Decisions are reached by consensus and commitments are undertaken on a voluntary basis. The
20 APEC members are: Australia, Brunei Darussalam, Canada, Chile, the People’s Republic of
China, Hong Kong, Indonesia, Japan, the Republic of Korea, Malaysia, Mexico, New Zealand,
Papua New Guinea, Peru, the Republic of the Philippines, Russia, Singapore, Chinese Taipei, the
United States, and Vietnam. Many of the APEC member countries are emerging export markets
for the U.S. wine industry.

Australia, New Zealand, and the United States are co-sponsoring a project to establish an APEC
WRF. The WRF would be a forum to support open and free trade and eliminate technical
barriers to trade issues. In the fiscal year ahead, the U.S. interagency consortium will reach out
to the U.S. wine industry to support the project, and then will meet with U.S. co-sponsors to
create the necessary project documentation in order to secure funding. If the project is funded,



                                                15
                                                 TTB 2010 Annual Report


                                                 the United States will propose having the first WRF meeting
                                                 as part of the APEC Subcommittee on Standards and
TTB Holds Wine Export Seminar                    Conformance meeting to be held in California in FY 2011.

                                                 Similarly, in FY 2010, TTB assisted the U.S. Department of
                                                 Commerce and USDA in preparing an MOU on Cooperation of
                                                 Wine-Related Businesses with the Hong Kong Commerce and
                                                 Economic Development Bureau. Specifically, TTB provided
                                                 comments regarding counterfeiting and smuggling issues, and
                                                 was designated as responsible for addressing issues related to
                                                 combating counterfeit wine and smuggling. This agreement
                                                 will support the marketing and promotion of U.S. wines in
                                                 Hong Kong and elsewhere in Asia.

                                                 In FY 2011, in support of the Trade Facilitation Program, TTB
                                                 will continue to expand its international agreements with
                                                 foreign regulators. The Bureau intends to finalize MOU with
                                                 Canada and Italy, two countries that are among the top five
                                                 importers of malt beverages, wine, or distilled spirits to the
                                                 United States. These MOU are representative of the Bureau’s
Consistent with the President’s National         broad objective of ensuring that all imported products are
Export Initiative, which aims to “enhance and    properly labeled and safe for consumption.
coordinate Federal efforts to facilitate the
creation of jobs in the United States through    Product Integrity
the promotion of exports, and to ensure the
                                                 Consumer confidence is essential to ensuring that U.S. and
effective use of Federal resources in support
of these goals,” TTB held its first “How to      world economies perform at their full economic potential.
Export Wine” seminar for State winery            TTB is the Federal agency responsible for assuring the
association leaders in October 2009.             integrity of alcohol beverage products in the U.S. marketplace
                                                 so that consumers are adequately informed in their
The seminar, geared toward small wineries,
                                                 purchasing decisions and are protected from health hazards.
provided an outline of Federal wine export
resources and gave State representatives         As part of the Bureau’s Advertising, Labeling, and Product
practical tools to better assist wineries in     Safety Program, TTB works to ensure that alcohol beverages
exporting their products.
                                                 meet the standards of identity that their labels reflect and
TTB arranged for officials from the              that all ingredients and treating materials are authorized and
Department of Commerce, the Department of        within the limits set forth under applicable law and
Agriculture, the Small Business                  regulations. In the event that a food safety or other product
Administration, the Export-Import Bank, and      integrity issue occurs, the Bureau shares its findings with
the Office of the United States Trade            other regulatory and enforcement agencies, as appropriate,
Representative (USTR) to make presentations      and works in partnership to timely resolve the issue.
to the representatives on the export resources
of their respective agency.                      In November 2009, the FDA notified nearly 30 manufacturers
                                                 of certain alcohol beverages containing added caffeine of its

                                                             16
                                   TTB 2010 Annual Report


intent to look into the safety and legality of their products. The FDA also issued a news release
titled, “FDA to Look Into Safety of Caffeinated Alcoholic Beverages,” and posted on its Web site,
www.fda.gov, additional information about recent FDA activity regarding alcohol beverages to
which caffeine is added. These actions followed a meeting held in August 2009, when several
State Attorneys General met in TTB headquarters with both TTB and FDA to express their view
that caffeinated alcohol beverages pose health and safety hazards to consumers.

The FDA announcement and the letters to producers of caffeinated alcohol beverages generated
a number of inquiries to TTB. TTB has been working with and consulting FDA on caffeinated
alcohol beverages for a number of years, and continued this collaboration in response to the
State Attorneys General inquiry.

While TTB regulates the labeling of alcohol beverages, it is FDA’s responsibility to evaluate the
safety of ingredients added to alcohol beverages, pursuant to FDA’s authority under the Federal
Food, Drug, and Cosmetic Act (FFDCA). If the FDA deems caffeinated alcohol beverage products
to be adulterated under the FFDCA, then TTB would consider them to be mislabeled under the
Federal Alcohol Administration Act, making it a violation for industry members to sell or ship the
products in interstate or foreign commerce.

Following an FDA determination as to the suitability of added caffeine in the identified alcohol
beverage products, TTB will continue its coordination with FDA to ensure that any alcohol
beverage products that pose a public health or safety problem are removed from the
marketplace.

TTB’s Advertising, Labeling, and Product Safety Program also assures that industry members
provide full and accurate information on alcohol beverage labels and in advertisements. Before
an alcohol beverage can enter commerce, TTB completes a review of the product label to ensure
the label contains all mandatory information and does not mislead the consumer. In addition,
labels are reviewed for compliance with the Alcohol Beverage Labeling Act, the Federal law
which mandates that a Government health warning statement appear on all alcohol beverages
offered for sale and distribution in the United States. The approved label application is called a
Certificate of Label Approval (COLA).

The number of applications for label approval that TTB receives increased steadily between
fiscal years 2004 and 2008, with an overall growth rate of 27 percent. After a 6 percent decline
in FY 2009, which may be attributable to the economic downturn, the number of label filings
trended up in FY 2010, nearly matching filing rates from FY 2008. Again in FY 2010, the
significant majority of label applications received were for wine products. The wine industry
submitted 84 percent of the label applications processed by TTB in FY 2010.

Once alcohol beverages enter the marketplace, TTB monitors labeling compliance through the
Alcohol Beverage Sampling Program (ABSP). This involves examining a statistically-valid sample
of domestic and imported wine, spirits, and malt beverage products to determine if the labels
meet Federal requirements, and if the contents of the bottle match the label description. This

                                               17
                                   TTB 2010 Annual Report


process includes a chemical analysis of selected products by the TTB Laboratory for
identification and product safety purposes. In the first two cycles, the ABSP focused on distilled
spirits and malt beverage products. The third cycle of the ABSP was undertaken in FY 2010 and
focused on wine. The ABSP program results found that, given a 95 percent confidence level, the
wine industry is 96 percent compliant (± 3 percent) with Federal production and labeling
requirements. The ABSP results are incorporated into the TTB risk model to direct enforcement
resources, and findings of non-compliance are addressed by TTB analysts and investigators. The
results of this sampling program will provide a baseline for the level of compliance from this
industry segment, and will enable TTB to assess its progress in assuring the integrity of products
offered for sale to U.S. consumers.

In FY 2011, TTB will expand the ABSP, as part of a strategic shift to a more market-based
approach to consumer protection. In the year ahead, TTB will expand its ABSP to include all
three alcohol beverage commodity types of spirits, wine, and malt beverages, and will add a
field investigation component to verify label claims made on alcohol beverages, such as grape
varietal and vintage.

TTB also reviews advertisements for alcohol beverage products under the Alcohol Beverage
Advertising Program. A representative sample of ads from television, radio, the Internet, and
other ad sources are collected and reviewed for compliance with Federal regulations. This
year’s program centered on wine advertisements and, based on the findings, TTB estimates
the compliance rate with Federal regulations for all wine advertisements is 81 percent (± 4
percent). The results of the ABAP also pointed to the fact that advertising on the radio and in
print appears to have the most compliance issues, while TV and Internet advertising appear to
be the most compliant. Because of a limited sample size for this program, TTB could not make
a statistically based conclusion for outdoor advertising compliance.

In administering the Advertising, Labeling, and Product Safety Program, TTB also conducts
routine analysis of sampled alcohol beverages for ingredients or materials whose presence is
prohibited or limited. Examples include thujone, methanol, and toxic heavy metals. In
addition, wines are analyzed to ensure safe levels of pesticides and ochratoxin-A, and malt
beverages are tested for mycotoxins.

In FY 2010, following the TTB Laboratory’s identification of unauthorized pesticides in certain
imported wines, TTB developed a pesticide residue program that involved sampling wine in the
marketplace for analytical testing. The program includes product tests to determine the
presence of unauthorized pesticides and to ensure that authorized pesticides that are present
are within the limits prescribed by the FDA and EPA. In addition, in March 2010, TTB issued
guidance to domestic producers and to importers via an industry circular which clarifies how the
Bureau will respond to findings of pesticides in wine. TTB also established an intra-agency
Pesticides, Adulterants, and Contaminants Critical Task Force to clearly define the steps and



                                               18
                                    TTB 2010 Annual Report


procedures TTB will take in response to unsafe ingredients, pesticides, or hazards in any
beverage product that TTB regulates.

In addition, the proper labeling of alcohol beverages also has economic consequences.
Domestic alcohol label fraud represents a serious threat to the Bureau’s public protection
mission, as it degrades the economic stability of the legitimate alcohol beverage trade.
Counterfeit alcohol beverages bearing legitimate domestic brand or trade names jeopardize
domestic alcohol beverage commerce by trading on the brand reputation of authentic domestic
producers. Likewise, label fraud deceives consumers as to the true identity of products being
sold.

In FY 2010, TTB responded to a scandal involving the fraudulent labeling of wine imported as
pinot noir from France. Significant investigations were conducted to determine if U.S. importers
and bottlers were complicit in the illegal activity. At this stage, TTB has found no evidence in its
interviews or review of source documents that would indicate the U.S. industry took part in
planning or executing the fraud. The Bureau’s work has prevented approximately 2 million
bottles of mislabeled pinot noir wine from reaching U.S. consumers in the marketplace. Going
forward, TTB will continue to deploy its enforcement resources based upon a risk model that
includes risk and random factors. This approach ensures that the Bureau’s enforcement efforts
reflect a responsiveness to the greatest threats of noncompliance and remain agile enough to
respond to pressing intervening issues.

Under its FY 2011 investigative operating plan, TTB will expand its marketplace sampling of
alcohol beverage products to assess product compliance for spirits, wine, and malt beverage
products. The Bureau’s investigations and regulation of domestic industry has been the basis to
ensure the integrity of our products, both in the view of U.S. consumers and TTB’s international
counterparts, and has been critical to ensuring market access to U.S. exporters in foreign
venues.

Voluntary Compliance

In all of the Collect the Revenue and Protect the Public program areas, TTB emphasizes
voluntary compliance from the industry through its outreach efforts. TTB employs a dedicated
staff of industry analysts and liaisons to provide industry members and the States with direct
assistance on specific needs or guidance on broader issues affecting the regulated commodities.

The Bureau also sponsors seminars and workshops to educate the industry on Federal
requirements in the areas of manufacturing, marketing, importing and exporting, and paying tax
on alcohol and tobacco products, and firearms and ammunition. In FY 2010, TTB sponsored 15
wine industry and Federal compliance seminars across the country. Moving forward, TTB
intends to leverage the TTB.gov site and other Web-based capabilities to provide online
seminars and tutorials so that industry members will have additional on-demand resources and
options to answer questions related to tax and regulatory compliance.


                                                19
                                  TTB 2010 Annual Report


TTB also strives to reduce the burden of
compliance on industry by providing clear
regulatory guidance. The statutes and
regulations that the Bureau administers
have not kept up with the ever-evolving
changes in the industries that TTB
regulates. For example, brewers
increasingly wish to make products using
non-traditional ingredients that the         TTB hosted compliance seminars throughout the
regulations do not currently allow in the    U.S. in FY 2010 to assist industry in meeting
manufacture of malt beverages. TTB also is   Federal requirements related to the production
challenged by enforcing regulations on the   and distribution of alcohol beverages.
alcohol fuel industry that has outgrown a
regulatory framework created almost 30
years ago for a much smaller industry. In
the years ahead, TTB will work to
modernize its regulations to make
positive changes to the regulatory
framework and significantly influence
how well TTB accomplishes its “collect the
revenue” and “protect the public”
mission.




                                             20
                                                                                     TTB 2010 Annual Report


    Performance Summary
    Collect the Revenue
    TTB met all of its performance measures under the Collect the Revenue activity. A detailed
    summary of TTB performance is discussed in Part II of this report, Program Performance Results.
    Investments in the Collect the Revenue mission resulted in the following accomplishments in
    FY 2010:
       TTB collected $23.8 billion in excise taxes and other revenues from 7,0706 taxpayers in the
        alcohol, tobacco, firearms, and ammunition industries. The recent rise in excise tax
        collections for tobacco resulted in a return on investment for the Collect the Revenue
        program of $478 for every $1 expended on collection activities. The return on TTB tax
        collection activities increased by 12 percent over FY 2009.
       TTB expanded its e-filing capability to allow all excise taxpayers to file and pay taxes, and file
        monthly operational reports, electronically through the Pay.gov system. The total number of
        Pay.gov registrants increased by 30 percent in FY 2010, bringing the total to over 6,400.


                                                         Tax Collections by Commodity                           In February 2009, Congress enacted an
                                        16000                                                                   historic tax rate increase on tobacco
                                        14000
                                                                                                                products in the Children’s Health Insurance
            Collections (in Millions)




                                        12000
                                                                                                                Program Reauthorization Act (CHIPRA). In
                                        10000

                                         8000
                                                                                                                the first full year of collections at the new tax
                                         6000                                                                   rate, TTB collections totaled $23.8 billion, a
                                         4000                                                                   year-to-year increase of 15 percent, collected
                                         2000
                                                                                                                from a taxpayer base that grew just 5
                                           0
                                                   FY 2006       FY 2007      FY 2008      FY 2009    FY 2010   percent. Since 2008, tobacco revenues have
                                                             Alcohol    Tobacco      Firearms                   increased 132 percent.

                                                                                                                Of the TTB permit holders, only a small
                                           Industry Members Who Filed and Paid Taxes
                                                                                                                percentage file a return and pay taxes in a
           8,000
                                                                                                      7,070
           7,000                                                            6,546         6,777                 given fiscal year. This is due in large part to
                                                              5,837
                                                5,484
           6,000
                                                                                                                the fact that alcohol importers and
           5,000
           4,000                                                                                                wholesalers—the largest classes of
           3,000
                                                                                                                permittees—do not pay taxes to TTB. Still,
           2,000
           1,000                                                                                                the number of taxpayers has increased 29
                                  -                                                                             percent since FY 2006.
                                               FY 2006       FY 2007       FY 2008       FY 2009     FY 2010

                                                                       Taxpayers


    u115
6
    About 11,200 TTB permittees were subject to file a tax return and pay excise taxes this fiscal year;
    however, many operations do not result in the taxable removal of product from bonded premises.
    Therefore, in FY 2010, a total of 7,070 permittees had operations that required them to file a tax return
    and pay excise tax.


                                                                                                     21
                                    TTB 2010 Annual Report


   In measuring voluntary compliance, TTB reported a compliance rate of 94 percent in filing
    timely tax payments among its taxpayers who pay $50,000 or more annually. TTB’s
    educational outreach efforts at industry seminars and on manufacturer’s premises, as well as
    enhanced online training tools and guidance, proved successful in maintaining the
    compliance rate achieved in fiscal years 2008 and 2009.

   TTB processed cover-over payments of $387 million to Puerto Rico and the Virgin Islands.
    Cover-over payments to the Virgin Islands increased 3 percent, while payments to Puerto
    Rico decreased 20 percent. Federal excise taxes collected on rum produced in Puerto Rico
    and the Virgin Islands and subsequently imported into the United States are “covered over”
    (or paid into) the treasuries of Puerto Rico and the Virgin Islands. Year-to-year, cover-over
    payments can vary.

   TTB processed $298 million in drawback claims, an increase of 11 percent in refunded tax
    money compared to FY 2009. Under current law, persons who use nonbeverage alcohol in
    the manufacture of medicines, food products, flavors, extracts, or perfume and other non-
    potable products may be eligible to claim drawback of excise taxes paid on distilled spirits
    used in their products. To assess drawback claims, the TTB Laboratory analyzed 8,660
    formulas and samples in FY 2010.
   TTB also analyzes nonbeverage and beverage alcohol samples to assign or verify a tax clas-
    sification. For this purpose, TTB chemists processed 2,050 nonbeverage product specially
    denatured alcohol formulas and samples to support tax-free alcohol claims. TTB analyzed
    another 1,060 beverage alcohol samples associated with pre-import evaluation, the 5010 tax
    credit, and enforcement activities, as compared to 1,020 samples in FY 2009. Pre-import
    evaluations also serve to protect consumers, as the analytical tests also analyze products for
    limited or prohibited ingredients.
   The Tobacco Laboratory analyzed 375 tobacco samples in support of tobacco tax
    classification, regulatory projects, audits, investigations, and in the development of protocols
    for counterfeit tobacco product authentication. TTB chemists developed protocols for
    processing tobacco samples, which include the microscopic and chemical analysis of
    packaging, chemical analysis of tobacco fillers, physical properties of tobacco products (e.g.,
    moisture content and weight), and airflow through tobacco product wrappers. Further, the
    Tobacco Laboratory is assembling Diversion Kits to use in performing quick screenings of
    suspected counterfeit tobacco products in the field. Overall, mission work related to
    analyzing tobacco samples increased 42 percent over FY 2009.
   In FY 2010, TTB completed 145 targeted audits, and completed audit fieldwork on 94 percent
    of its revised audit plan. These audits resulted in the identification of $7.4 million and the
    collection of $1.7 million in additional tax, penalties, and interest. During FY 2010, TTB has
    also collected an additional $6.6 million in tax, penalties, and interest related to outstanding
    audit issues from prior fiscal years. TTB also conducted approximately 340 revenue-related
    investigations. Many of these investigations related to the enforcement of the tobacco floor


                                                22
                                      TTB 2010 Annual Report


     stocks tax (FST), as well as the operations of small alcohol beverage producers and tobacco
     product manufacturers. This work resulted in the identification of an additional $500,000 in
     underpaid taxes. In total, these closed cases resulted in the identification of additional
     revenue of more than $8 million.

    TTB auditors continued to enforce the collection of the tobacco FST from the manufacturers,
     importers, wholesalers, and retailers who held tobacco products for sale at the time of the
     tax rate increase imposed by CHIPRA. TTB completed more than 250 field visits to verify FST
     payment which identified an average underpayment of $40,000. This field work resulted in
     the identification of $10.2 million in FST due to the Federal government. Total FST collections
     to date are more than $1.3 billion.

    TTB has criminal enforcement authority over the commodities it taxes and regulates. Tax
     fraud in these industries, whether through unlawful product diversion or other means, poses
     a high risk to Federal revenue collection. Diversion includes tax evasion, theft, distribution of
     counterfeit products, and distribution in the United States of products marked for export or
     for use outside the U.S. In the February 2010 report to Congress regarding the illicit trade of
     tobacco products released by the Department of the Treasury, TTB estimated annual losses
     in Federal receipts prior to the tobacco tax rate increase at up to $1.5 billion. At the new tax
     rate, annual revenue losses could exceed $4.5 billion. In FY 2010, Congress earmarked $3
     million in two-year appropriations to hire, train, and equip special agents to address tax
     evasion and other criminal activity related to alcohol and tobacco. TTB entered into a
     reimbursable agreement with the Internal Revenue Service Criminal Investigations office,
     signed September 30, 2010, to provide agents to address this significant revenue issue.




                                                                           Active TTB Permit Holders
The total number of active TTB permit holders
in the alcohol, tobacco, and firearms             FY 2010

industries has increased 25 percent since FY      FY 2009

2006. The average annual increase in permit       FY 2008
                                                  FY 2007
holders is 6 percent. Alcohol and firearms
                                                  FY 2006
permittees have displayed a steady rising
trend, while the number of tobacco                           0          10,000          20,000        30,000       40,000      50,000

permittees continued a negative trend in FY                      FY 2006         FY 2007         FY 2008       FY 2009      FY 2010
2010. Active tobacco permit holders have           Firearms       674             724             784           855          1,012
                                                   Tobacco        980             931             883           886          835
fallen by 15 percent in 5 years.
                                                   Alcohol       40,480          42,483          45,018        47,818       50,823




                                                  23
                                   TTB 2010 Annual Report


   During FY 2010, TTB partnered with other law enforcement agencies to conduct criminal
    investigations. TTB carried out 43 joint investigations with various Federal, State, and local
    law enforcement agencies, resulting in the seizure of more than 3,000 cases of alcohol
    beverage products and nearly 1 million cartons of cigarettes. TTB closed 36 investigations
    involving diversion of products having an estimated tax liability of more than $30.3 million.
    As a result of these activities, TTB assessed or collected roughly $1.9 million in taxes owed.
    TTB also is involved in multiple ongoing criminal investigations of illegal activity in the
    industries TTB regulates, and has incorporated into its audit plan selected target audits of
    industry segments and specific industry members that are at high risk for the diversion of
    taxable alcohol and tobacco commodities. These include alcohol and tobacco importers and
    export warehouse proprietors, and other entities referred from the TTB Intelligence Division
    based on suspected illegal activity.

   TTB collaborated with several Federal agencies, international organizations, and other
    stakeholders in ensuring that the revenue due on imported alcohol and tobacco products is
    collected. Through its partnership with U.S. Customs and Border Protection (CBP), and by
    effectively leveraging data available to TTB from CBP’s International Trade Data System, TTB
    identified 190 entities (15 percent of those who imported cigarettes or other tobacco
    products in FY 2010) as having imported tobacco products without a Federal permit. TTB
    notified each entity to cease their illegal operations, and all have stopped importing or
    obtained a permit to import tobacco products. CBP is the Federal agency responsible for
    collecting taxes and duties due on imported products. The tax value of these imports as
    declared to CBP is $500,000.

   TTB participated with CBP and Immigration and Customs Enforcement on the Fraud
    Investigative Strike Team (FIST). The FIST initiative addresses smuggling and fraud activity
    along United States’ borders. The purpose is to determine compliance with laws and
    regulations at Foreign Trade Zones and Customs bonded warehouses and, where violations
    are found, to investigate and prosecute illegal operators. TTB field personnel participated in
    FIST operations in six U.S. cities with ports or international borders. Through these efforts,
    TTB identified regulated industry members for comprehensive audits and identified more
    than $250,000 of additional excise tax liability based on these examinations.




                                                24
                                                      TTB 2010 Annual Report


Protect the Public

TTB met all of its performance measures under the Protect the Public activity. A detailed
summary of TTB performance is discussed in Part II of this report, Program Performance Results.

Investments in the Protect the Public mission resulted in several achievements during FY 2010:

    TTB approved 102,500 (77 percent) of the 132,600 COLA applications received; the remaining
     30,100 (23 percent) were either rejected, returned for correction, withdrawn, expired, or
     surrendered. The number of COLA applications received increased by 6 percent from 2009.
     Of those label applications, 79 percent were submitted through COLAs Online, the Bureau’s
     system for the electronic filing of label applications. TTB was successful in increasing the rate
     of e-filing by 5 percent over the previous fiscal year, which corresponds to a 15 percent
     increase in the number of e-filed applications. The increase in online applications is due in
     large part to outreach efforts by TTB through educational workshops, improvements to
     online information, and one-on-one demonstrations to large paper filers.




                Certificate of Label Approval Applications                          Between fiscal years 2006 and 2010, the
    160,000
                                                                                    number of alcohol beverage label
    140,000
    120,000                                                               27,246
                                                                                    applications submitted to TTB increased
                                              50,404       32,963
    100,000                     61,315
                                                                                    nearly 17 percent. After a decline in total
     80,000       71,007                                                            COLA applications in FY 2009, the number
     60,000
                                              83,024       92,003
                                                                      105,349       of Certificate of Label Approval (COLA)
     40,000
                                63,810
     20,000       42,759                                                            applications submitted by the alcohol
          0                                                                         beverage industry and processed by TTB
                  FY 2006      FY 2007       FY 2008       FY 2009        FY 2010
                                                                                    returned to FY 2008 levels.
                            E-filed COLAs     Paper Filed COLAs




              Rate of Electronic Label Application Filing                           Through TTB-sponsored seminars and
                                                                                    targeted education efforts, the Bureau was
    90%                                                                    79%
    80%                                                     74%                     successful in increasing usage rates for the
    70%         62%                          62%
                                                                                    electronic label filing system by 5 percent in
    60%                       51%
    50%         38%                          38%
                                                                                    just one year. The promotion and education
    40%                       49%
                                                            26%                     strategy employed over the last seven years
    30%                                                                    21%
    20%                                                                             has resulted in the COLAs Online usage rate
    10%                                                                             increasing from 38 percent in FY 2006 to 79
     0%
               FY 2006      FY 2007         FY 2008       FY 2009     FY 2010
                                                                                    percent in FY 2010.

                            E-filed COLAs        Paper Filed COLAs




                                                                     25
                                              TTB 2010 Annual Report


   TTB issues original and amended permits to persons who are engaged in the alcohol and
    tobacco industries. TTB processed approximately 5,770 original and 18,230 amended
    permits, or approximately 4 percent and 3 percent more than in FY 2009, respectively. TTB
    also issued nearly 7,000 pieces of correspondence related to permit issues, an increase of 20
    percent over FY 2009. In FY 2010, TTB processed original applications in an average of 65
    days, which resulted in the issuance of nearly 4,870 original permits to qualified applicants.

   As illicit activity in the alcohol and tobacco industries has the potential to be highly lucrative,
    it is crucial that TTB prevent organized crime and terrorists from commencing operations
    through its permit investigation process. In support of this objective, TTB initiated
    approximately 360 permit investigations to verify that applicants were qualified and not
    prohibited from engaging in business activity in the alcohol and tobacco industries, and that
    those operating in these industries were properly permitted and operating in compliance
    with Federal regulations. As a result of TTB’s application investigations, 11 applications were
    withdrawn or abandoned by the applicant and 7 were recommended by investigators for
    denial. Of the total permit investigations, TTB conducted nearly 100 investigations into
    businesses suspected of operating without a permit, and 60 investigations into recently
    permitted entities as part of its post-application verification program. The post-application
    investigations involve the random selection of permit applications that were approved in the
    previous year for an in-depth review of the permittee’s activities to determine if the
    information supplied on their application was accurate and if they are conducting compliant
    operations. In total, TTB permit and revenue investigations resulted in the voluntary
    surrender of 30 permits and the surrender of 19 permits in-lieu of adverse action.

   In FY 2010, TTB investigators closed more than 310 field investigations into the integrity of
    alcohol beverage products, and continue work on 160 in-progress investigations. Total
    product integrity investigations opened by TTB declined slightly compared to FY 2009, and
    reflects the revision TTB made to its investigation operating plan in FY 2010. The plan
    directed investigator time and resources to more complex and long-term investigations to
    increase program effectiveness. This model required that TTB reduce its caseload to enable
    more in depth reviews of civil violations to determine if criminal conduct is involved. Further,
    the flexibility built in to the new operating plan enabled TTB to redirect resources to address
    a scandal involving the fraudulent labeling of wine imported as Pinot Noir from France. TTB’s
    work has prevented nearly 2 million bottles of mislabeled Pinot Noir wine from reaching U.S.
    consumers in the marketplace.

                  Original Permits Issued by TTB                    In five years, the total number of original
      100%                                                          permits and registrations approved by TTB has
       98%                                                          grown 13 percent. Between fiscal years 2009
       96%                                                          and 2010, the total number of original permits
       94%
                                                                    issued increased by 4 percent. Firearms
       92%
                                                                    registrations approved by TTB increased 24
       90%
                                                                    percent over the prior year, and the number of
       88%
                FY 2006   FY 2007   FY 2008     FY 2009   FY 2010   tobacco permits issued increased 51 percent. In
     Firearms     29        23        37          33        41      the last three fiscal years, the number of
     Tobacco     216       248       185         197      26
                                                           297
    Alcohol
                                                                    tobacco permits issued has trended up.
                4,058     4,308     4,381        4,442    4,529
                                    TTB 2010 Annual Report


   As part of its active program to ensure the safety of alcohol beverages, TTB evaluates alcohol
    beverages for a number of potentially harmful adulterants or contaminants, including heavy
    metals and pesticide residues. In FY 2010, TTB developed a pesticide residue program that
    involves sampling wine in the marketplace for analytical testing to determine the presence of
    unauthorized pesticides and to ensure that authorized pesticides that are present are within
    the limits prescribed by the Food and Drug Administration and Environmental Protection
    Agency. In FY 2010, TTB issued guidance to domestic producers and to importers via an
    industry circular which clarifies how the Bureau will respond to findings of pesticides in wine.
   In FY 2010, the TTB laboratories analyzed more than 1,000 product samples for product
    integrity, tax compliance, and the Alcohol Beverage Sampling Program. Of these products,
    326 (32 percent) were non-compliant with Federal standards. TTB also responded to 23
    consumer complaints related to alcohol beverages. After collecting samples and testing the
    suspect products, TTB found that none posed serious health risks to consumers.
   In assuring the integrity of alcohol beverage products offered for sale to U.S. consumers, TTB
    analyzed and reviewed for compliance 415 alcohol beverage samples as part of the Alcohol
    Beverage Sampling Program (ABSP). The ABSP uses statistically valid sampling of products in
    the marketplace to validate that they are properly labeled to protect consumers. This
    program enables TTB to be proactive rather than reactive to potential labeling issues or
    threats to the food supply. In FY 2010, the ABSP focused on wine, and preliminary data
    indicates that, given a 95 percent confidence level, the wine industry is 96 percent compliant
    (± 3 percent) with Federal production and labeling requirements. The ABSP results are
    incorporated into the TTB risk model to direct enforcement resources, and findings of non-
    compliance are addressed. In FY 2011, TTB will expand its ABSP to include all three alcohol
    beverage commodity types, and will add a field investigation component to verify alcohol
    beverage label claims, such as grape varietal and vintage.
   TTB’s Trade Facilitation program helps to strengthen the U.S. economy by facilitating import
    and export trade in alcohol and tobacco products, while administering the consumer
    protection standards under its jurisdiction. TTB has made progress on international
    agreements with multiple counterpart agencies in China, Italy, the Republic of Georgia, and
    France. These agreements are designed to facilitate trade by increasing mutual
    understanding of each country's alcohol and tobacco production requirements and labeling
    and licensing standards, and provide a process for the exchange of regulatory information
    that has the potential to enhance protection of the revenue or impact product trade,
    compliance, and safety. TTB also provides technical support to Federal agencies, including
    the Office of the United States Trade Representative (USTR), in their development of
    international agreements that promote U.S. exports. TTB is joining the USTR in a project to
    establish an Asia-Pacific Economic Cooperation (APEC) Wine Regulatory Forum (WRF). APEC
    is the premier forum for facilitating economic growth, cooperation, trade, and investment in
    the Asia-Pacific region, and member countries are emerging export markets for the U.S. wine
    industry. The WRF would be a forum to support open and free trade and eliminate technical
    barriers to trade.

                                                27
                                                      TTB 2010 Annual Report


                                                                                                                                 Alcohol and Tobacco Excise Tax Collections

Financial Summary
                                                                                                                          $17,000




                                                                                              Collections (in Millions)
                                                                                                                          $15,000


Federal Excise Tax Collections                                                                                            $13,000

                                                                                                                          $11,000
                                                                                                                                                                                  Alcohol
TTB collects excise taxes from the alcohol, tobacco,                                                                       $9,000                                                 Tobacco

firearms, and ammunition industries. In addition, the                                                                      $7,000

                                                                                                                           $5,000
Bureau collects Special Occupational Tax (SOT) from
certain tobacco businesses. During FY 2010, TTB
collected $23.8 billion in taxes, interest, and other
revenues.
                                                                                                                          Firearms and Ammunition Excise Tax Collections
Substantially all of the taxes collected by TTB are                                                                       $500
                                                                                                                          $450




                                                                                  Collections (in Millions)
remitted to the Department of the Treasury General                                                                        $400
                                                                                                                          $350
Fund. The firearms and ammunition excise taxes are an                                                                     $300
                                                                                                                          $250
exception. This revenue is remitted to the Fish and                                                                       $200
                                                                                                                          $150
Wildlife Restoration Fund under provisions of the                                                                         $100
                                                                                                                           $50
Pittman-Robertson Act of 1937. The U.S. Fish and                                                                                  2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
Wildlife Service, which oversees the fund, apportions the                                                                                               FAET
money to State governments for wildlife restoration and
research, and hunter education programs.                                              TTB’s tax collections for domestic alcohol
In February 2009, Congress passed the Children’s Health                               beverages have shown a relatively stable rising
                                                                                      trend for several years. The tax for imported
Insurance Program Reauthorization Act. This law
                                                                                      alcohol beverages is collected by U.S. Customs and
imposed significantly increased tax rates on tobacco                                  Border Protection.
products, swept into the statutory regime requirements
for permits and taxes for products which had not                                      After trending downward for five consecutive
previously been taxed or regulated, and levied a floor                                years, tobacco tax revenues in FY 2010 were at
                                                                                      132 percent of pre-CHIPRA totals. Effective tax
stocks tax (FST) on all tobacco products held for sale as
                                                                                      administration resulted in total TTB collections
of April 1, 2009. TTB identified $10.2 million in underpaid                           increasing by 16 percent.
FST in FY 2010 and, to date, has collected $1.3 billion of
FST. Further, TTB collected an additional nearly $16                                  Since TTB assumed the responsibility for
                                                                                      administering the FAET in 2003, collections have
billion in tobacco excise taxes in FY 2010.
                                                                                      increased 87 percent. After reaching a high in FY
FY 2010 Excise Tax Collections:                                                       2009, revenue collections trended down in FY
                                                                                      2010; however, FAET collections remain 15 percent
Alcohol ............................................ $7,476,789,000                   above FY 2008.
Tobacco ........................................ $15,913,479,000
FAET ................................................... $360,813,000

SOT ........................................................... $300,000
                                                                                Note: On July 2, 2005, legislation was enacted that
FST ........................................................ $8,558,000
                                                                                suspended SOT for most alcohol taxpayers, mainly retail
Other ........................................................ $180,000
                                                                                distributors. The law repealed SOT for all alcohol
                                                                                taxpayers effective July 1, 2008. However, the SOT
TOTAL ........................................ .$23,760,119,000
                                                                                relating to tobacco permittees (manufacturers,
                                                                                importers, and export warehouses) remained intact.



                                                                           28
                                   TTB 2010 Annual Report


Refunds and Other Payments
During FY 2010, TTB issued $713,200,000 in refunds, cover-over payments, and drawback
payments.

Cover-over Payments
Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on certain
articles produced in Puerto Rico and the Virgin Islands, and imported into the United States. In
accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the U.S. are “covered
over,” or paid into, the treasuries of Puerto Rico and the Virgin Islands, less the collection
expenses incurred by TTB. During FY 2010, cover-over payments totaled $387 million.

Drawback Payments
Under current law, 26 U.S.C. 5134, Manufacturers of Nonbeverage Products (MNBPs) may be
eligible to claim a refund of tax paid on distilled spirits used in their products.

During FY 2010, drawback payments totaled $298 million. In the case of distilled spirits on which
the tax has been paid or determined, a drawback is allowed on each proof gallon at the rate of $1
less than the rate at which the distilled spirits tax had been paid or determined. The refund is
due upon the claimant providing evidence that the distilled spirits on which the tax has been paid
or determined is unfit for beverage purposes, or was used in the manufacture of medicines,
medicinal preparations, food products, flavors, flavoring extracts, or perfume. The claimant must
submit a product formula to the TTB laboratory for analysis and approval of the nonbeverage
claim.


Alcohol and Tobacco Excise Tax Refunds                                             $28,232,000

Cover-over Payments—
                                                                                  $378,186,000
Puerto Rico

Cover-over Payments—
                                                                                    $8,871,000
Virgin Islands

Drawbacks on MNBP Claims                                                          $297,596,000

Interest and Other
                                                                                      $315,000
 Payments

Total                                                                             $713,200,000




                                               29
                                                         TTB 2010 Annual Report  




  FY 2010 Bureau Budget  
  Direct Appropriations (Salaries & Expense Account) 
  The FY 2010 TTB budget for salaries and expenses was $103,000,000.  Of that amount, 
  $3,000,000 was set aside by Congress for the hiring, training, and equipping of special agents.  
  The funds to support the agents in addressing alcohol and tobacco diversion activity is to remain 
  available until September 30, 2011.  The authorized full‐time equivalent (FTE) staffing level for 
  direct positions was 535, and includes 10 FTE for the agents.  TTB elected not to hire the agents 
  directly, but to enter into an interagency agreement with the Internal Revenue Service Criminal 
  Investigation office to conduct criminal investigatations into violations of the tax laws TTB 
  enforces.   

  Offsetting Collections and Reimbursable Accounts 
  During FY 2010, the Bureau realized offsetting collections in the amount of $4.2 million.  Those 
  funds originated from multiple sources including recoveries from the operation of the cover over 
  program and other enforcement activities in Puerto Rico, and funding from the Department of 
  the Treasury’s Executive Office of Asset Forfeiture to cover critical investments in the TTB 
  Tobacco Laboratory and diversion training for TTB auditors and investigators.  They also included 
  funding from the Community Development Financial Institutions Fund (CDFI) for reimbursment 
  of information technology support services.  

  Obligations and Expenditures 
              FY 2010 Collect the Revenue                                             FY 2009 Collect the Revnue
                  By Major Programs                                                       By Major Programs
                                                        FAET Program               
                                                             4%
                                                                                             Alcohol &               FAET Program

                     Alcohol &                                 Outreach & 
                                                                                             Tobacco
                                                                                             Program
                                                                                                                          7%

                      Tobacco                                   Voluntary                       88%
                     Program                                   Compliance 
                        90%                                     Program                                              Outreach &
                                                                   6%                                                 Voluntary
                                                                                                                     Compliance
                                                                                                                      Program
                                                                                                                         5%




                                                                                   
               FY 2010 Protect the Public                                               FY 2009 Protect the Public
                  By Major Programs                                                         By Major Programs
                                                     Trade 
                                                   Facilitation 
                                                    Program                                   Permits &                Trade
                                                        7%                                     Business              Facilitation
                     Permits &                                                                Assurance               Program
                      Business                               Outreach & 
                                                                                               Program                   7%
                     Assurance                                Voluntary                          41%
                                                             Compliance 
                      Program
                        34%                                   Program
                                                                 10%                                                 Outreach &
                                                                                                 Advertising,         Voluntary
                                   Advertising,                                                   Labeling &         Compliance
                                    Labeling &                                                  Product Safety        Program
                                  Product Safety                                                   Program               6%
                                                                                                     46%
                                       49%


                                                                             30
                                                      
The expenditures by TTB major programs remained relatively constant between FY 2009 and FY 2010. 
                                    TTB 2010 Annual Report


Audit of TTB’s FY 2010 Financial Statements
The Department of the Treasury is one of 23 Federal agencies that are required by law to
produce annual audited financial statements. TTB’s financial activities are an integral part of the
information reported on by the Treasury Department.

TTB’s Annual Report includes audited FY 2010 and FY 2009 balance sheets, and audited FY 2010
statements of net cost, changes in net position, budgetary resources, and custodial activity,
including reports on the Bureau’s internal controls over financial reporting and compliance with
laws and regulations.

Management Assurances
Except for the noted weakness related to expensing of capital assets and prepaid expense, TTB
provides reasonable assurance that the objectives of the Federal Managers’ Financial Integrity
Act have been achieved, and the Bureau’s financial management systems are in substantial
compliance with the Federal Financial Management Improvement Act. This overall
determination is based on past and current practices, an improved controls environment,
scrutiny by external audit sources, internal evaluations, and administrative and fiscal accounting
system enhancements.

During FY 2010, TTB applied its custom risk management tools to its Revenue Accounting Section
to identify risks in the accounting and tracking of TTB’s annual Federal excise tax collections, and
to the National Revenue Center, with a focus on its key business processes. Those tools disclosed
that TTB has adequate internal controls in place to mitigate risk to operations, and that the
overall risk of fraud, waste, and abuse is characterized as “LOW.”

In addition, TTB underwent its first independent full scope financial statement audit for FY 2010,
and received an unqualified opinion. As a result of this audit, a material weakness in
internal controls was identified and reported on the expensing of capital assets and prepaid
expenses. Weaknesses identified during the FY 2009 audit, related to the valuation of fixed
assets and estimates for accrued liabilities and allowances for doubtful accounts, were corrected
during the year.


Bureau Challenges
TTB is implementing improvements designed to address the deficiency identified from the audit
regarding the expensing of capital assets and prepaid expenses. To address that matter, TTB is
developing a technical reference guide for staff to help determine: 1) what property items
should be considered for capitalization, 2) what costs related to the purchase and installation of
the property should be capitalized, and 3) how the costs should be coded in the procurement and
accounting systems. The guide and internal training should be completed during the first quarter
of FY 2011. TTB is confident that this change will strengthen controls on this activity.



                                                31
                                     TTB 2010 Annual Report



Part II
Program Performance Results

Performance Overview

TTB revised its suite of measures in FY 2008 to better reflect operating conditions within the
industry and method improvements established by TTB program offices. TTB now reports its
performance in terms of six metrics that represent its ability to supply satisfactory service to its
customers in the industry, foster compliance from taxpayers, employ technology to meet its
public protection mission, and return value to the Nation for its investment in TTB programs.

TTB exceeded the performance targets for all six measures reported to its stakeholders in FY
2010. Based on external factors and the results achieved this fiscal year, TTB reviewed its FY
2011 performance targets and updated those in which TTB significantly exceeded its intended
performance. To meet its performance goals in FY 2011, TTB will implement an aggressive
strategic agenda that integrates new technology, human capital management techniques, and
targeted efforts in both outreach and enforcement. All performance results are subject to
management review and periodic audit by the Department of the Treasury.

                            FY 2010 Performance Measure Status
Performance Targets Met                                                            6
Performance Targets Not Met                                                        0
Baseline                                                                           0
Total Performance Measures                                                         6


                         Performance Measure Trends - FY 2006 - FY 2010

                                             100%              100%       100%
                89%            89%




                      11%            11%


                  2006           2007             2008           2009       2010

                                            Met      Not Met




                                                   32
                                     TTB 2010 Annual Report


Summary of Collect the Revenue Performance

Table 1.1

                                  FY 07     FY 08         FY 09             FY 10       FY 11    FY 10      % of
Performance Measure                                                                              Target    Target
                                  Actual   Actual        Actual      Target    Actual   Target   Met?     Reached

Amount of revenue collected
                                    –       $313          $427       $400       $478    $410       Y       120%
per program dollar

Percentage of voluntary
compliance from large
taxpayers in filing timely tax      –       94%           94%         92%       94%      94%       Y       102%
payments (in terms of
revenue)
Percentage of total tax
receipts collected                 98%     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
electronically

Percentage of voluntary
compliance in filing timely and
                                   86%     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
accurate tax payments in
terms of revenue

Percentage of voluntary
compliance in filing timely and
accurate tax payments in           75%     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
terms of the number of
compliant industry members

Unit cost to process an excise
                                   $61     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
tax return

Resources as a percentage of
                                  .31%     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
revenue

Cumulative percentage of
excise tax revenue audited         16%     Discont’d     Discont’d       Discont’d       N/A      N/A      N/A
over three years



Performance Discussion
TTB displayed effective performance in both its measure of how efficiently the Bureau conducts
its tax collection activities and in its measure of the extent of voluntary compliance among
taxpayers with significant annual tax liabilities.

                                                    33
                                   TTB 2010 Annual Report


The Bureau surpassed by a considerable margin its targeted performance level for the measure:
“Amount of revenue collected per program dollar.” In just two years, the return on investment
for the TTB revenue collection program has increased by more than 50 percent, from $313 in FY
2008 to $478 in FY 2010. The increased rate of return is principally due to the increased Federal
excise tax rate imposed on tobacco products by the Children’s Health Insurance Program
Reauthorization Act (CHIPRA), enacted in February 2009. Tobacco excise tax collections nearly
doubled between FY 2008 and FY 2009 and, in the first full year of collections under the new tax
rate, tobacco revenues are up nearly 40 percent compared to the prior year.
TTB also implemented an aggressive annual audit plan, driven by a risk model refined annually
according to data received from audits and investigations, statistical analysis, and intelligence
received from internal and external sources. In enforcing the floor stocks tax (FST) levied by
CHIPRA on all tobacco products held for sale by manufacturers, importers, wholesalers, and
retailers as of April 1, 2009, TTB combined technology, outreach to Federal and State agency
stakeholders, and sophisticated targeting techniques to develop an audit plan consisting of those
entities that had likely not filed or under-filed FST payments. This field work resulted in
additional FST collections of approximately $7.2 million, bringing total FST collections to date to
$1.3 billion.
Firearms and ammunition excise tax (FAET) collections have also grown significantly in recent
years. Since TTB assumed responsibility for administering the FAET tax program in 2003,
collections have increased 87 percent. Consumer spending patterns contributed to a spike in
FAET revenues in FY 2009, followed by a decline in collections of approximately 20 percent in FY
2010; however, FAET collections remain 15 percent above FY 2008 levels due to the enforcement
efforts of TTB tax specialists and auditors. The FY 2011 targeted performance level for this
measure reflects the estimated revenue impact of CHIPRA, as reported in January 2009 by the
Joint Committee on Taxation. The committee report projected a downward trend in tobacco
revenue collections after FY 2010.
In line with the Department of the Treasury’s high priority performance goal, TTB continued its
efforts to promote voluntary tax compliance among industry members through various education
and outreach strategies. Despite the prolonged economic downturn, TTB believes its outreach
efforts were successful in maintaining the voluntary compliance rate of 94 percent achieved in
fiscal years 2008 and 2009. In FY 2010, TTB conducted several Federal compliance seminars in
various cities across the United States to provide instruction on tax and reporting requirements,
as well as other statutory requirements related to the labeling and production of alcohol
beverages.
The Bureau also fosters voluntary compliance through its electronic filing options and, in FY 2010,
TTB continued its work to expand the electronic tax and operational report filing system, Pay.gov,
to include all excise taxpayers. More than 6,400 TTB taxpayers are registered to use Pay.gov to
pay excise taxes and to file excise tax returns and monthly operational reports. TTB increased the
number of registered Pay.gov users by 30 percent over FY 2009.



                                                34
                                     TTB 2010 Annual Report


Moving Forward
In the first full year of collections under the new tobacco tax rates imposed by CHIPRA, TTB
collection efforts resulted in year-to-year revenue increase of 15 percent. Targeted enforcement
of high-risk taxpayers resulted in the collection of nearly $16 billion in tobacco revenue alone. In
effectively administering its tax jurisdiction, TTB collected $2 billion more in tobacco excise taxes
than projected by the Joint Committee on Taxation in its revenue impact report issued prior to
the passage of CHIPRA in February 2009. Going forward, revenue collection activities will focus
both on legitimate industry members, and those operating outside of legal distribution chains.
TTB will continue to include in its audit plan a mix of comprehensive audits, limited scope audits,
and examinations in order to maximize TTB’s audit resources and provide broad industry
coverage. TTB also plans to address revenue risk areas in FY 2011 through enhanced risk
modeling and audit programs developed for specific industry member types determined to be at
high risk for non-payment or underpayment of taxes.
To assure compliance in the importer community that TTB regulates, TTB will continue to
participate in joint Federal agency initiatives designed to trace alcohol and tobacco product
through the Customs bonded warehouse system to ensure alcohol and tobacco products moving
into domestic commerce are properly taxpaid and meet packaging and marking requirements.
TTB also is involved in multiple ongoing criminal investigations of illegal activity in the industries
TTB regulates. Using an integrated enforcement approach, auditors will follow up on referrals
provided by the TTB Intelligence Division to address suspected illegal activity. TTB auditors and
investigators also will support TTB agents, contracted from the Internal Revenue Service Criminal
Investigation unit, in effectuating TTB's criminal enforcement operations by providing leads and
forensic auditing support for criminal cases.
In FY 2011, TTB will continue to employ both enforcement and education strategies to obtain tax
compliance from TTB permittees. Sustaining or increasing the rate of compliance achieved will
depend, in part, on continued efforts to promote industry member use of the online tax return
and payment filing system, Pay.gov. Efforts to maintain voluntary industry compliance also will
focus on educating industry of Federal requirements related to operating in the alcohol, tobacco,
and firearms industries, both on premises through guidance provided by TTB auditors and
investigators and through Web-based industry seminars. Going forward, online seminars will
enable TTB staff to reach broad groups of users and provide advanced instruction on the report-
ing and payment of excise taxes and other regulatory requirements.
TTB also will further enhance its tax verification program, building on the Error Tracking Database
(ETD) developed in FY 2010 to identify late filers, non-filers, and errant filings of operational
reports. The ETD identifies more than 40 different types of errors on industry operational
reports, and generates compliance letters to notify industry of the compliance issues. In FY 2011,
the ETD will be expanded to include operational reports for all TTB-regulated commodity types.
TTB also intends to create a module in the ETD to address missing and late excise tax returns.




                                                  35
                                              TTB 2010 Annual Report




 Summary of Protect the Public Performance
 Table 1.2
                                            FY 07       FY 08        FY 10             FY 10        FY 11      FY 09        % of
 Performance Measure                                                                                           Target      Target
                                            Actual      Actual      Actual      Target    Actual    Target     Met?       Reached

 Percent of electronically filed
 Certificate of Label Approval               51%         62%         74%         78%       79%       81%          Y            101%
 (COLA) applications

 National Revenue Center (NRC)
                                               –         90%         89%         85%       89%       85%          Y            105%
 customer service survey results

 Average number of days to
 process an original permit                    –          64           64         72           65     70          Y            110%
 application at the NRC

 Percentage of importers
 identified by TTB as illegally
                                               –        22%*         15%         19%       15%       15%          Y            121%
 operating without a Federal
 permit

 Percentage of instances where
 the utilization of International
 Trade Data System (ITDS) results
                                               –        15%**       Discont’d       Discont’d        N/A         N/A           N/A
 in identifying importers without
 permits as a percentage of total
 permits on file at TTB's NRC

 Percentage of COLA applications
 processed within nine calendar              42%       Discont’d    Discont’d       Discont’d        N/A         N/A           N/A
 days of receipt

 Percentage of permit
 applications (original and
                                             85%       Discont’d    Discont’d       Discont’d        N/A         N/A           N/A
 amended) processed by the NRC
 within 60 days

 Unit cost to process a Wine
                                             $34       Discont’d    Discont’d       Discont’d        N/A         N/A           N/A
 COLA

*    TTB revised this measure in September 2008, after the Treasury performance reporting cycle closed, but prior to fiscal
     year end. The result of 22 percent, reported by the Bureau in the FY 2008 TTB Performance and Accountability Report,
     was calculated using the new method and historic data for FY 2008 retrieved from ITDS.
**   To align with the Department’s annual report, TTB is presenting the original measure and the FY 2008 result as reported
     in the FY 2008 Treasury Performance and Accountability Report, which was achieved using the initial calculation
     methodology, and marking it discontinued.


                                                               36
                                    TTB 2010 Annual Report


Performance Discussion

TTB indicates its level of success in meeting its consumer protection mission through four
measures of program performance. All of the Bureau’s Protect the Public performance targets
were exceeded in FY 2010.

The TTB National Revenue Center (NRC) conducted a customer survey to measure satisfaction
with processing times and the level of service provided to the industry. The survey solicits
feedback on how well TTB specialists assist applicants in filing for an original or amended permit
and in how TTB serves industry members who file claims to recover taxes paid on nonbeverage
alcohol or overpayments of tax. Based on responses captured by the NRC through telephone
interviews, TTB earned a composite score of 89 percent for permits and claims processing. This
result maintained customer satisfaction rates achieved in FY 2009, and remained 4 percent above
the Bureau’s goal of maintaining a satisfaction score of at least 85 percent.

Achieving high rates of efficiency and effectiveness in processing permit applications is critically
important to both protecting the public and in facilitating market entry for new applicants to the
regulated industries. TTB was able to acheive a 65-day turnaround time despite a 4 percent
increase in the number of processed original permits through the effective use of management
reporting tools to monitor work assignments and the implementation of a Balanced Scorecard
initiative, which uses this integrated strategic planning and performance management system to
tie employee performance to mission success. TTB exceeded its targeted turnaround time of 72
days for an original permit application by 10 percent.

Efficiency in permit processing is critical to the Department’s goal of improved economic
opportunity. Improving turnaround time for permit application processing enables alcohol and
tobacco permit and registration holders to begin operating businesses sooner, facilitating U.S.
economic growth. Effective issuance of permits means that unqualified applicants are prevented
from obtaining a permit, a critical barrier to entry for those who seek to conduct illegal
operations. Illicit activity in these industries has the potential to be highly lucrative, and
proceeds from trade in non-taxpaid alcohol and tobacco have been connected to organized crime
and terrorist activities. TTB works in partnership with domestic and international regulatory and
law enforcement agencies to address the illicit market and to ensure that those operating in the
regulated industries are qualified to operate.

To this end, TTB used the U.S. Customs and Border Protection’s International Trade Data System
(ITDS) to identify persons importing alcohol and tobacco without a Federal permit. Intelligence
specialists compared permit data in TTB’s tax system to the active importers in ITDS to determine
who brought product into the United States without a Federal permit. In FY 2010, TTB issued 190
cease and desist letters to entities illegally importing tobacco products. By issuing cease and
desist letters to entities operating without a permit, TTB has been successful in ensuring that
these individuals either complied with TTB permit requirements, or their operations were
stopped. Of the tobacco importers examined by TTB, 15 percent were found to be operating

                                                 37
                                    TTB 2010 Annual Report


without a permit, 4 percent lower than the Bureau’s projection of 19 percent. TTB established
this metric to serve as a starting point to gauge the threat to public safety and Federal revenue
posed by illicit imports. TTB is reviewing additional methods to verify its effectiveness in the area
of importer compliance.

TTB also was successful in increasing the rate of electronically filed alcohol beverage label
applications. Usage rates for the COLAs Online label filing system have increased 76 percent in 7
years, from a starting point of 3 percent at the end of FY 2003 to 79 percent in FY 2010. Since the
end of FY 2009, electronic filing rates increased 5 percent. These increases in online applications
are due in large part to outreach efforts by TTB through educational workshops, one-on-one
demonstrations to large paper filers, and system enhancements to improve the user experience.
Based on the growing interest in and familiarity with the COLAs Online system, TTB established
an aggressive FY 2011 target of 81 percent for electronic label applications. Reaching this
milestone should result in improved processing times for industry as the Bureau becomes more
efficient in processing label applications. Electronic applications streamline the review process,
as those that must be returned for correction may be resubmitted by the industry member
without the assignment of a new TTB identification number. Paper applications that require
correction must be rejected by TTB, and resubmitted by the industry member under a new
identification number.

Moving Forward

TTB will continue working to improve processing times through the automation of its paper-
based application processes and to encourage use of online filing systems already in place. Usage
rates for its electronic filing system for alcohol beverage label applications have continuously
increased due to outreach efforts and in response to faster turnaround times for e-applications
versus paper applications. In FY 2011, TTB will continue to inform industry members of the
benefits of e-filing, and will continue to provide system demonstrations and publish online
guidance to the user community. The introduction of Formulas Online, the new e-filing system
that enables the online submission of alcohol beverage formulas, will also support increased user
rates for COLAs Online. The integration of Formulas Online with the existing COLAs Online system
will streamline the process of obtaining both formula and label approval for those in the alcohol
beverage trade.
Even during the economic contraction, applications to open new businesses in the alcohol and
tobacco industries continued a steady rising trend. Original permit applications have grown 18
percent over the last five years, and 4 percent in the last fiscal year alone. To address growing
workloads, TTB purchased a commercial product to enable the electronic submission and
processing of original and amended permit applications. In FY 2011, TTB will begin its phased
release of the new Permits Online system. The first phase will enable electronic filing for the
three highest volume permit areas. With industry support and adoption of Permits Online, and
following the release of the next phase of the system in FY 2012, TTB expects to significantly
reduce processing times for both original and amended permit applications. Further efficiencies

                                                 38
                                   TTB 2010 Annual Report


will be gained through a new triaging procedure for incomplete paper applications for an original
permit, and by updating the telephonic interview process for applicants according to a revised
risk model. With the phased rollout of Permits Online scheduled during fiscal years 2011 and
2012, TTB anticipates increased customer satisfaction, as applicants experience faster response
times and the ease of using the electronic filing system. Additionally, to streamline the permit
application process, TTB created a task force to analyze and improve TTB bond forms and
instructions, as well as internal business processes, to improve service to industry.
In its monitoring of the U.S. Customs and Border Protection's ITDS to assure tobacco importers
are properly permitted, TTB has been able to bring entities illegally importing cigarettes and
other tobacco products into compliance with Federal permit requirements or has ensured that
operations were stopped. In FY 2011, TTB will continue to monitor imports of tobacco products
by non-permitted entities, placing special emphasis on enforcing the Prevent All Cigarette
Trafficking Act (S. 1147), legislation enacted in April 2010 to prevent tobacco smuggling and
ensure the proper payment of all tobacco taxes. The method most commonly used to import
tobacco products without a permit and without payment of the appropriate taxes is Internet and
mail-order purchases. The PACT Act prohibits shipments of tobacco products via the U.S. Postal
Service (USPS). In FY 2011, TTB will coordinate with the USPS and other common carriers to
provide enforcement assistance. These efforts, in addition to current methods used to identify
entities illegally importing tobacco products, will help reduce the number of entities
circumventing Federal permit and tax requirements. Furthermore, under CHIPRA, all importers of
processed tobacco are required to obtain an importers permit from TTB. In the year ahead, TTB
will assess the number of legitimate importers of processed tobacco and ensure they apply for
and obtain a permit, or cease importations.


Summary of Management and Organizational Excellence Performance

In order to effectuate the Bureau’s revenue collection and public protection mission, TTB must
create the conditions necessary for programs to reach and sustain excellence. In all aspects of
performing its mission, TTB aims to ensure that its programs operate efficiently and effectively,
and with full accountability. TTB accomplishes this by ensuring that program offices receive the
high-quality management and administrative support needed to achieve the Bureau’s goals.

The Bureau’s objectives in the area of Management and Organizational Excellence align with the
Administration’s emphasis on automating processes to improve services and enhancing internal
operations to be more efficient and effective. In FY 2010, the Bureau demonstrated its ability to
enhance efficiency and reduce costs through its strategic management of human capital, IT
enhancements to improve operations, and rigorous financial management practices.

Human Capital Management

TTB continues to implement the strategic goals, strategies, and measures of results outlined in
the Human Resources (HR) Division Strategic Plan. As the majority of TTB’s human resource

                                                39
                                  TTB 2010 Annual Report


functions are operated through the Bureau of Public Debt Administrative Resource Center (BPD
ARC), TTB establishes and updates, as appropriate, performance benchmarks and measures to
monitor these outsourced functions. In FY 2011, TTB will undertake the planning process for its
next five-year Human Capital Strategic Plan.
In FY 2010, TTB held three Labor/Management Partnership Council meetings with the National
Treasury Employees Union (NTEU) under the provisions of the Collective Bargaining Agreement.
These meetings have been instrumental in fostering the Bureau’s labor management relations.
In furtherance of improved labor management relations, TTB coordinated with the Federal
Mediation Conciliatory Service to identify, design, and deliver Labor Management Training to
the Labor Management Team.
TTB also conducted impact and implementation bargaining with the NTEU, and revised orders
prior to publication, for a number of significant human resources policies during FY 2010. These
included the TTB orders related to Training Management, Incentive Awards Program, Absence
and Leave, and Alternative Dispute Resolution (ADR). The ADR order allows employees and
managers to participate in a discussion mediated by a neutral party to settle issues in a manner
that will create an acceptable solution for all parties. ADR has been effective in ultimately
preserving working relationships and decreasing the time and cost associated with the EEO
complaint process.
The TTB Office of Equal Employment Opportunity and Diversity Advancement (EEO/DA) held
several focus groups in FY 2010 to identify areas of concern for TTB employees. EEO/DA
developed an action plan to address employees concerns, and briefed TTB leadership on the
findings and suggested corrective actions.
In addition, annual EEO training was developed and delivered to all TTB employees, and training
that addressed specific topics and issues was developed and delivered to several TTB divisions.
TTB also conducted Conflict Resolution training with the employees at the NRC.
In response to the Government-wide survey to obtain employee feedback, TTB developed an FY
2011 Employee Viewpoint Survey (EVS) Action Plan. The EVS (formerly the Federal Human
Capital Survey) is an employee survey that is administered by the Office of Personnel
Management biennially to measure the satisfaction of the Federal workforce.
Based on this survey data, the Partnership for Public Service determines rankings for Federal
agencies. TTB ranked 83th out of 224 sub-component agencies on the FY 2010 Best Places to
Work in the Federal Government rankings, a decline from its 2008 ranking of 7th out of 216.
Though TTB scores trended down in most of the EVS survey categories, the positive response
trend for all but one survey category, My Agency, remained at or above the Government-wide
average. In the EVS category of My Supervisors/Leader, the positive response rate for FY 2010
remained well above the Government average, and trended up.




                                               40
                                  TTB 2010 Annual Report




Through a series of focus group meetings held at the NRC and TTB Headquarters in FY 2010, TTB
spearheaded an effort to solicit feedback from both employees and managers. The purpose of
these sessions was to offer a forum where employees could freely share information, express
concerns, and to offer suggestions on how to improve the work environment for all TTB
employees. The focus group sessions were supported and facilitated by EEO and human
resources personnel.
During FY 2010 and through FY 2011, various TTB program offices were given responsibility for
completing the following representative actions:

      Facilitate cross-training on topics related to specific commodities TTB regulates and
       TTB’s legal authorities;
      Provide a quarterly report to inform employees of important events or issues;
      Draft an order that revises TTB policy regarding Individual Development Plans;
      Establish an employee suggestion box for employees to provide input to TTB leadership;
      Collect and broadcast detail opportunities throughout the Bureau semi-annually; and
      Hold quarterly focus group sessions in FY 2011 at the National Revenue Center (NRC)
       and TTB Headquarters.




                                              41
                                    TTB 2010 Annual Report


Implementing these and other initiatives on the FY 2011 EVS Action Plan will produce increased
communication to employees, ensure a highly talented and well-developed staff, and enhance
employee engagement.
As a knowledge-intensive organization, TTB requires a highly trained workforce to fulfill the
responsibility to protect the public and collect the revenue within a dynamic and global
environment. During FY 2010, TTB used a variety of human capital policies and programs for
recruiting and attracting talent to ensure qualified people with the necessary skills are in the
right positions, and to continue to retain those professionals in the future. Successful strategies
included partnerships with a diverse range of universities across the country, use of the Student
Educational Experience Program, Federal Career Intern Program (FCIP), and the Presidential
Management Fellows (PMF) Program. During FY 2010, TTB was also especially successful with
the use of the Student Volunteer Program, creating partnerships and hosting arrangements for 4
volunteers in two areas of expertise: legal research and knowledge management.
In addition, TTB expanded its use of the PMF Program, with several TTB offices participating in
the annual PMF recruitment and job fair hosted by OPM. As a result, one PMF was hired to
support the regulatory area. Also, during this past year, TTB hired 4 interns through college
recruitment efforts, the use of online classifieds advertising, and the FCIP authority in the
auditor occupation series.
Succession planning is a strategic priority for the Bureau, especially as it relates to TTB’s mission-
critical positions. One in five TTB employees are eligible to retire in FY 2011. To mitigate the
loss of expertise and close skill gaps in mission-critical occupations, TTB continues to use the
personnel interventions identified in the Pay Demonstration Program—a successful pay-for-
performance pilot project established in 1999—to enable the Bureau to improve its capacity to
recruit, develop, and retain high-caliber employees. TTB uses tailored approaches designed and
implemented specifically for the Bureau’s continuing and evolving needs in order to meet
mission requirements and remain competitive for highly skilled talent.
In anticipation of increased diversion cases, TTB developed a new training protocol to build on
its Basic Diversion Training program and prepare its audit and investigative staff with the skills
necessary to support criminal cases. The Advanced Diversion Training course, held in May 2010,
offered real-world examples and hands-on exercises to TTB auditors and investigators, and
culminated with the students presenting their training cases to an Assistant U.S. Attorney. TTB
also sponsored a class in August 2010, which concentrated on forensic auditing and criminal
investigation techniques. Fifty students attended the course, which provided instruction on
tracing funds tied to illicit activity, handling money laundering violations, and presenting cases
to prosecutors.
Also in the area of training and professional development, TTB developed an online course
deployed through the Training Learning Management System (TLMS) on Performance
Management for General Schedule (GS) Employees. This training material was deployed to all
employees and supervisors in August 2010, consistent with TTB’s internal requirement to
provide training on a biennial basis. This training is now set up to be easily administered and

                                                 42
                                   TTB 2010 Annual Report


tracked through TLMS providing a refresher for all applicable supervisors and employees which
can be deployed at any time. In addition, all Pay Demonstration (PD) Program employees and
supervisors received instructional guidance on their responsibilities relative to their pay for
performance management program. This material was provided in August 2010. All training
material for both the GS and PD employees and supervisors was deployed just-in-time for the
end of the performance appraisal cycle and start up of a new performance cycle.
TTB also designed and delivered a Web-based management training course focusing on the
generational differences that exist in today’s workplace. Federal managers are managing
workgroups composed of four distinct generations—the Silent Generation (born between 1920-
1945), the Baby Boomers (born between 1946-1964), Generation Xers (born between 1965-
1980), and the Millennials (born between 1981-2000). Each of these groups bring their own
unique perspectives to the workplace. The Web-based training was designed to highlight these
differences and to emphasize how these differences can be used to obtain the best results.
In FY 2010, TTB continued its Emerging Leader’s Program (ELP), established in FY 2009, and
selected its third class of the ELP. This leadership development initiative offers three unique
certificate programs for non-supervisors, first-level supervisors, and second-level managers at
TTB. The three-year program series supports TTB’s succession planning strategies, and prepares
participants with the competencies critical for higher levels of leadership responsibility. With
the FY 2011 participants, 45 employees are enrolled in the ELP (8 percent of the TTB workforce),
all of whom are up to date on certificate requirements. The program has proven to be
successful, with positive feedback from participants and an increase in applicants for the 2011
program. Participants have formed a community of practice that includes monthly meetings to
discuss leadership principles from current literature and leadership development forums.

Financial Management

TTB established and monitored key performance standards to ensure that its business activities
covering financial accounting and reporting operate in a highly effective and efficient manner.
In FY 2010, TTB, in collaboration with its shared service provider at BPD ARC, achieved all of its
financial management performance metrics.
This joint effort in providing financial management services has allowed the Bureau to meet its
financial goals and deliver quality accounting and budget services to program staff, including:

       Paying vendor invoices on time (Prompt Payment Rate) greater than 98 percent;

       Incurring interest on late payments less than .02 percent;
       Achieving an Electronic Fund Transfer Compliance Rate of greater than 96 percent;

       Completing timely and accurate Cash/Fund Balance reconciliations within 15 days after
        the end of the accounting period;
       Reconciling Cash/Fund Balance to 100 percent of the proper balance;


                                                43
                                   TTB 2010 Annual Report


       Clearing suspense accounts within 60 days;

       Ensuring prompt deposits and recording of tax collections;
       Providing timely and useful financial management data;

       Providing excellent customer service; and
       Maintaining an account code structure that captures and measures costs of TTB
        programs.
The Bureau also met established due dates to ensure timely submission of required Financial
Management Service (FMS) reports. Monthly closing of financial data was completed within
three business days, and payroll information was downloaded into the Oracle core accounting
system within three working days of receipt of payroll tapes from the National Finance Center.
Joint reviews of payroll activity were conducted to obtain reliable projections of payroll costs
relative to continuously changing on-board staffing levels. The payroll projection system has
proven to be a valuable tool and its use has led to better financial information for decision
making on the budget and has helped the Bureau avoid Anti-Deficiency Act violations. The
ability to extract information from both the core accounting system, and make sound payroll
projections, continues to provide reliable and accurate financial information for management
use in executing the budget.
In FY 2010, the Bureau was able to conduct timely reviews of financial information so that
program offices were afforded the data necessary to make efficient use of the Bureau’s annual
appropriation, and fulfill TTB’s tax collection and regulatory responsibilities as outlined under
the budget plan. By closely monitoring the Bureau’s financial status, TTB was successful in
making a number of key investments in support of its mission. These financial reviews were not
limited to the current year’s appropriation. TTB also conducted a review of prior year
obligations. This endeavor led to the close out of accounts that no longer legally obligated TTB.
As a result of this comprehensive effort, the Bureau was able to increase its FY 2009 unobligated
balance, of which 50 percent, or $256,000, was reapportioned for use in FY 2010 to support the
implementation of the new electronic system for permit applications.
In support of Treasury’s OMB Circular A-123 requirements over financial reporting controls, the
TTB Office of Finance and Performance Budgeting tested internal controls related to the
financial reporting of tax collections. The review identified no control weaknesses over TTB’s
collection activity and the reporting of those collections.

Expansion of Technology Solutions

In FY 2010, TTB continued with business application development to improve internal
operational efficiency and to reduce the regulatory burden on industry members. TTB
developed several significant software updates to the Integrated Revenue Information System
(IRIS)—the Bureau’s central database of permit, tax, and operational report information. In
September 2010, TTB completed the Tobacco Importer Historical Data upload. Using the

                                                44
                                   TTB 2010 Annual Report


previously developed Electronic Forms Acceptance and Processing Solution (EFAPS) system, TTB
converted, validated, and uploaded historical operational report data from tobacco importers
into IRIS from a separate database system, giving TTB personnel access to tobacco importer data
from a single source. This project improves the effectiveness of implementing relevant
provisions of the CHIPRA legislation that require industry to submit new permit applications
after a year of inactivity, and will streamline the process by which TTB specialists determine the
eligibility of tobacco importers.
TTB released two additional updates to IRIS in March and April 2010. These updates provided
increased user functionality, improved reporting capabilities, and prepared the system for the
deployment of the Permits Online system. In all, TTB decommissioned three legacy tax
applications in FY 2010, all of which are now successfully integrated into IRIS. These system
integration and consolidation efforts will reduce IT maintenance costs and achieves the final
outcome of the IRIS development effort.
TTB also undertook a major software development effort in FY 2010 that will allow industry
members to electronically submit new and amended permit applications for approval. The
Permits Online system will provide a secure, Web-based system to support the online
submission, routing, and processing of original and amended permit applications.
The NRC currently processes application packets for more than 20 types of permits or registra-
tions for the alcohol, tobacco, firearms, and ammunition industries. New or existing alcohol and
tobacco industry members file these packets to request permission to commence a new
regulated industry operation, or to update critical industry member information such as trade
names on an existing business. Over the past several years, the volume of paper applications
has increased, making it difficult to maintain current service levels. With the workload
increasing at the same time the Bureau’s workforce is shrinking, this IT initiative is critical to
improving present turnaround times.
Permits Online will allow TTB to screen and authorize applicants to operate alcohol and tobacco
businesses under the Federal Alcohol Administration Act and the Internal Revenue Code.
Permits Online will be implemented using Commercial Off-the-Shelf (COTS) software, purchased
in FY 2009 and developed and tested in FY 2010. The system will substantially improve the
Bureau’s ability to timely process permit applications. Expeditiously processing permit
applications also allows qualified persons to commence operations sooner, and contributes to
the overall growth and health of the U.S. and global economy.
This e-Gov system will be released in phases, with phase one slated for release in January 2011,
and a second phase scheduled for release at the end of FY 2011 or early FY 2012. The first
phase includes the three highest volume permit types—wineries, alcohol importers, and alcohol
wholesalers. Subsequent releases will expand the permit types that can be filed electronically.
TTB expects to initiate internal testing for the first increment of new permit types in the phase
two release of Permits Online in the third quarter of FY 2011.




                                               45
                                    TTB 2010 Annual Report


TTB made significant progress in the Formulas Online business application development project
in FY 2010. This system will allow industry members to submit beverage and nonbeverage
alcohol formula forms and documentation via the Web. For beverage alcohol formula filers,
Formulas Online is integrated with the label filing system, COLAs Online. Some alcohol
beverages require formula approval prior to the issuance of a Certificate of Label Approval
(COLA), and the Formulas Online system will allow registered COLAs Online users to view their
formula based on their TTB permit number. This development effort also enables industry
members to register for both Formulas Online and COLAs Online via the Web. In addition, COLA
applications and approved labels are linked to formulas and related data stored in Formulas
Online. Alcohol beverage producers and importers will be able to research approved formulas
associated with their label applications. This online filing solution is scheduled for release in FY
2011.
In its efforts to increase efficiencies and reduce operating costs, TTB was successful in enabling
its auditors and investigators to voluntarily switch from wired broadband to mobile wireless
broadband Internet connections. Previously, TTB’s field personnel teleworking from home had
used wired broadband connections, purchased through local area communication companies, to
remotely access the TTB network. In adopting the mobile wireless technology, TTB was able to
reduce the cost of Internet connectivity for its remote workforce. Moreover, auditors and
investigators can use the mobile broadband devices to connect to the TTB network while on
assignment in the field, giving them increased flexibility in performing their duties.
The National Revenue Center (NRC), TTB’s tax and permit processing center, receives
approximately 68,000 telephone calls and inquiries on an annual basis. In FY 2010, TTB
developed and implemented an improved phone tree menu system for the main toll-free
telephone number at the NRC to better directs calls related to routine questions to clerks or
contractors, and evenly rotate incoming calls of a technical nature to specialists. This system
ensures that specialists’ time is reserved for more complex or specific questions. The new Voice
over Internet Protocol (VoIP) phone system, implemented in FY 2009, also has enabled the
automated monitoring of call volume to the various work units for planning and staffing
purposes.
At the NRC, TTB also initiated an imaging project to convert paper permit files into an electronic
data warehouse, or virtual file room. Presently, requests from auditors or investigators in the
field for working files on permittees and taxpayers requires a specialist to physically retrieve the
file from a file room at the NRC, copy the file, and mail the copy to the field. Once completed,
this project will eliminate this manual process, and will give all TTB employees with appropriate
permissions access to the files as needed.
In support of its efforts to operate in a “green” manner, TTB continued its use of a commercial
product to virtualize its server environment. This process involves applying a software
application to maximize use of server capability by dividing a single physical server into multiple
isolated virtual environments. To date, TTB has virtualized more than 50 percent of its Windows
server environment and about 20 percent if it’s other server environment. Server virtualization

                                                 46
                                   TTB 2010 Annual Report


reduces the cost of infrastructure refresh and reduces the cost of space, power, and cooling in
TTB data centers. Further, to reduce infrastructure hardware and labor costs in the future, TTB
implemented a virtual desktop solution that allows its employees to access all TTB applications
from anywhere in the world on a host of low-cost devices. This will result in savings as
employee equipment ages and requires replacement.

In FY 2010, TTB supported the Government-wide move toward cloud computing, and assumed
certain IT infrastructure hosting services for another Treasury entity, the Community
Development Financial Institutions Fund (CDFI). TTB collaborated with CDFI personnel and the
Treasury CIO and developed a solution that will save the Department millions of dollars in
equipment refresh costs over 4 to 5 years. The solution involves TTB acting as an IT “cloud”
provider of infrastructure services, which allows for the elimination of a substantial amount of IT
equipment currently used to run CDFI operations. In July 2010, the first phase in the transition
of CDFI to the TTB “cloud” was completed. CDFI has since requested to move all of its users to
this system in the next phase. Although this equipment procurement savings does not accrue to
the TTB budget, it represents a savings to the Treasury Department and to the American
taxpayers.
TTB also released an updated version of its performance dashboard, which leverages available
Web technologies to provide an on-demand business analytics tool for management to keep a
pulse on key workload and performance metrics. The performance dashboard provides a
consistent and efficient means of calculating, collecting, and maintaining key agency
performance metrics and makes the results readily available to TTB managers through an online
portal. This system automates the reporting and presentation of metrics related to collections,
permit and label application processing times, and customer service. The new release improves
upon the metric accuracy, adds new performance and workload reports, and provides more
historical data for trend analysis to facilitate strategic decision making.
The TTB Internet site, TTB.gov, serves as a primary means of communicating with the public and
with those whom TTB regulates. TTB draws its direction for Web enhancements from customer
feedback provided by the American Customer Satisfaction Index (ACSI) survey—an online survey
provided at random to TTB.gov visitors. In FY 2010, TTB continued to concentrate on improving
the look and feel of the site and other usability enhancements, including improved search and
navigation. In FY 2010, TTB became the first recipient of the Treasury Section 508/IT
Accessibility Award. Ensuring that information is available online to persons with disabilities is
just one aspect of maintaining a quality Web site for all site visitors. TTB improved its
accessibility compliance rate from 60 percent to 95 percent compliant within the first quarter of
2010. The Departmental goal was to have all Treasury bureau Web sites 90 percent compliant
by July 2010.




                                                47
                                   TTB 2010 Annual Report



Message from the Chief Financial Officer
                              At TTB, the responsibility to be conscientious stewards of the
                              public purse is not exclusively held by the Chief Financial Officer—
                              the need for responsible spending and sound fiscal planning is
                              recognized and carried out at all levels of the organization. In FY
                              2010, the Bureau continued to cultivate this mindset of
                              accountability through rigorous reviews of our programs and
                              financial operations to identify areas for improved performance
                              and efficiency. These efforts demonstrate our commitment to
                              strong financial management and contributed to an unqualified
                              audit opinion on the Bureau’s FY 2010 annual financial statements.

In the past, TTB’s financial information was reported as part of the Department of the Treasury’s
consolidated annual financial statements. At the close of FY 2009, TTB underwent a limited
scope audit, and received an unqualified audit opinion on the FY 2009 balance sheet, as well as
reports on internal control over financial reporting in relation to the balance sheet and
compliance with laws and regulations in relation to the balance sheet. TTB is now on an annual
schedule for a full scope audit of its financial statements by an independent public accounting
firm. Our request for and support of this annual audit affirms our commitment to a vigorous
internal control environment and financial reporting excellence.

Further evidence of this commitment lies in our management practices, which include routine
evaluations of our tax collection and revenue accounting operations at the National Revenue
Center to validate that sound internal and administrative controls are in place for our key
business processes that support the collection and tracking of nearly $24 billion in annual
Federal excise tax collections. These internal reviews focus on identifying any major risks for
fraud, waste, and abuse associated with the Bureau’s tax collection activities, and serve to
validate that TTB collects all revenue that is rightfully due on alcohol, tobacco, firearms, and
ammunition products.

TTB also met the Department of the Treasury’s goals for the Office of Management and Budget’s
acquisition improvement mandate. TTB delivered on our performance targets for procurement
savings and in reducing high risk contracts in FY 2010, documenting $1.2 million in savings and
avoided costs and $2.8 million in high risk reductions. We will continue our use of cost
avoidance and lower risk contracting strategies in the coming fiscal years.

Management excellence also requires investments in technology to create efficiencies and
realize savings. In this regard, TTB developed a new business application to improve our service
to those operating in the industries we regulate. Permits Online will transform the way TTB
interacts with industry, and will result in savings on both ends of the permit application process.



                                                48
                                   TTB 2010 Annual Report


The Bureau also enhanced our performance dashboard to provide managers with more on-
demand business analytics. The dashboard is an online portal that collects and calculates key
workload and performance metrics related to TTB operations and enables trend analysis on
major service areas. This analytics tool has improved the reliability and accuracy of the
performance information gathered and reported by TTB.

TTB also made strategic investments in its workforce to sustain succession planning efforts and
meet mission needs. For the third year, TTB selected a class for its Emerging Leaders Program
(ELP). The ELP is a three-year certificate program to build the essential leadership skills of the
next generation of leaders at TTB.

Meeting our human capital, acquisition, and financial management goals is critical to producing
agency performance results that are relevant and valuable to American taxpayers. In the years
ahead, strategic fiscal planning and targeted investments in technology and the TTB workforce
will support the Bureau in improving the management and performance of this organization.




                                       Cheri D. Mitchell
                           Assistant Administrator, Management/CFO




                                                49
                                       TTB 2010 Annual Report



PART III
Financial Results, Position, Condition, and
Auditors’ Reports

Budget Highlights by Fund Account


                             FY 2010 Salaries and Expenses

Appropriations (Public Law 111-117) Consolidated
Appropriations Act 2010                                                                $103,000,000

   Salaries & Expenses FY 2010                                   $100,000,000
   Salaries & Expenses FY 2010/2011 (Funds restricted for
the hiring, training, and equipping of special agents).            $3,000,000


Other Sources of Funds:

  Salaries & Expenses FY 2009/10 (IT Infrastructure)                                      $2,000,000
    Amount Spent in FY 2009                                          $797,174
    Amount Spent in FY 2010                                        $1,202,826

 Salaries & Expense FY 2009/10 (50% Prior Year Recovery)
1/                                                                                          $256,000
   Amount Spent in FY 2010                                           $256,000

1/ General Provisions of the appropriations bill provide that 50 percent of the unobligated balances
remaining available at the end of fiscal year 2009, shall remain available through September 30,
2010.



The FY 2010 TTB budget of $103,000,000 consists of direct appropriations. The budget
authorizes the full time equivalent (FTE) staffing level of 535 direct FTE.

The budgeted amount maintains a program level consistent with the current level of effort
necessary to support TTB’s responsibility for revenue collection and the enforcement of laws
and regulations governing alcohol and tobacco commodities.

The Bureau obligated or expended 99.7 percent of the $100,000,000 in FY 2010 direct funding
from its one-year Salaries and Expenses appropriation.

Also, the Bureau awarded contracts in the amount of $2,000,000 during fiscal years 2009 and
2010 to replace all data storage arrays that were approaching end of life, remote access

                                                       50
                                   TTB 2010 Annual Report


network equipment, servers that were at or beyond end of life, and other internal network
equipment in TTB data centers.

The $3 million in direct funding that was restricted to expenses associated with the criminal
enforcement activity remains available until September 30, 2011. In FY 2010, the Bureau
entered into an interagency agreement with the IRS Criminal Investigation unit to begin criminal
investigations into tax fraud in the TTB regulated industries.


                          FY 2009/2010 Salaries and Expenses

Reprogramming                                                                            $256,000




Also during FY 2010, an additional $256,000 from the prior year account of unobligated available
balances (often referred to as the 50 percent account) was authorized by Congress to cover a
one-time data upload (non-recurring cost) of active industry member information from TTB’s
Integrated Revenue Information System (IRIS) to the Permits Online system. Permits Online is a
Web-based E-Government system that TTB plans to initially deploy in FY 2011 with the goal to
fully automate all permit applications and amendments by FY 2012. This system will convert the
paper-driven process for original and amended permits and registrations to an electronic format
to streamline both the submission and processing of applications.

Offsetting Collections and Reimbursable Accounts from Puerto Rico
Cover Over/ Enforcement Activities
The Bureau collected $4.2 million in offsetting collections during FY 2010. The primary source of
reimbursable funding involved collections from the cover over program and enforcement
activity in Puerto Rico, which amounted to $2.6 million (62 percent) of the offsetting collections.

Puerto Rico Cover Over and Enforcement Activities

All costs associated with the functioning and support of the Puerto Rico office are paid from the
cover over program, which is offset from cover-over taxes collected in the United States on
products originating in Puerto Rico ($378 million) and the Virgin Islands ($9 million).

In Puerto Rico, TTB conducts annual audits and investigations of industry members regarding
the collection of revenue, application processing, and product integrity. Revenue inspections
are used to conduct tax examinations on major producers of alcohol and tobacco. This is critical
due to the requirements of verifying tax payments under the Internal Revenue Code (IRC), as
well as TTB’s subsequent accountability for all cover-over amounts due to the government of
Puerto Rico.




                                                51
                                   TTB 2010 Annual Report


All distilled spirits producers and processors, wineries, wholesalers, importers, Manufacturer of
Nonbeverage Products claimants, and specially denatured alcohol permit applicants are subject
to a qualification inspection under the IRC.

Additionally, major producers of distilled spirits, wine, and malt beverages are subject to
inspection and audits in Puerto Rico.


Linking Budget and Program Spending

TTB has two primary budget activities: collecting all the revenue that is rightfully due and
protecting consumers of alcohol beverages. Assisting industry members to understand and
comply with the Federal laws and regulations regarding the commodities TTB regulates is an
integral part of both activities.

In FY 2010, TTB used an account code structure which provides a direct link from the Bureau
budget to specific programs and project activities. An analysis of the data stemming from the
account code structure shows that, in FY 2010, TTB spent $99,743,000 of its annual
appropriation equally under these two budget activities.


                                                                               The Total Spending
                                                                               amount includes
                                                                               obligations and
                        Collect                                                expenditures from
                                        Protect
                                                                               the FY 2010 TTB
      $49,553,000        The             The              $50,190,000
                                                             50%               appropriation.
         50%           Revenue          Public




                     FY 2010 Total Spending
                          $99,743,000


In order to ascertain the full costs of each of these budget activities, the overhead costs were
allocated and combined with the direct program costs. TTB arrived at the overhead allocation
by applying the pro rata share of the number of direct program dollars to each overhead cost
category.

The overhead is comprised of three major cost components: 1) general and administrative costs;
2) legal costs; and 3) information technology costs. The general and administrative category



                                                52
                                                    TTB 2010 Annual Report


            consists of costs related to operating the human resources, finance, procurement, training,
            facilities management, and other support-type functions.


Spending by Major Object Class

                                         GSA Rent                   In this report, TTB presents its spending by budget activity and program
                                          $4.6M
                        Advisory &
                                              Equipment             to explain the cost of delivering the services that support the mission.
                        Assistance
                                                $3.1M
                         Services                                   The Bureau also presents specific data regarding the purchase of goods
                         $26.0M                 Communications
                                                  & Utilities       and services by major object class that support its program activities.
                                                   $3.8M
                                                                    For TTB, the majority of spending falls into two principal major object
                                                          Travel
                                                          $2.8M     classes. These two object class categories comprise 85 percent of the
                      Salaries &
                                                                    Bureau’s spending from its annual appropriations and include Salaries
                       Benefits
                       $58.6M
                                                                    and Benefits and Advisory and Assistance Services (Contracts). At a cost
                                                    Miscellaneous   of $58.6 million, or 59 percent of total spending by object class, Salaries
                                                       $0.8M
                                                                    and Benefits covers the cost of the Bureau’s roughly 500 FTE positions in
                                                                    FY 2010. The Advisory and Assistance Services object class constitutes
      FY 2010 Total Spending by Major Object Class                  $26 million, or 26 percent, of FY 2010 spending, and covers the cost of
                        $99.7M
                                                                    both commercial and intragovernmental services.
The commercial contracts category is predominantly IT contracts in support of engineering, infrastructure, and support services. Also, it
includes other commercial contracts for services such as the scanning and imaging of label applications and tax forms, lab maintenance,
and Web site development. Intragovernmental services include spending related to administrative support services provided by our shared
service provider for human resources, accounting, travel, and procurement. Other intragovernmental contract services include the costs for
background investigations, publications in the Federal Register, administrative support services, and Federal protective services. The
Bureau’s travel costs are primarily related to its audits and investigations. The remaining object classes that cover the FY 2010 spending
activity include those cost categories for rent, communications, equipment, and other miscellaneous categories.




                                                                     53
                                    TTB 2010 Annual Report


Spending by Budget Activity to Achieve TTB Mission Goals

Collect the Revenue….. $49,553,000

The Collect the Revenue budget activity encompasses TTB’s revenue strategy and goal to
provide the most effective and efficient system for the collection of all revenue that is rightfully
due. It is also designed to prevent or eliminate tax evasion and other criminal conduct and
provide high-quality service while imposing the least regulatory burden.

Under the Collect the Revenue activity, TTB administers three programs: 1) Alcohol and Tobacco
Tax; 2) Firearms and Ammunitions Excise Tax (FAET); and 3) Outreach and Voluntary
Compliance.


                            COLLECT THE REVENUE
                                                                FAET Program
                                                                     4%



        SPENDING                                                      Outreach &
                                   Alcohol &                           Voluntary
           BY                       Tobacco                           Compliance
          MAJOR                    Program                              Program
                                      90%                                 6%
        PROGRAMS




In FY 2010, TTB expended 90 percent of its Collect the Revenue resources in collecting Federal
excise taxes from the alcohol and tobacco industries and 4 percent in collecting FAET. The
specific projects that comprise these costs include the processing of tax returns and operational
reports at the National Revenue Center and the audits and investigations conducted on
industry.

Costs for the Outreach Program reached 6 percent of our Collect the Revenue resources. These
resources went toward efforts to educate and train industry members regarding their
obligations in the areas of tax calculations and remittance.

Protect the Public….. $50,190,000

The Protect the Public budget activity encompasses TTB’s strategy and goal to ensure industry
compliance with laws and regulations designed to protect the consumers of alcohol beverages.




                                                 54
                                   TTB 2010 Annual Report


TTB does this by assuring the integrity of the people who operate these businesses, of the
products themselves, and of the marketplace in which they are traded.

TTB administers four programs under the Protect the Public budget activity: 1) Permits and
Business Assurance; 2) Advertising, Labeling, and Product Safety; 3) Trade Facilitation; and 4)
Outreach and Voluntary Compliance.


                               PROTECT THE PUBLIC
                                                            Trade Facilitation
                                                                Program
                                                                   7%
                                   Permits &
                                    Business                           Outreach &
                                   Assurance                            Voluntary
                                                                       Compliance
                                   Program
                                                                        Program
          SPENDING                    34%
                                                                          10%
             BY                             Advertising,
            MAJOR                            Labeling &
                                           Product Safety
          PROGRAMS                              49%




An analysis of the financial data from FY 2010 reveals that TTB spent the preponderance of its
Protect the Public resources on two programs: Labeling, Advertising, and Product Safety at 49
percent, and Permits and Business Assurance at 34 percent.

The Labeling, Advertising, and Product Safety Program includes activities designed to assure that
beverage alcohol labels fully and accurately describe the products upon which they appear and
are not misleading. It also encompasses activities to verify that alcohol advertisements contain
all mandatory information and do not mislead consumers. The Product Safety component
involves all investigative and laboratory activities performed as part of the Alcohol Beverage
Safety and Verification Program, including work related to domestic and imported product
analysis.

The Permits and Business Assurance Program is designed to determine the eligibility of persons
wishing to enter any of the businesses TTB regulates and to process applications for changes to
the original permit. These activities may include a field investigation. The permit is necessary in
order to conduct operations in the regulated industries.

The remainder of the Protect the Public resources were divided between the Trade Facilitation
Program (7 percent) and the Outreach and Voluntary Compliance Program (10 percent).




                                                 55
                                   TTB 2010 Annual Report



Systems and Controls
Introduction

During FY 2010, TTB contracted with BPD ARC to handle its administrative, human resources,
and financial functions.

Accounting Systems and Controls

The BPD ARC accounting system, known as Oracle Federal Financials, is certified by the Financial
Systems Integration Office (FSIO) requirements and is in full compliance with Treasury reporting
requirements; it also meets requirements under the Federal Financial Management
Improvement Act (FFMIA).

The Bureau successfully met the Department of the Treasury’s reporting requirements and has
maintained accurate and reliable financial information on TTB’s program activities. The various
administrative modules integrated with the TTB financial system have proven to accurately
capture Bureau financial data and provide reliable information to management to inform
decision making. Only two TTB databases operate outside the BPD ARC environment—the TTB
property management system and the tax administration database, IRIS.

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

The FMFIA requires Federal agencies to conduct ongoing evaluations of the systems of internal
accounting and administrative control. Annually, TTB must report to Treasury all material
weaknesses found through these evaluations. Treasury submits a consolidated report on the
Department’s controls to the President.

The FMFIA also requires the heads of agencies to provide the President with yearly assurance
that obligations and costs are in compliance with applicable laws; that funds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation; and
revenues and expenditures are properly recorded and accounted for.

To provide this report and assurance to the President, the Secretary of the Treasury depends
upon information from component heads regarding their management controls. The FMFIA
program places reliance on each office at TTB to maintain a cost-effective system of controls to
provide reasonable assurance that Government resources are protected against fraud, waste,
abuse, mismanagement, or misappropriation.

Responsibilities of the Bureau’s executive staff include ensuring that programs and
administrative support activities are managed efficiently and effectively. Managers must
conform to specific management accountability and improvement policies when designing,



                                               56
                                   TTB 2010 Annual Report


planning, organizing, and carrying out their responsibilities in order to ensure the most efficient
and effective operation of their programs.

These policies address:

       Delegation of authority and responsibility;
       Hierarchical reporting of emerging management problems;
       Personal integrity;
       Quality data;
       Separation of key duties and responsibilities;
       Periodic comparisons of actual with recorded accountability of resources;
       Routine assessment of programs with a high potential for risk;
       Systematic review strategy to assess the effectiveness of program operations; and
       Prompt management actions to correct significant problems or improve operations.

Since its inception, TTB has gradually developed its own Bureau-specific policies.

Management accountability systems must assure basic compliance with the objectives of the
FMFIA and the management control standards set by the Government Accountability Office. In
addition, any inspection, audit, evaluation, peer or program review process, self-assessment, or
the equivalent, used by TTB management to keep informed about needs and opportunities for
improvement must incorporate these same standards into its methodology.

Furthermore, the Bureau completed an annual risk assessment for improper payments on all of
its programs and activities. This process disclosed low risk susceptibility for improper payments,
and documented that sound internal management and controls were in place at the Bureau to
cover its disbursements.

The Bureau continues to strengthen and improve the execution of its mission through the
application of sound internal controls over financial reporting. In response to OMB Circular A-
123, Management’s Responsibility for Internal Controls, the Bureau, in concert with the
Department, developed and implemented an extensive testing and assessment methodology
that identified and documented internal controls over financial reporting on our revenue
accounting activities.

This increased emphasis on management controls has had a positive impact on programs and
enabled the Bureau to achieve the intended results. The process also ensures that the
utilization of resources is consistent with mission priorities and that program and resources are
being used without waste, fraud, or mismanagement. Also, in addition to the A-123 review, TTB
conducted a series of office reviews during FY 2010 that included an extensive review of
administrative and internal controls.


                                                57
                                   TTB 2010 Annual Report


The audit of the FY 2010 financial statements sheet disclosed no instances of noncompliance on
FFMIA matters, and showed that the Bureau operates in substantial compliance with 1) Federal
financial management systems requirements, 2) applicable Federal accounting standards, and 3)
the United States Government Standard General Ledger at the transaction level. However, the
audit identified a control deficiency related to expensing capital assets and prepaid expenses.
Corrective actions have already been implemented to address the weaknesses.

Financial Statement Highlights

The following overview of the TTB financial statements highlights certain aspects of the financial
statements for the fiscal year ended September 30, 2010.

       The Statement of Custodial Activity shows the amount of revenue received during FY
        2010 compared with FY 2009, along with tax refunds, drawback on Manufacturer of
        Nonbeverage Products claims, and cover-over payments. The amount displayed shows
        that the total Federal excise tax revenues collected from alcohol, tobacco, firearms, and
        ammunition amounted to $23.8 billion. Within this total, the Bureau processed tax
        refunds, drawback claims, and cover-over payments in the amount of $713 million.
            o Drawback claims of $298 million were processed based on claims filed from
                MNBPs. Under current law, a drawback claim is allowed when distilled spirits
                on which the tax has been paid were unfit for beverage purposes and used in
                the production of medicines, medicinal preparations, food products, flavors,
                flavoring extracts, or perfumes.
            o Tax refunds and other adjustments (e.g., interest) were processed in the
                amount of $28 million.
            o Cover-over payments were returned to Puerto Rico and the Virgin Islands in the
                amount of $387 million. Such taxes collected on rum imported in the United
                States are “covered over,” or paid into, the treasuries of Puerto Rico and the
                Virgin Islands.
            o The disposition of the custodial revenue, after refunds, claims, and cover-over
                payments, nets to $23.0 billion, and that amount was deposited to the U.S.
                Treasury to fund the Federal Government, with the exception of the Federal
                firearms and ammunition Federal excise taxes. Those revenues, in the amount
                of $361 million, were remitted to the Fish and Wildlife Restoration Fund under
                provisions of the Pittman Robertson Act of 1937.
       The Statement of Net Cost shows the total net cost of operations at $105.6 million for
        the Bureau to administer its two budget activities.
            o The total net cost reported as program costs under the Collect the Revenue
                program was $50.7 million.
            o The total net cost reported as program costs under the Protect the Public
                program was $54.9 million.



                                               58
                                   TTB 2010 Annual Report


       The Balance Sheet shows the assets, liabilities, and net position as of a point in time, in
        this case, as of September 30, 2010.
             o The total assets were reported as $78.5 million at the close of the fiscal year. Of
                 this amount, $36.7 million is classified as the fund balance with Treasury. That
                 fund balance account is the undisbursed account balance with the Treasury,
                 primarily resulting from undisbursed appropriations.
             o The total liabilities amount reported is $46.4 million, of which total
                 intragovernmental liabilities amounts to $9.3 million. The other liabilities are
                 classified by type, such as accrued tax refunds, payables, and other liabilities.
       The Statement of Change in Net Position shows a total net position balance of $32.1
        million, and that amount represents the unexpended appropriations from both prior
        periods and from the current operating cycle in addition to Net Position from
        Operations.
       The Statement of Budgetary Resources shows the budgetary resources received and the
        status of those resources. For TTB, the resources are primarily annual appropriations
        received from the Omnibus Appropriations Act in the amount of $103 million, in
        addition to spending authority from collections. The offsetting collections amount was
        $4.2 million. Of that amount, $2.6 million is from the recovery of those costs associated
        with the administration of the cover over program, along with other miscellaneous
        reimbursable activities.

Notes to the Basic Financial Statements

The notes to the basic financial statements provide additional information that is essential to a
full understanding of the financial information provided in the statements.

Supplementary Information

In addition to the basic financial statements and accompanying notes, this report presents other
supplementary information. For instance, TTB includes a table that outlines the tax collections
for the past 10 years for each of the key revenue sources. Also, a table has been included to
show the refunds, cover-over payments, and drawback payments for the past 10 years.




                                                59
                                   TTB 2010 Annual Report



Financial Statements, Accompanying Notes, and Supplemental
Information
Limitations of Financial Statements

 The principal statements have been prepared to report the financial position and results of
operations of the entiy, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the entity in accordance with
GAAP for federal entities and the formats prescribed by the Office of Management and Budget
(OMB), the statements are in addition to the financial reports used to monitor and control
budgetary rescources, which are prepared from the same books and records. For fiscal 2010, all
financial statements and notes have been audited. During 2009, only the Balance Sheet and
related notes were audited.

Management Responsibilities

Bureau management is responsible for the fair presentation of information contained in the
principal financial statements, in conformity with generally accepted accounting principles
(GAAP), and the form and content for entity financial statements specified by OMB in Circular A-
136.

Management is also responsible for the fair representation of TTB’s performance measures in
accordance with OMB requirements. The quality of the Bureau’s internal control structure rests
with management, as does the responsibility for identification of and compliance with pertinent
laws and regulations.

TTB in Relation to Treasury’s Annual Financial Statements

The Department of the Treasury received an unqualified audit opinion on its FY 2010 financial
statements. The financial activities of the Bureau are an integral part of the information
reported by the Department of the Treasury.

This unqualified audit opinion means that the financial information presented by the Treasury,
which includes TTB’s financial activities, was presented fairly and in conformity with generally
accepted accounting principles (GAAP) of the United States.




                                               60
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                          Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the accompanying balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of
September 30, 2010 and 2009, and the statements of net cost, changes in net position, budgetary resources,
and custodial activity (hereinafter referred to as “financial statements”) for the year ended September 30,
2010. These financial statements are the responsibility of the Alcohol and Tobacco Tax and Trade
Bureau’s management. Our responsibility is to express an opinion on these financial statements based on
our audits. We were not engaged to audit the statements of net cost, changes in net position, budgetary
resources, and custodial activity (hereinafter referred to as “other 2009 financial statements”) for the year
ended September 30, 2009. Accordingly, we do not express an opinion on the other 2009 financial
statements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Alcohol and
Tobacco Tax and Trade Bureau’s internal control over financial reporting. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Alcohol and Tobacco Tax and Trade Bureau as of September 30, 2010 and 2009,
and its net cost, change in net position, budgetary resources, and custodial activity for the year ended
September 30, 2010 in conformity with U.S. generally accepted accounting principles.

The information in the Part I: Management’s Discussion and Analysis (MD&A) and Required
Supplementary Information (RSI) sections is not a required part of the financial statements, but is
supplementary information required by U.S. generally accepted accounting principles. Certain information
presented in the MD&A and RSI is based on the other 2009 financial statements that we were not engaged
to audit. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.


                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The Other Accompanying Information included in (1) pages i through vi, (2) Part II: Program
Performance Results, (3) pages 50 through 60 and pages 98 through 101 of Part III: Financial Results,
Position, and Condition, and (4) Part IV: Appendices is presented for purposes of additional analysis and is
not a required as part of the basic financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 14,
2010, on our consideration of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over
financial reporting and our tests of its compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




December 14, 2010
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of September 30,
2010 and 2009, and the statements of net cost, changes in net position, budgetary resources, and custodial
activity (hereinafter referred to as “financial statements”) for the year ended September 30, 2010 and have
issued our report thereon dated December 14, 2010. We were not engaged to audit the statements of net
cost, changes in net position, budgetary resources, and custodial activity (hereinafter referred to as “other
2009 financial statements”) for the year ended September 30, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for establishing and
maintaining effective internal control. In planning and performing our fiscal year 2010 audit, we
considered the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial reporting as it
relates to the financial statements by obtaining an understanding of the design effectiveness of the Alcohol
and Tobacco Tax and Trade Bureau’s internal control, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade Bureau’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial reporting. We did not test
all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be significant deficiencies, or material weaknesses and therefore, there can
be no assurance that all deficiencies, significant deficiencies or material weaknesses have been identified.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis. In our fiscal year 2010 audit, we identified a significant deficiency in internal control over
financial reporting described in Exhibit I that we consider to be a material weakness.

The Alcohol and Tobacco Tax and Trade Bureau’s response to the finding identified in our audit is
presented in Exhibit I. We did not audit this response and, accordingly, we express no opinion on it.

Exhibit II presents the status of prior year material weaknesses.

This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury’s Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 14, 2010
                                                                                                  EXHIBIT I

                                         MATERIAL WEAKNESS


      IMPROVEMENTS ARE NEEDED IN THE REVIEW OF PURCHASE REQUISITIONS


Upon initiating purchase requisitions within the PRISM system, TTB requesters are entering incorrect
budget object class (BOC) codes and accepting a default USSGL account number of “6100” for the
requisitions. An element of the BOC code can indicate that the use of funds is for capital items and
whether the goods or services ordered should be recorded as an expense or a capital asset within the
ORACLE general ledger system. Funds control managers, the Director of the Acquisition and Facilities
Management Division (AFMD), and the Chief Financial Officer review and approve, within the PRISM
system, all of the requisitions. However, these reviews are not identifying inaccurately entered BOCs or
the incorrect USSGL account number. An additional review performed by the Chief of the Accounting
Branch of the general ledger transactions for these procurements, designed to detect and correct inaccurate
recording of both the BOC codes and the use of USSGL account numbers did not occur during the first
nine months of the fiscal year.

In performing tests of details over non-payroll operating expenses recorded during the period 10/1/2009 to
7/31/2010, we identified exceptions related to improper expensing of non-federal pre-paid services and of
assets that should have been capitalized. These errors resulted in a total known overstatement of expenses
by $319,125. This total, identified through our statistically based testing of expenses, projects to a material
error.

Statement on Federal Financial Accounting Standards (SFFAS) No. 1 states that “advances are cash outlays
made by a federal entity to its employees, contractors, grantees, or others to cover a part or all of the
recipients' anticipated expenses or as advance payments for the cost of goods and services the entity
acquires.” Additionally, “advances and prepayments should be recorded as assets. Advances and
prepayments are reduced when goods or services are received, contract terms are met, progress is made
under a contract, or prepaid expenses expire.”

SFFAS No. 6 states that “property, plant, and equipment consists of tangible assets, including land, that
meet the following criteria: they have estimated lives of 2 or more years; they are not intended for sale in
the normal course of operations; and they have been acquired or constructed with the intention of being
used, or being available for use by the entity.

As a result of this weakness the capital accounts in the TTB general ledger and reported in the financial
statements were understated and the expenses were overstated. In recognition of the existence of
misclassified expenses, TTB management performed a review of all expensed transactions in excess of
their capitalization threshold of $25,000 but recorded to non-capital asset BOCs. This review identified
property, plant, and equipment purchases of $1.516 million that had been misclassified and not detected
during the review of the related purchase requisitions by TTB management.


Recommendations:

We recommend that management of the Alcohol and Tobacco Tax and Trade Bureau:

    1. Prepare and distribute to TTB employees detailed guidance on the criteria that should be
       considered when determining whether an order should be recorded to a capital or non-capital asset
       BOC and on the use of USSGL account numbers within PRISM.
    2. Perform periodic reviews of procurement transactions processed through PRISM that will detect
       and correct errors related to the non-capitalization of goods and services and ensure the accuracy of
       the general ledger during the fiscal year.



Management’s Response:

TTB concurs with the recommendations. The CFO’s office has already completed the corrective action on
the first recommendation. A reference guide was developed and distributed to purchasers as an aid in
determining what components of a fixed asset purchase may or may not need to be capitalized. The guide
further aids the purchasers in coding the transactions in the procurement system, PRISM, based on their
determinations. TTB is also committed to performing their secondary reviews of expenditures on a more
routine basis, and correcting property transactions that have incorrectly posted to the accounting system on
a more timely basis.
                                                                              EXHIBIT II

                   ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

                                  Status of Prior Year Findings

                                      September 30, 2010


     Fiscal Year 2009 Finding                Deficiency Type      Fiscal Year 2010 Status

1) Improvements Are Needed In               Material Weakness             Closed
   Property Capitalization Controls

2) Improvements Are Needed In               Material Weakness             Closed
   Accounts Payable Accrual
   Controls, Testing And Review Of
   Journal Entry Support, And
   Review Of Allowances For
   Accounts Receivable
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of September 30,
2010 and 2009, and the statements of net cost, changes in net position, budgetary resources, and custodial
activity (hereinafter referred to as “financial statements”) for the year ended September 30, 2010 and have
issued our report thereon dated December 14, 2010. We were not engaged to audit the statements of net
cost, changes in net position, budgetary resources, and custodial activity (hereinafter referred to as “other
2009 financial statements”) for the year ended September 30, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for complying with
laws, regulations, and contracts applicable to the Alcohol and Tobacco Tax and Trade Bureau. As part of
obtaining reasonable assurance about whether the Alcohol and Tobacco Tax and Trade Bureau’s financial
statements are free of material misstatement, we performed tests of the Alcohol and Tobacco Tax and
Trade Bureau’s compliance with certain provisions of laws, regulations, and contracts, noncompliance with
which could have a direct and material effect on the determination of the financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the Alcohol and Tobacco
Tax and Trade Bureau. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards and OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the Alcohol and Tobacco Tax and Trade
Bureau’s financial management systems did not substantially comply with the (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 14, 2010
                                           TTB 2010 Annual Report


                          DEPARTMENT OF THE TREASURY
                    ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                  BALANCE SHEETS
                          As of September 30, 2010 and 2009
                                                                        2010          2009

                                                                         (In Thousands)
          ASSETS
            Intragovernmental Assets:
                Fund Balance with Treasury (Note 2)                 $ 36,748      $ 31,225
                Accounts Receivable (Note 3)                             567           489
                Due from the General Fund (Notes 5 and 8)             12,802         8,489
                Advances (Note 7)                                        852         1,933
            Total Intragovernmental Assets                            50,969        42,136

             Accounts Receivable (Note 3)                                  343           379
             Tax and Trade Receivables, Net (Notes 4 and 8)              7,970         9,030
             Property, Plant and Equipment, Net (Note 6)                19,257        15,650

          TOTAL ASSETS (Note 8)                                     $ 78,539      $ 67,195

          LIABILITIES
             Intragovernmental Liabilities:
                 Accounts Payable                                   $      700    $      408
                 Payroll Benefits                                          581           527
                 FECA Liabilities                                           48            64
                 Due to the General Fund (Notes 4 and 5)                 7,550         8,173
                 Other Liabilities (Note 9)                                420           854
             Total Intragovernmental Liabilities                         9,299        10,026

            Accounts Payable                                           6,041         3,820
            Payroll Benefits                                           2,599         2,408
            FECA Actuarial Liability                                     132           243
            Refunds (Note 5)                                          12,802         8,491
            Unfunded Leave                                             4,377         4,319
            Cash Bond Liabilities (Note 2)                            10,811         8,677
            Other Liabilities (Note 9)                                   358           446
          TOTAL LIABILITIES                                         $ 46,419      $ 38,430

          NET POSITION
            Unexpended Appropriations                               $ 17,416      $ 17,734
            Cumulative Results of Operations                          14,704        11,031
          TOTAL NET POSITION                                          32,120        28,765

          TOTAL LIABILITIES AND NET POSITION70                      $ 78,539      $ 67,195



The accompanying notes are an integral part of these statements.
                                           TTB 2010 Annual Report


                        DEPARTMENT OF THE TREASURY
               ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                          STATEMENTS OF NET COST
                For the Years Ended September 30, 2010 and 2009
                                                                      2010          2009
                                                                                 (Unaudited)
                                                                        (In Thousands)

 PROTECT THE PUBLIC
   Program Costs
      Intragovernmental Gross Costs                                 $ 15,366     $ 13,489
      Less: Intragovernmental Earned Revenue                               -           (7)
      Intragovernmental Net Costs                                     15,366       13,482

         Gross Costs with the Public                                  39,537        36,442
         Less: Earned Revenues from the Public                            (8)          (27)
         Net Costs with the Public                                    39,529        36,415

           Total Net Program Cost                                   $ 54,895     $ 49,897

 COLLECT THE REVENUE
   Program Costs
      Intragovernmental Gross Costs                                 $ 14,950     $ 14,330
      Less: Intragovernmental Earned Revenue                             (97)        (606)
      Intragovernmental Net Costs                                     14,853       13,724

         Gross Costs with the Public                                  38,470        38,713
         Less: Earned Revenues from the Public                        (2,606)       (2,472)
         Net Costs with the Public                                    35,864        36,241

           Total Net Program Cost                                   $ 50,717     $ 49,965


 NET COST OF OPERATIONS (Note 13)                                   $ 105,612    $ 99,862




                                                        71



The accompanying notes are an integral part of these statements.
                                           TTB 2010 Annual Report


                           DEPARTMENT OF THE TREASURY
                  ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                     STATEMENTS OF CHANGES IN NET POSITION
                   For the Years Ended September 30, 2010 and 2009
                                                                     2010           2009
                                                                                (Unaudited)
                                                                       (In Thousands)
 Cumulative Results of Operations

    Beginning Balances                                              $ 11,031    $     8,660

    Budgetary Financing Sources
     Appropriations Used                                             102,659         97,704

    Other Financing Sources
     Transfers-in without reimbursement                                1,528            399
     Imputed Financing from Costs Absorbed by Others (Note 12)         5,098          4,130
    Total Financing Sources                                          109,285        102,233

    Net Cost of Operations (Note 13)                                (105,612)       (99,862)

    Net Change                                                         3,673          2,371

    Cumulative Results of Operations                                $ 14,704     $ 11,031

 UNEXPENDED APPROPRIATIONS

    Beginning Balances                                              $ 17,734    $ 17,463

    Budgetary Financing Sources
     Appropriations Received                                         103,000         99,065
     Other Adjustments                                                  (659)        (1,090)
     Appropriations Used                                            (102,659)       (97,704)
    Total Budgetary Financing Sources                                   (318)           271

    Net Position of Unexpended Appropriations                       $ 17,416    $ 17,734

 TOTAL NET POSITION                                                 $ 32,120     $ 28,765




                                                        72



The accompanying notes are an integral part of these statements.
                                           TTB 2010 Annual Report


                             DEPARTMENT OF THE TREASURY
                    ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                       STATEMENTS OF BUDGETARY RESOURCES
                     For the Years Ended September 30, 2010 and 2009
                                                                        2010           2009
                                                                                    (Unaudited)
                                                                          (In Thousands)

BUDGETARY RESOURCES (Note 14)
  Unobligated Balance
     Beginning of Period                                            $     3,157    $     2,408
  Recoveries of Prior Year Obligations                                    1,408          1,102
  Budget Authority:
   Appropriations Received                                              103,000         99,065
   Spending Authority from Offsetting Collections:
     Earned
        Collected                                                         4,196          3,097
        Change in Receivable from Federal Sources                            44            408
     Change in Unfilled Customer Orders
     Without Advance from Federal Sources                                  (200)           276
     Subtotal                                                           107,040        102,846
  Permanently not Available                                                (659)        (1,090)
TOTAL BUDGETARY RESOURCES                                               110,946        105,266

STATUS OF BUDGETARY RESOURCES
  Obligations Incurred: (Note 15)
     Direct                                                         $   102,117    $    98,235
     Reimbursable                                                         3,984          3,874
     Subtotal                                                           106,101        102,109
  Unobligated Balance Apportioned                                         3,247          1,653
  Unobligated Balance not Available                                       1,598          1,504
TOTAL STATUS OF BUDGETARY RESOURCES                                 $   110,946    $   105,266




                                                        73



The accompanying notes are an integral part of these statements.
                                           TTB 2010 Annual Report


                              DEPARTMENT OF THE TREASURY
                     ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                        STATEMENTS OF BUDGETARY RESOURCES
                      For the Years Ended September 30, 2010 and 2009
                                                                        2010            2009
                                                                                     (Unaudited)
                                                                           (In Thousands)


  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Unpaid obligations brought forward, Oct 1                       $    20,509     $    19,084
    Uncollected customer payments from Federal
     sources brought forward Oct 1                                       (1,563)           (880)
    Total unpaid obligated balance brought forward, net                  18,946          18,204

     Obligations incurred, net                                          106,101         102,109
     Gross Outlays                                                      103,060          99,582
     Recoveries of prior year unpaid obligations, actual                 (1,408)         (1,102)
     Change in uncollected customer payments from
      Federal sources                                                      156             (684)

     Obligated balances, net end of period
        Unpaid obligations                                               22,141          20,509
        Uncollected customer payments from Federal
          sources                                                        (1,407)         (1,563)
        Total unpaid obligated balance, net, end of period               20,734          18,946

    Net Outlays
       Gross outlays                                                    103,060          99,582
       Offsetting collections                                            (4,196)         (3,097)
       Distributed offsetting receipts                                       (9)            (17)
  NET OUTLAYS                                                       $    98,855     $    96,468




                                                        74



The accompanying notes are an integral part of these statements.
                                           TTB 2010 Annual Report


                               DEPARTMENT OF THE TREASURY
                      ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                            STATEMENTS OF CUSTODIAL ACTIVITY
                       For the Years Ended September 30, 2010 and 2009
                                                                        2010                  2009
                                                                                          (Unaudited)
                                                                               (In Thousands)

SOURCES OF CUSTODIAL REVENUE

   Revenue Received
      Excise Taxes (Note 16)                                        $   23,756,513      $   20,616,487
      Interest, Fines and Penalties                                          3,597               2,602
      Other Custodial Revenue                                                    9                  17
   Total Revenue Received (Note 17)                                     23,760,119          20,619,106

   Refunds and Drawbacks (Note 16)                                        (326,143)           (286,655)
   Net Revenue Received                                                 23,433,976          20,332,451

  Accrual Adjustment                                                        (5,370)                450
Total Source of Custodial Revenue                                   $   23,428,606      $   20,332,901

DISPOSITION OF CUSTODIAL REVENUE
  Amounts Provided to Non-Federal Entities (Note 16)                      387,057              481,319
  Amounts Provided to Fund the
    Federal Government (Note 17)                                        23,046,919          19,851,132
  Accrual Adjustment                                                        (5,370)                450
Total Disposition of Custodial Revenue                              $   23,428,606      $   20,332,901

NET CUSTODIAL REVENUE ACTIVITY                                      $             -     $               -




                                                        75



The accompanying notes are an integral part of these statements.
                                    TTB 2010 Annual Report




Notes to the Financial Statements
Note 1. Summary of Significant Accounting Policies


A. Reporting Entity

The Alcohol and Tobacco Tax and Trade Bureau (TTB) was established on January 24, 2003, as a
result of the Homeland Security Act of 2002. The Act transferred firearms, explosives, and arson
functions of the Bureau of Alcohol, Tobacco and Firearms (ATF) to the Department of Justice and
retained the tax collection and consumer protection provisions of the Internal Revenue Code (IRC)
and Federal Alcohol Administration Act in TTB within the Department of the Treasury. While the
agency has a new name, the history of TTB’s regulatory responsibility dates back to the creation
of the Department of the Treasury and the first Federal taxes levied on distilled spirits in 1791.
TTB has two primary programs: Collect the Revenue and Protect the Public. Under the Collect the
Revenue program, TTB collects alcohol, tobacco, firearms, and ammunition excise taxes, and
under its Protect the Public program, TTB protects the consumer by ensuring that alcohol
beverages are labeled, advertised, and marketed in accordance with the law, and facilitates trade
in beverage and industrial alcohols.

B. Basis of Presentation

The financial statements were prepared to report the significant assets, liabilities, and net cost of
operations, changes in net position, budgetary resources, and custodial activities of TTB. The
financial statements have been prepared from the books and records of TTB in conformity with
generally accepted accounting principles (GAAP) in the United States, and form and content
guidance for entity financial statements issued by the Office of Management and Budget (OMB) in
OMB Circular A-136. TTB’s accounting policies are summarized in this note. GAAP for Federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which has
been designated the official accounting standards-setting body for the Federal Government by
the American Institute of Certified Public Accountants. Certain prior year balances may have been
reclassified to conform to the current year’s presentation.

C. Basis of Accounting

Transactions are recorded on a proprietary accrual and a budgetary basis of accounting. Under
the accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
regardless of when cash is exchanged. However, under the budgetary basis, funds availability is
recorded based upon legal considerations and constraints. As a result, certain line items on the
proprietary statements may not equal similar lines on the budgetary financial statements.




                                                 76
                                    TTB 2010 Annual Report


D. Revenue and Financing Sources

    (1) Exchange Revenue

        Exchange Revenues are inflows of resources to a Government entity that the entity has
        earned by providing something of value to the public or another Government entity at a
        price. The majority of the Exchange Revenues earned by the Bureau result form providing
        services to the Government of Puerto Rico , as well as other Treasury entities.

    (2) Financing Sources

        Financing sources provide inflows of resources during the reporting period and include
        appropriations used and imputed financing. Unexpended appropriations are recognized
        separately in determining net position, but are not financing sources until used. Imputed
        financing sources are the result of other Federal entities financing costs on behalf of TTB.

        TTB receives the majority of the funding needed to support the Bureau through
        congressional appropriations. The appropriations received are annual and multi-year
        funding that may be used, within statutory limits, for operating and capital expenditures.

    (3) Imputed Financing Sources

        Imputed financing sources are the result of Federal entities financing costs on behalf of
        TTB. Those entities pay future benefits for health insurance, life insurance, and pension
        benefits for TTB employees.

E. Custodial Revenue

For TTB, most custodial revenues result from collecting taxes on alcohol and tobacco products,
which are transferred to the General Fund, and recognized as a nonexchange revenue on the
Federal government’s consolidated financial statements. The excise taxes collected by TTB come
from businesses, and the taxes are imposed and collected at the producer and importer levels of
operations. Members of the regulated industries paying excise taxes are distilleries, breweries,
bonded wineries, bonded wine cellars, manufacturers of cigarette tubes, manufacturers of
tobacco products, and manufacturers and importers of firearms and ammunition. These taxes are
recorded on the records on a modified cash basis of accounting. The Statement of Custodial
Activity is presented on a net accrual basis.

F. Fund Balance with Treasury

The Fund Balance with Treasury is the undisbursed account balance with the Treasury, primarily
resulting from undisbursed appropriations. The balance is available within statutory limits to pay
current liabilities and finance authorized purchase obligations. The Fund Balance also includes a
non-entity balance, primarily the result of custodial activities related to collecting escrow



                                                 77
                                    TTB 2010 Annual Report


payments designed to finance Offers-in-Compromise and cash bonds held in lieu of corporate
surety bonds guaranteeing payment of taxes.

G. Accounts Receivable

Intragovernmental accounts receivable consist of amounts due under reimbursable agreements
with Federal entities for services provided by TTB. Public accounts receivable consist of taxes,
penalties, and interest that have been assessed but unpaid at year end.

Receivables due from Federal agencies are considered to be fully collectible. An allowance for
doubtful accounts is established for public receivables based on specific identification and
individual analysis.

H. Property, Plant, and Equipment

Property, plant, and equipment purchased with a cost greater than or equal to $25,000 per unit
and a useful life of two years or more, is capitalized and depreciated. Normal repairs and
maintenance are charged to expense as incurred.

TTB also capitalizes internal use of software when the unit cost or development costs are greater
than or equal to $25,000. The same threshold also applies to enhancements that add significant
functionality to the software. TTB will amortize this software based on its classification. The
classifications are as follows: 1) Enterprise and other business software (five years), and 2)
Personal productivity and desktop operating software (three years).

Additionally, TTB also capitalizes like assets purchased in bulk when the unit price is greater than
or equal to $5,000 and less than $25,000, with the aggregated purchase amount greater than or
equal to $250,000.

Assets are depreciated on a straight-line basis beginning the month the asset was put in to use.

I. Advances

Advances are payments made to cover certain periodic expenses before those expenses are
incurred. In accordance with Public Law 91-614, TTB participated in the Treasury’s Working
Capital Fund for which it receives services on a reimbursable basis. Payments from TTB to
Treasury are made in advance and are authorized for services that have been deemed as more
advantageous and more economical when provided centrally. The services provided include
those for telecommunications, payroll/personnel systems, printing, and other central services.
The amount reported represents the balance available at the end of the fiscal year after
charges/expenses incurred by the fund are deducted.




                                                 78
                                    TTB 2010 Annual Report


J. Non-entity Assets

Non-entity assets consist primarily of cash and receivables for excise taxes and fees that are to be
distributed to the Treasury, other Federal agencies, and other governments. Non-entity assets
are not considered a financing source (revenue) available to offset the operating expenses of TTB.

K. Liabilities

Liabilities represent the amount of monies, or other resources, that are likely to be paid by TTB as
the result of a transaction or event that has already occurred. However, no liability can be paid by
TTB absent an appropriation. Liabilities for which an appropriation has not been enacted and for
which there is uncertainty an appropriation will be enacted, are classified as a liability not covered
by budgetary resources. Also, the Government, acting in its sovereign capacity, can abrogate
liabilities of TTB that arise from other than contracts.

Intragovernmental liabilities consist of amounts payable to the Treasury for collections of excise
tax, fees receivable, payments to other Federal agencies, and accrued Federal Employees’
Compensation Act (FECA) charges. Liabilities also include amounts due to be refunded to
taxpayers, as well as amounts held in escrow for Offers-in-Compromise and cash bonds held in
guaranteeing payment of taxes.

L. Litigation Contingencies and Settlements

Probable and estimable litigation and claims against TTB are recognized as a liability and expense
for the full amount of the expected loss. Expected litigation and claim losses include settlements
to be paid from the Treasury Judgment Fund (Judgment Fund) on behalf of TTB and settlements
to be paid from Bureau appropriations. The Judgment Fund pays Bivens-type tort claims.
Settlements paid from the Judgment Fund for TTB are recognized as an expense and imputed
financing source.

M. Annual, Sick, and Other Leave

Annual and compensatory leave earned by TTB employees, but not yet used, is reported as an
accrued liability. The accrued balance is adjusted annually to current pay rates. Any portions of
the accrued leave, for which funding is not available, are recorded as an unfunded liability. Sick
and other leave are expensed as taken.

N. Interest on Late Payments

Pursuant to the prompt payment Act, 31 # U.S.C. & 3901-3907, Federal agencies must pay
interest on payments for goods or services made to business concerns after their due date. The
due date is generally 30 days after receipt of a proper invoice or acceptance of the goods or
services.




                                                 79
                                   TTB 2010 Annual Report


O. Retirement Plan

Employees hired after December 31, 1983, are automatically covered by FERS and Social Security.
For most employees hired after December 31, 1983, TTB also contributes the employers’
matching share of Social Security. For the FERS basic benefit, employees contribute 0.8 percent of
basic pay while TTB contributes 11.2 percent, for a total contribution rate of 12.0 percent in FY
2010, as well as FY 2009. The cost of providing a FERS basic benefit, as provided by the Office of
Personnel Management (OPM), is equal to the amounts contributed by TTB and the employees.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and TTB makes a mandatory 1
percent contribution to this account. In addition, TTB makes matching contributions, ranging
from 1 to 4 percent, for FERS-eligible employees who contribute to their TSP accounts. Matching
contributions are not made to the TSP accounts established by CSRS employees.

TTB recognized the full cost of providing future pension and other retirement benefits (ORB) for
current employees as required by Statement of Federal Financial Accounting Standards (SFFAS)
No. 5. Full cost includes pension and ORB contributions paid out of Bureau appropriations and
costs financed by OPM. Costs financed by OPM are reported in the accompanying financial
statements as an imputed financing revenue source. Reporting amounts such as plan assets,
accumulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

P. Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job and employees who have incurred a work-
related injury or occupational disease. The future workers’ compensation estimates were
generated from an application of actuarial procedures developed to estimate the liability for FECA
benefits. The actuarial liability estimates for FECA benefits include the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
is determined using the paid losses extrapolation method, which is calculated over the next 37-
year period. This method utilizes historical benefit patterns related to a specific incurred period
to predict ultimate payments related to that period.

Claims are paid for TTB employees by the Department of Labor (DOL) from the FECA fund, for
which TTB reimburses DOL. The accrued liability represents claims paid by DOL for TTB
employees, for which the fund has not been reimbursed. The actuarial liability is an estimate of
future costs to be paid on claims made by TTB employees. The estimated future cost is not
obligated against budgetary resources until the year in which the cost is billed to TTB.




                                                80
                                   TTB 2010 Annual Report


Q. Use of Estimates

The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amount of assets and liabilities, as well as the disclosure of
contingent liabilities at the date of the financial statements, and the amount of revenues and cost
reported during the period. Actual results could differ from those estimates.

R. Tax Exempt Status

As an agency of the Federal Government, TTB is exempt from all income taxes imposed by any
governing body, whether it is a Federal, state, commonwealth, local, or foreign government.




                                                81
                                    TTB 2010 Annual Report


Note 2. Fund Balance with Treasury

Fund Balance with Treasury as of September 30, 2010 and 2009
consisted of the following (in thousands):

                                                          2010             2009


   Fund Balances:
    General Funds                                        $ 25,579        $ 22,103
    Other Funds                                            11,169           9,122
      Total                                              $ 36,748        $ 31,225

   Status of Fund Balances:
    Unobligated Balance - Available                     $ 3,247          $ 1,653
    Unobligated Balance - Unavailable                      1,598            1,504
    Obligated Balance Not Yet Disbursed                   20,734           18,946
      Subtotal                                            25,579           22,103
    Adjustment for Non-Budgetary Funds                    11,169            9,122
      Total Status of Fund Balances                     $ 36,748         $ 31,225



The other funds and non-budgetary fund balance primarily represents cash bonds, which are cash
payments made to the Bureau by taxpayers, in lieu of obtaining corporate surety bonds,
guaranteeing payment of taxes. It also includes Offers-in-Compromise (OIC). OICs are payments
made to the Bureau, being held in escrow, to finance offers from taxpayers to settle their tax debt
at less than the assessed amount.

The unobligated balance that is unavailable is the balance of prior years’ expired appropriations.




                                                82
                                    TTB 2010 Annual Report


Note 3. Accounts Receivable

Accounts Receivable as of September 30, 2010 and 2009 consisted of the following (in
thousands):

                                                                          2010        2009

   Intragovernmental Accounts Receivable:
     Due from Treasury Departmental Offices                             $  81        $ 204
     Due from Treasury Executive Office of Asset Forfieture               470          285
     Due from Community Financial Development Institutions Fund            16          -
       Total Intragovernmental Accounts Receivable                      $ 567        $ 489

     Due from the Government of Puerto Rico                             $ 331        $ 365
     Due from Commercial Vendors                                            5            5
     Due from Employees                                                     7            9
      Total Accounts Receivable Due from the Public                     $ 343        $ 379


No allowance for doubtful accounts has been recognized, nor have any accounts been written off.
All intragovernmental accounts receivable are considered fully collectible. Additionally, other
non-Federal receivables consist of a receivable from the government of Puerto Rico, which is
collected via an offset to cover-over payments the Bureau remits to Puerto Rico, and employee
accounts receivable, which can be collected via salary offsets.


Note 4. Tax and Trade Receivables, Net

Tax and Trade Receivables as of September 30, 2010 and 2009 consisted of the following
(in thousands):

                                                                    2010            2009


   Tax and Trade Receivables                                      $ 97,158        $ 107,925
   Interest Receivable                                               13,240          18,767
   Penalties, Fines and Administrative Fees Receivable               10,125          12,007
     Total Tax and Trade Receivables                                120,523         138,699
   Allowance for Doubtful Accounts                                 (112,553)       (129,669)
     Total Tax and Trade Receivables, Net                         $ 7,970         $ 9,030


All tax and trade receivables are non-entity assets. An allowance for uncollectible amounts has
been established based on: 1) an analysis of individual receivable balances and 2) the application
of historical non-collection rates for similar types of receivables. Because current laws governing
the collection period for these tax assessments, 26 U.S.C. 6502, stipulate taxes are collectible for
10 years from the date the taxes were assessed, a large amount of aged receivables that are not



                                                 83
                                    TTB 2010 Annual Report


likely to be collected have been offset with an allowance, but not written off. This is an offsetting
liability reported as Due to the General Fund.

Note 5. Due from the General Fund and Due to the General Fund

In addition to collecting taxes from the alcohol and tobacco industries, the Bureau also is
responsible for paying refunds, when applicable, to those same industry members. Amounts due
from the General Fund represent a receivable from appropriations to cover the Bureau’s accrued
refund liability to alcohol and tobacco excise taxpayers.

                                              2010                            2009


Due from the General Fund                   $ 12,802                  $        8,489


Amounts due to the General Fund primarily represent the balance of receivables related to
Alcohol and Tobacco excise taxes. Receivables related to Firearms and Ammunition excise taxes
are payable to the Department of Interior’s Fish and Wildlife Restoration Fund, not the General
Fund.

                                               2010                            2009


Due to the General Fund                      $ 7,550                      $     8,173




                                                 84
                                   TTB 2010 Annual Report


Note 6. Property, Plant, and Equipment, Net (PP&E)

Property, Plant and Equipment as of September 30, 2010 and 2009 consisted of the following
(in thousands):

   2010                         Estimated Useful     Acquisition Accumulated     Net
                                  Life (Years)         Value     Depreciation Book Value
   Internal Use Software               3-5           $ 11,060       $  4,346       $  6,714
   Equipment                           4-6              8,357          4,697          3,660
   Leasehold Improvements              2-5                691            462            229
   Building                            40               9,772          1,592          8,180
   Construction in Process                                474              -            474
     Total PP&E                                      $ 30,354       $ 11,097       $ 19,257

   2009                         Estimated Useful     Acquisition Accumulated     Net
                                  Life (Years)         Value     Depreciation Book Value
   Internal Use Software               3-5           $  8,760       $    3,926     $  4,834
   Equipment                           4-6              5,885            3,687        2,198
   Leasehold Improvements              2-5                535              350          185
   Building                            40               9,772            1,339        8,433
   Construction in Process                                  -                -          -
     Total PP&E                                      $ 24,952       $    9,302     $ 15,650


Depreciation and amortization are calculated using the straight-line method.

The balance in the buildings account represents TTB’s 13.2 percent equity interest in the National
Laboratory Center facility in Beltsville, Maryland, which TTB co-owns with ATF. The ownership
rights were established in a June 4, 2004, opinion from the Chief Counsel.




                                                85
                                      TTB 2010 Annual Report


Note 7. Advances

Intragovernmental advances consist of the balances paid to Treasury’s Working Capital Fund that
have not yet been earned and billed by the fund.

Note 8. Non-entity Assets

Non-entity assets as of September 30, 2010 and 2009 consisted of the following
(in thousands):

                                                                 2010          2009

    Intragovernmental Non-entity Assets:
      Fund Balance with Treasury                                $ 11,169   $     9,122
      Due from the General Fund                                   12,802         8,489
        Total Intragovernmental Non-entity Assets                 23,971        17,611
      Tax and Trade Receivables, Net                               7,970         9,030
      Total Non-Entity Assets                                     31,941        26,641
      Total Entity Assets                                         46,598        40,554
    Total Assets                                                $ 78,539   $ 67,195

Note 9. Other Liabilities

Other Liabilities as of September 30, 2010 and 2009 consisted of the
following (in thousands):

                                                                2010           2009


    Due to the Fish and Wildlife Fund                       $      420     $      854
     Other Intragovernmental Liabilities                           420            854

    Offers-in-Compromise not yet Accepted                          358            446
     Total Other Liabilities with the Public                       358            446

    Total Other Liabilities                                 $      778     $    1,300



All Other Liabilities are considered current liabilities.




                                                    86
                                   TTB 2010 Annual Report


Note 10. Liabilities Not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources as of September 30, 2010 and 2009
consisted of the following (in thousands):

                                                                      2010             2009


   Accrued FECA Liability                                         $       48       $          64
    Total Intragovernmental Liabilities not Covered by
      Budgetary Resources                                                 48                  64
   FECA Actuarial Liability                                              132              243
   Accrued Leave                                                       4,377            4,319
    Total Liabilities with the Public not Covered by
      Budgetary Resources                                              4,509            4,562
   Total Liabilities not Covered By Budgetary Resouces                 4,557            4,626
   Total Liabilities Covered by Budgetary Resources                   41,862           33,804
   Total Liabilities                                              $ 46,419         $ 38,430



Note 11. Future Funding Requirements

Total liabilities not covered by budgetary resources generally do not equal the total financing
sources yet to be provided on the Reconciliation of Net Cost of Operations to Budget. The
amounts reported on the Balance Sheet are period ending balances, while the amounts reported
on the Reconciliation of Net Cost of Operations to Budget are activity for the period.

Generally, liabilities not covered by budgetary resources require future funding and can be
liquidated only with the enactment of future appropriations.




                                                87
                                    TTB 2010 Annual Report


Note 12. Imputed Financing

Imputed Financing as of September 30, 2010 and 2009 consisted of the
following (in thousands):

                                                      2010             2009
                                                                    (Unaudited)
   Health Insurance                               $     2,665        $     2,576
   Life Insurance                                           8                  8
   Pension                                              2,425              1,546
     Total Imputed Financing                      $     5,098        $     4,130

Imputed financing recognizes actual cost of future benefits to be paid by other Federal entities.
These benefits include Federal Employees Health and Benefits Program (FEHB), Federal
Employees Group Life Insurance Program (FEGLI), and pensions. Imputed financing also
recognizes costs paid by the Judgment Fund. The Fund was established and funded by Congress
under 31 U.S.C. 1304 to pay in whole or in part court judgments and settlement agreements
negotiated by Treasury on behalf of agencies, as well as certain types of administrative awards.
The Judgment Fund did not pay out any awards on TTB’s behalf during fiscal years 2010 or 2009.

TTB does not report CSRS assets, FERS assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to retirement plans because the accounting for and reporting of such amounts is
the responsibility of OPM. Based on cost factors provided by OPM, which vary by retirement
plan, estimated future pension benefits for TTB employees, to be paid by OPM, totaled $2.4
million and $1.5 million for fiscal years 2010 and 2009 respectively. Similarly, OPM rather than
TTB, reports liabilities for future payments to retired employees who participate in the FEHB and
FEGLI programs. The FEHB cost factor applied to a weighted average number of employees
enrolled in the FEHB program increased in FY 2010 to $5,906, from $5,756 in FY 2009, producing
$2.7 million and $2.6 million of imputed cost for employees’ heatlth benefits in each respective
year. The cost factor, as provided by OPM, for employees enrolled in the FEGLI program,
remained unchanged from FY 2009 to FY 2010, at .02 percent of employees’ basic pay. The FEGLI
amounts totaling $8,000 each are also included as an expense and imputed financing source in
TTB financial statements for fiscal years 2010 and 2009, respectively.




                                                88
                                      TTB 2010 Annual Report


    Note 13. Consolidated Gross Cost and Earned Revenue by Budget Functional
    Classification


Consolidated Gross Cost and Earned Revenue by Budget Function Classification as of September 30,
2010 and 2009 consisted of the following (in thousands):

  Fiscal Year Ended September 30, 2010
                       Budget Function Classification       Gross        Earned           Net
  Activity             Name                      Code       Costs        Revenue         Costs

  Intragovernmental   Central Fiscal Operations   803     $ 30,316      $    (97)      $ 30,219
  With the Public     Central Fiscal Operations   803        78,007       (2,614)         75,393
  Consolidated        Central Fiscal Operations   803     $ 108,323     $ (2,711)      $ 105,612


  Fiscal Year Ended September 30, 2009 (Unaudited)
                       Budget Function Classification       Gross        Earned           Net
  Activity             Name                      Code       Costs        Revenue         Costs

  Intragovernmental   Central Fiscal Operations   803     $ 27,819      $   (613)      $ 27,206
  With the Public     Central Fiscal Operations   803        75,155       (2,499)        72,656
  Consolidated        Central Fiscal Operations   803     $ 102,974     $ (3,112)      $ 99,862




                                                  89
                                   TTB 2010 Annual Report


Note 14. Statement of Budgetary Resources vs. Budget of the United States
Government

The following charts displays balances from the FY 2009 Statement of Budgetary Resouces and
actual fiscal year balances included in the FY 2011 Presidents Budgets. There were no
differences. The FY 2012 budget, which would include FY 2010 actuals, had not been published at
the time of this report.

                                                                         September 30, 2009
                                                                      (In Millions / Unaudited)
                                                                     Statement of
                                                                      Budgetary        President's
                                                                      Resourses          Budget

BUDGETARY RESOURCES AVAILABLE FOR OBLIGATION                          $      103      $      103

STATUS OF BUDGETARY RESOURCES AVAILABLE OBLIGATION
 Obligations Incurred                                                 $      102      $      102
 Unobligated balance carried forward, end of year                              1               1
TOTAL STATUS OF BUDGETARY RESOURCES AVAILABLE FOR
 OBLIGATION                                                           $      103      $      103

NET OUTLAYS                                                           $        96     $       96


Additionally, the FY 2011 President’s Budget disclosed budget authority of $473 million for FY
2009, funding cover-over payments to Puerto Rico, which is not reported in the Statement of
Budgetary Resources.

The cover-over payments and associated tax revenues are reported as custodial activity of the
Bureau. The tax revenues are not available for use in the operation of the Bureau and are not
reported on the Statement of Net Cost. Likewise, the resultant cover-over payments are not
recognized as an operating expense of the Bureau. Consequently, to present the refunds as an
expense of the Bureau on the Statement of Net Cost would be inconsistent with the reporting of
the related Federal tax revenue and would materially distort the costs incurred by the Bureau in
meeting its strategic objectives. Further, since this activity is not reported on the Statement of
Net Cost, it would be contradictory to report the budget authority on the Statement of Budgetary
Resources.




                                                90
                                   TTB 2010 Annual Report


Note 15. Apportionment Categories of Obligations Incurred

Obligations Incurred as of September 30, 2010 and 2009 consisted of the following (in
thousands):

                                                                                     Total
          Fiscal         Apportionment          Direct         Reimbursable       Obligations
           Year            Category           Obligations       Obligations        Incurred

   2010                   Category B         $ 102,117         $       3,984      $    106,101

   2009 (Unaudited)       Category B         $        98,235   $       3,874      $    102,109


The amount of direct and reimbursable obligations against amounts apportioned under Category
B is reported in the table above. Apportionment categories are determined by the
apportionment categories reported on the Standard Form 132 Apportionment and
Reapportionment Schedule. Category B represents annual apportionments.



                                                                   2010               2009
                                                                                   (Unaudited)

Undelivered Orders End of Period                               $      13,073       $     15,278



Note 16. Net Custodial Revenue Activity

 Excise Taxes

  As an agent of the Federal Government and as authorized by 26 U.S.C., TTB collects excise
  taxes from alcohol, tobacco, firearms, and ammunition industries. In addition, special
  occupational taxes are collected from certain alcohol and tobacco businesses. During FY 2010
  and FY 2009, TTB collected $23.8 billion and $20.6 billion respectivlely in taxes, interest, and
  other custodial revenues.

  Substantially all of the taxes collected by TTB net of related refund disbursements are remitted
  to the Department of Treasury General Fund. The Department of Treasury further distributes
  this revenue to Federal agencies in accordance with various laws and regulations. The firearms
  and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and
  Wildlife Restoration Fund under provisions of the Pittman-Robertson Act of 1937.




                                                 91
                                    TTB 2010 Annual Report


 Refunds and Other Payments

  During FY 2010 and FY 2009, TTB issued nearly $713 million and $768 million in refunds, cover-
  over payments, and drawback payments in the respective years.

  Tax Refunds

  Tax Refunds result when taxpayers file returns for payments made for a given tax period and
  the result of the return is an overpayment.

  Cover-over Payments

  Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on
  certain articles produced in Puerto Rico and the Virgin Islands, and imported into the United
  States. In accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the
  United States are custodial revenues and “covered over,” or paid into, the treasuries of Puerto
  Rico and the Virgin Islands.

  TTB maintains operations in Puerto Rico to enforce the provisions of chapter 51 in respect to
  items of Puerto Rican manufacture brought in to the United States. These operations include
  conducting annual revenue, application, and product integrity investigations of large alcohol
  and tobacco industry members. Except for application investigations, TTB investigates medium
  and small alcohol and tobacco producers in response to specific problems and risk indicators.
  Revenue inspections are used to verify that TTB is collecting all of the revenue that is rightfully
  due from the taxpayer. TTB staff in Puerto Rico also conducts qualification inspections of all
  distilled spirits producers/processors, wineries, wholesalers, importers, Manufacturer of
  Nonbeverage Products (MNBP) claimants, and Specially Denatured Alcohol permit applicants.
  All costs associated with the functioning and supporting of the Puerto Rico office, $2.6 and
  $2.5 million in FY 2010 and FY 2009 respectively, are offset against the cover-over payments
  made by the United States to Puerto Rico.

  Drawbacks

  Under current law, 26 U.S.C. 5134, MNBP permittees may be eligible to claim a refund of tax
  paid on distilled spirits used in their products. In the case of distilled spirits, on which the tax
  has been paid or determined, a drawback shall be allowed on each proof gallon at the rate of
  $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund
  is due upon the claimant providing evidence that the distilled spirits on which the tax has been
  paid or determined were unfit for beverage purposes and were used in the manufacture or
  production of medicines, medicinal preparations, food products, flavors, flavoring extracts, or
  perfume.




                                                 92
                                       TTB 2010 Annual Report


Refunds, Drawbacks and Coverover Payments as of September 30, 2010 and 2009
consisted of the following (in thousands):

                                                                              2010              2009
                                                                                             (Unaudited)
   Alcohol and Tobacco Excise Tax Refunds                               $ 28,232             $ 17,791
   Drawbacks on MNBP Claims                                              297,596              268,612
   Interest and Other Payments                                               315                  252
       Refunds and Drawbacks                                             326,143              286,655
   Cover-over Payments - Puerto Rico                                       378,186             472,695
   Cover-over Payments - Virgin Islands                                      8,871               8,624
     Amounts Provided to Non-federal Entities                              387,057             481,319
   Total Refunds, Drawbacks and Coverover Payments                      $ 713,200            $ 767,974



Note 17. Custodial Revenue

Collection and Disposition of Custodial Revenue as of September 30, 2010 and 2009 consisted of
the following (in thousands):

                                        FY 2010 Collections and Refunds by Tax Year               FY 2010
                                                                                  Pre-
  Revenue Type                       2010         2009            2008           2008               Total
  Excise Taxes                 $ 17,379,680     $ 6,365,498     $    2,249     $     9,086    $ 23,756,513
  Fines, Penalties,
   Interest and Other                   2,491             629           91             395             3,606
  Total Revenue Received           17,382,171       6,366,127        2,340           9,481        23,760,119
  Less: Amounts Collected
    for Non-federal Entities       (387,057)          -                  -               -        (387,057)
  Total                        $ 16,995,114 $ 6,366,127         $    2,340     $     9,481    $ 23,373,062
  Refund Type
  Excise Taxes                 $     171,499    $    150,309    $    2,659     $     1,543    $     326,010
  Fines, Penalties,
   Interest and Other                    133                -             -              -                  133

  Total Refunds & Drawbacks    $     171,632    $    150,309    $    2,659     $     1,543    $     326,143
  Amounts Provided to Fund
   the Federal Government      $ 16,823,482     $ 6,215,818     $     (319) $        7,938    $ 23,046,919




                                                     93
                                         TTB 2010 Annual Report



                                     FY 2009 Collections and Refunds by Tax Year (Unaudited)         FY 2009
                                                                                     Pre-
  Revenue Type                         2009            2008          2007           2007               Total
  Excise Taxes                   $ 16,779,884     $ 3,822,950     $     2,678   $      10,975    $ 20,616,487
  Fines, Penalties,
   Interest and Other                       738           1,518           355               8             2,619
  Total Revenue Received             16,780,622       3,824,468         3,033          10,983        20,619,106
  Less: Amounts Collected
    for Non-federal Entities         (481,319)          -                   -               -        (481,319)
  Total                          $ 16,299,303 $ 3,824,468         $     3,033   $      10,983    $ 20,137,787
  Refund Type
  Excise Taxes                   $      135,765   $    146,681    $     2,317   $        1,699   $     286,462
  Fines, Penalties,
   Interest and Other                       193              -              -                -             193
  Total Refunds & Drawbacks      $      135,958   $    146,681    $     2,317   $        1,699   $     286,655
  Amounts Provided to Fund
    the Federal Government       $ 16,163,345     $ 3,677,787     $       716   $        9,284   $ 19,851,132



Note 18. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget explains the difference between the
budgetary net obligations and the proprietary net cost of operations.

Reconciliation of Net Cost of Operations to Budget, as of September 30, 2010 and 2009 consisted of the
following (in thousands)

                                                                                    2010            2009
                                                                                                 (Unaudited)
                                                                                       (In Thousands)
Resources Used to Finance Activities
  Budgetary Resources Obligated
     Obligations Incurred                                                       $ 106,101            $ 102,109
     Less: Spending Authority from Offsetting Collections
       and Recoveries                                                                (5,448)             (4,883)
     Obligations Net of Offsetting Collections and Recoveries                       100,653              97,226
     Less: Offsetting Receipts                                                           (9)                (17)
     Net Obligations                                                                100,644              97,209
  Other Resources
     Transfers-in without Reimbursement                                             1,528                  399
     Imputed Financing from Costs Absorbed by Others                                5,098                4,130
     Net Other Resources Used to Finance Activities                                 6,626                4,529
  Total Resources Used to Finance Activities                                    $ 107,270            $ 101,738




                                                      94
                                     TTB 2010 Annual Report


Resources Used to Finance Items not Part of the
  Net Cost Of Operations
      Change in Budgetary Resources Obligated for Goods, Services
       and Benefits Ordered but not Yet Provided (+/-)                    $   (2,006)      $    (473)
      Resources that Fund Expenses Recognized in Prior Periods                   124              31
      Other Budgetary Offsetting Collections and Receipts that
       do not Affect Net Cost of Operations                                   1,519              382
      Resources that Finance the Acquisition of Assets                        5,402            5,137
      Other Resources or Adjustments to Net Obligated Resources
       that do not Affect Net Cost of Operations (+/-)                        (1,528)           (399)
   Total Resources Used to Finance Items not Part of the Net
    Cost of Operations                                                    $   3,511        $   4,678

   Total Resources Used to Finance the Net Cost of Operations             $ 103,759        $ 97,060

Components of the Net Cost of Operations Requiring
 or Generating Resources in Future Periods
   Components Requiring or Generating Resources in Future Periods:
      Increase in Annual Leave Liability                                  $      58        $      39
   Total Components of Net Cost of Operations that will Require
    or Generate Resources in Future Periods                               $      58        $      39

Components of the Net Cost of Operations not Requiring
 or Generating Resources
      Depreciation and Amortization                                       $   1,795        $   2,763
   Total Components of Net Cost of Operations that will not Require
    or Generate Resources                                                 $   1,795        $   2,763

   Total Components of Net Cost of Operations that will not Require
    or Generate Resources in the Current Period                           $   1,853        $   2,802

NET COST OF OPERATIONS                                                    $ 105,612        $ 99,862




Note 19: Contingent Liabilities

As of September 30, 2010, TTB is party to six legal actions, regarding personnel matters, where
legal counsel believes an unfavorable outcome is probable or reasonably possible. The maximum
amount plaintiffs can recover for these six cases is $1,800,000. It is estimated that TTB’s potential
liability on four of the six cases will approximate $194,000. The potential liability on the other
two cases cannot be estimated.




                                                  95
                                        TTB 2010 Annual Report



Required Supplementary Information (Unaudited)
Budgetary Information

Budgetary information aggregated for the purposes of the Statement of Budgetary Resources
should be disaggregated for each of an entity’s major budget accounts (i.e., Approriated Funds,
Trust Funds, Revolving Funds, or other funds) and presented as Supplementary Information.
However, for proprietary reporting, TTB only has appropriated funds. Consequently, a Combining
Statement of Budgetary Resources disaggregated by fund type has not been presented.


Excise Tax and Other Collections



                                    Required Supplementary Information
                               Excise Tax and Other Collections by Fiscal Year
                                                 Unaudited
 Dollars in Thousands
  Fiscal
   Year       Alcohol      Tobacco          FAET           SOT           FST          Other         Total

   2001     $ 6,674,425   $ 7,119,726   $   175,959   $    103,610   $      528   $       168   $   14,074,416
   2002       6,889,401     7,763,652       205,027        101,893      115,609           159       15,075,741
   2003       6,910,631     7,380,807       193,414        103,781        1,628             -       14,590,261
   2004       6,995,366     7,433,852       216,006        100,562            -           359       14,746,145
   2005       7,074,076     7,409,608       225,818         10,190            9           141       14,719,842
   2006       7,182,940     7,350,058       249,578          2,895          638           146       14,786,255
   2007       7,232,138     7,194,081       287,835          2,808            -            32       14,716,894
   2008       7,420,576     6,851,705       312,622            448            -           634       14,585,985
   2009       7,424,292    11,548,504       452,693            272    1,192,375           970       20,619,106
   2010       7,476,789    15,913,479       360,813            300        8,558           180       23,760,119
  Average   $ 7,128,063   $ 8,596,547   $   267,977   $     42,676   $ 131,935    $       279   $   16,167,476




The sharp decrease in SOT tax collections was the result of a new law that became effective
during fiscal year 2005 that suspended the collection of most of the taxes. The law became
permanent in 2008.

TTB collects Firearms and Ammunition Excise Tax (FAET) on behalf of the Department of Interior,
U.S. Fish and Wildlife Service, and deposits the collections directly into the Fish and Wildlife
Restoration Fund. During fiscal years 2010 and 2009, TTB incurred $2.3 million and $2.9 million
respectively of direct and indirect costs associated with collecting the FAET taxes. The law
currently does not provide for TTB to recover these costs. The cost of the program was
communicated to the U.S. Fish and Wildlife Service so the agency could properly record an
imputed cost in its financial records.




                                                          96
                                       TTB 2010 Annual Report


Refunds, Cover-over Payments, and Drawback Payments



                           Required Supplementary Information
          Refunds, Cover-over Payments, and Drawback Payments by Fiscal Year
                                       Unaudited
Dollars in Thousands
 Fiscal Cover Over Cover Over           A&T       Drawbacks   Interest
  Year     Puerto Rico Virgin Islands Excise Tax MNBP Claims and Other       Total

 2001   $       332,903    $       3,532    $    13,260    $    289,985    $      1,765     $   641,445
 2002           340,362            5,145         10,523         361,854           1,855         719,739
 2003           356,144            6,405         15,168         296,168           2,011         675,896
 2004           335,293            6,244         15,409         355,605           1,216         713,767
 2005           419,602            6,010         18,504         317,132           2,100         763,348
 2006           358,664            6,491         17,524         337,632             699         721,010
 2007           459,278            8,054         13,208         335,706             972         817,218
 2008           373,418            7,615         14,125         283,462           2,938         681,558
 2009           472,695            8,624         17,791         268,612             252         767,974
 2010           378,186            8,871         28,232         297,596             315         713,200
Average $       382,655    $       6,699    $    16,374     $   314,375    $      1,412    $    721,516


A&T - Alcohol and Tobacco
MNBP - Manufacturer of Nonbeverage Products
Note - During October 2008, the Puerto Rico cover-over rate was increased from $10.50 per proof
gallon to $13.25 per proof gallon, with retroactive provisions, resulting in a subtantial increase in the
Puerto Rico cover-over payments during FY 2009. The increased rate expired December 31, 2009.




                                                     97
                              TTB 2010 Annual Report



Other Accompanying Information (Unaudited)
Intragovernmental Assets

                        Other Accompanying Information
                           Intragovernmental Assets
                            As of September 30, 2010
                                   Unaudited
Dollars in Thousands
                             Agency   Fund Balance       Accounts    Advances and
Trading Partner               Code     W/Treasury       Receivable   Other Assets
Department of the Treasury    20      $        36,748   $    567     $       852
General Fund                  99                    -     12,802               -
          Total                       $        36,748   $ 13,369     $       852



                        Other Accompanying Information
                           Intragovernmental Assets
                            As of September 30, 2009
                                   Unaudited
Dollars in Thousands
                             Agency   Fund Balance       Accounts    Advances and
Trading Partner              Code      W/Treasury       Receivable   Other Assets

Department of the Treasury    20      $        31,225   $     489    $      1,933
General Fund                  99                    -       8,489               -
          Total                       $        31,225   $   8,978    $      1,933




                                          98
                                    TTB 2010 Annual Report


Intragovernmental Liabilities

                                  Other Accompanying Information
                                    Intragovernmental Liabilities
                                      As of September 30, 2010
                                             Unaudited
Dollars in Thousands
                                           Agency        Accounts        Accrued      Custodial and
Trading Partner                             Code         Payable          FECA       Other Liabilities
Government Printing Office                   04      $          19   $           -   $              -
Department of the Interior                   14                  -              -                420
Department of Justice                        15                273              -                  -
Department of Labor                          16                  -             48                  -
Department of the Treasury                   20                  2              -                  -
Office of Personnel Management               24                  -              -                422
General Services Administration              47                404              -                  -
Treasury General Fund                        99                  2              -              7,709
                    Total                            $         700   $         48     $        8,551




                                  Other Accompanying Information
                                    Intragovernmental Liabilities
                                      As of September 30, 2009
                                             Unaudited
Dollars in Thousands
                                           Agency        Accounts        Accrued      Custodial and
Trading Partner                             Code         Payable          FECA       Other Liabilities
Government Printing Office                   04      $         241   $           -   $              -
Department of the Interior                   14                  -              -                854
Department of Justice                        15                104              -                  -
Department of Labor                          16                  -             64                  -
Office of Personnel Management               24                  -              -                384
General Services Administration              47                 55              -                  -
Department of Health and Human Services      75                  2              -                  -
Department of Defense                        97                  6              -                  -
Treasury General Fund                        99                  -              -              8,316
                    Total                            $         408   $         64     $        9,554




                                               99
                                 TTB 2010 Annual Report


Intragovernmental Earned Revenue


                         Other Accompanying Information
                       Intragovernmental Earned Revenue
            For the Fiscal Years Ended September 30, 2010 and 2009
                                   Unaudited
Dollars in Thousands                               FY 2010         FY 2009
                                 Agency
Trading Partner                   Code
Department of Treasury                20                        97            613
 Total                                                $         97   $        613


Budget Function Classification       Code                 FY 2010        FY 2009
Central Fiscal Operations             803             $         97   $        613
 Total                                                $         97   $        613




                                            100
                                    TTB 2010 Annual Report


Intragovernmental Gross Cost

                         Other Accompanying Information
                          Intragovernmental Gross Cost
             For the Fiscal Years Ended September 30, 2010 and 2009
                                    Unaudited
Dollars in Thousands                                FY 2010         FY 2009
                                           Agency
Trading Partner                             Code
Library of Congress                                  03       $        53      $        55
Government Printing Office                           04               176              402
Department of Interior                               14                60                2
Department of Justice                                15               694              650
Department of Labor                                  16                11               28
Department of State                                  19                18                2
Department of the Treasury                           20             6,453            5,983
Office of Personnel Management                       24            13,171           11,852
General Services Administration                      47             6,375            5,607
Environmental Protection Agency                      68                20                7
Department of Homeland Security                      70               290              319
Department of Health and Human Services              75                29               30
National Archives Records Administration             88                36               35
Department of Defense                                97                38               41
General Fund                                         99             2,892            2,806
                    Total                                     $    30,316      $    27,819

During fiscal years 2010 and 2009, TTB incurred costs with other Federal agencies totaling
approximately $30 million and $28 million in each of the respective years. The majority of those
costs were associated with the five entities detailed below.

 Department of Justice: TTB paid ATF $694,000 and $650,000 in fiscal years 2010 and 2009
  respectively for shared lab space and shared building services.

 Department of the Treasury: The Bureau received services from Treasury’s Working Capital
  Fund, as well as administrative services from the Bureau of Public Debt’s Administrative
  Resource Center, in fiscal years 2010 and 2009 in the amounts of $6.5 million and $6.0 million
  respectively.

 Office of Personnel Management: TTB incurred $13.2 million and $11.9 million in costs for
  employee benefits for fiscal years 2010 and 2009 respectively.

 General Services Administration: TTB paid $6.4 million and $5.6 million to GSA for rent and
  information technology services in fiscal years 2010 and 2009 respectively.

   General Fund: The Bureau paid $2.9 million and $2.8 million respectively for employee benefits
    and lockbox fees in fiscal years 2010 and 2009.

                                               101
                                      TTB 2010 Annual Performance Report




Part IV
Appendices

Principal Officers of TTB

Administrator ............................................................................................................ John Manfreda

Deputy Administrator ...................................................................................................... Mary Ryan

Equal Employment Opportunity and Diversity Advancement ................................. Altivia Jackson

Assistant Administrator, Field Operations ........................................................ Tom Crone (acting)

Assistant Administrator, Headquarters Operations ................................................. William Foster

Assistant Administrator, Management/CFO.............................................................. Cheri Mitchell

Assistant Administrator, Information Resources/CIO ............................................. Robert Hughes

Director, Office of Inspection .............................................................................. Theresa Glasscock

Executive Liaison for Industry and State Matters ........................................... Susan Stewart Evans

Chief Counsel ......................................................................................................... Robert Tobiassen



                                            For additional information, contact:



                                      Alcohol and Tobacco Tax and Trade Bureau

                                             1310 G Street, NW, Suite 300 East

                                                    Washington, DC 20220



                                                          (202) 453-2000



                                                      http://www.ttb.gov


                                                                  102
         TTB 2010 Annual Performance Report




TTB Organization Chart




                        103
                           TTB 2010 Annual Performance Report


Connecting the Treasury and TTB Strategic Plans
   TREASURY STRATEGIC GOALS
                                      TTB STRATEGIC GOALS                 TTB OBJECTIVES
        AND OBJECTIVES

        Economy: U.S. and World Economies Perform at Full Economic Potential


  TREASURY ECONOMIC                PROTECT THE PUBLIC (PTP):          TTB PTP OBJECTIVES
  STRATEGIC OBJECTIVE:
  Improved economic                Alcohol and tobacco industry   PTP 1. BUSINESS INTEGRITY:
  opportunity, mobility and        operators meet permit          Assure that only qualified
  security with robust, real,      qualifications, and alcohol    persons and business entities
  sustainable economic growth      beverage products comply       operate within the industries TTB
  at home and abroad               with federal production,       regulates
                                   labeling, and marketing
  Outcome:                         requirements                   PTP 2. PRODUCT INTEGRITY:
                                                                  Assure that alcohol beverage
  Strong U.S. economic                                            products comply with Federal
  competitiveness                                                 production, labeling, and
                                                                  advertising requirements

                                                                  PTP 3. MARKET INTEGRITY:
                                                                  Assure fair trade practices
                                                                  throughout the alcohol beverage
                                                                  marketplace




Note: TTB revised its goals and objectives in FY 2010, and will reflect these changes in its next
five-year strategic plan. The current TTB strategic plan covers the period of FY 2007 – 2012.




                                                104
                     TTB 2010 Annual Performance Report

TREASURY STRATEGIC GOALS
                                       TTB STRATEGIC GOALS                   TTB OBJECTIVES
     AND OBJECTIVES

                Finance: Effectively Managed U.S. Government Finances


TREASURY FINANCIAL                  COLLECT THE REVENUE (CTR):             TTB CTR OBJECTIVES
STRATEGIC OBJECTIVE:
Available cash resources to         Enforce the tax code to ensure   CTR 1. TAX VERIFICATION AND
                                    proper Federal tax payment       VALIDATION: Assure voluntary
operate the government
                                    on alcohol, tobacco, firearms,   compliance in the timely and
                                    and ammunition products
Outcome: Revenue collected                                           accurate remittance of tax
when due through a fair and                                          payments
uniform application of the law
at the lowest possible cost                                          CTR 2. CIVIL AND CRIMINAL
                                                                     ENFORCEMENT: Detect and
                                                                     address noncompliance, excise
                                                                     tax evasion, and other criminal
                                                                     violations of the Internal
                                                                     Revenue Code in the industries
                                                                     TTB regulates




TREASURY STRATEGIC GOALS
                                       TTB STRATEGIC GOALS                  TTB OBJECTIVES
     AND OBJECTIVES
         Security: Strengthened International Financial System Security and
                           Enhanced U.S. National Security
TREASURY SECURITY
STRATEGIC OBJECTIVE:                 PROTECT THE PUBLIC:             TTB PTP OBJECTIVES (Security):
Prevented terrorism and
promoted the Nation’s security       Alcohol and tobacco             PTP 1. BUSINESS INTEGRITY:
through strengthened                 industry operators meet         Assure that only qualified
international financial systems                                      persons and business entities
                                     permit qualifications, and
                                     alcohol beverage products       operate within the industries
Outcome: Removed or reduced                                          TTB regulates
                                     comply with federal
threats to national security from
                                     production, labeling, and
terrorism, proliferation of
weapons of mass destruction,
                                     marketing requirements
narcotics trafficking and other
criminal activity on the part of
rogue regimes, individuals, and
their support networks


                                            105
                    TTB 2010 Annual Performance Report

  TREASURY STRATEGIC
                                  TTB STRATEGIC GOALS                 TTB OBJECTIVES
 GOALS AND OBJECTIVES

              Management: Management and Organizational Excellence


TREASURY MANAGEMENT          MANAGEMENT AND                      TTB MGT OBJECTIVES:
STRATEGIC OBJECTIVE:         ORGANIZATIONAL EXCELLENCE:
Enabled and effective                                          MGT 1. HUMAN CAPITAL
Treasury Department          Maximize performance,             MANAGEMENT: Maintain a
                             efficiency, and program results   qualified, engaged, and satisfied
Outcome: A citizen-          through effective resource and    workforce
centered, results-oriented   human capital management
and strategically aligned                                      MGT 2. TECHNOLOGY
organization                                                   SOLUTIONS: Deliver effective,
                                                               streamlined, and flexible IT
Outcome: Exceptional
                                                               solutions that add value and
accountability and
                                                               support program performance
transparency
                                                               MGT 3. FINANCE AND
                                                               PERFORMANCE RESULTS:
                                                               Facilitate strategic
                                                               management and financial
                                                               accountability through the
                                                               delivery of timely and reliable
                                                               financial and performance
                                                               information




                                         106
